<html>
<title> - THE ROLE OF PARTNERSHIPS IN NATIONAL PARKS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
              THE ROLE OF PARTNERSHIPS IN NATIONAL PARKS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, September 23, 2010

                               __________

                           Serial No. 111-66

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      

                  U.S. GOVERNMENT PRINTING OFFICE
58-422                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Ben Ray Lujan, New Mexico
Nick J. Rahall, II, West Virginia, 
    ex officio


                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, September 23, 2010.....................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands, Prepared statement of......................    67
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey........................................    28
    Shuster, Hon. Bill, a Representative in Congress from the 
      State of Pennsylvania......................................    23

Statement of Witnesses:
    Asbury, Donna, Executive Director, Association of Partners 
      for Public Land, Wheaton, Maryland.........................    15
        Prepared statement of....................................    17
    Chamberlain, Nancy, M.S., CPRP, Associate Dean, Department of 
      Recreation and Parks, Northern Virginia Community College, 
      Annandale, Virginia........................................    46
        Prepared statement of....................................    49
    Crandall, Derrick A., Counselor, National Park Hospitality 
      Association, Washington, D.C...............................    35
        Prepared statement of....................................    36
    Moore, Greg, Executive Director, Golden Gate National Parks 
      Conservancy, San Francisco, California.....................    54
        Prepared statement of....................................    56
    Prater, Jim, Citizen Advocate for Congaree National Park, and 
      Former Executive Director, Richland County Legislative 
      Delegation, Columbia, South Carolina.......................    59
        Prepared statement of....................................    60
    Puskar, Dan, Director of Partnerships and Government 
      Relations, National Park Foundation, Washington, D.C.......    28
        Prepared statement of....................................    30
    Smartt, Susan, President and CEO, NatureBridge, San 
      Francisco, California......................................    24
        Prepared statement of....................................    26
    Wenk, Daniel N., Deputy Director, National Park Service, U.S. 
      Department of the Interior.................................     3
        Prepared statement of....................................     4

Additional materials supplied:
    Lee, Grace, Executive Director, National Park Trust, 
      Statement submitted for the record.........................    68


  OVERSIGHT HEARING ON ``THE ROLE OF PARTNERSHIPS IN NATIONAL PARKS''

                              ----------                              


                      Thursday, September 23, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1324, Longworth House Office Building, The Honorable Raul 
M. Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Holt, Christensen, 
Sarbanes, Bishop, and Shuster.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
                   FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much. Let me call the 
Subcommittee on National Parks, Forests and Public Lands to 
order, an oversight hearing on the role of partnerships in the 
national parks. I want to welcome and thank all our panelists 
for their time. Very much appreciate it.
    Private philanthropy has played a vital role in sustaining 
and expanding the National Park System since its inception. In 
recent years as Federal funding levels have declined park 
managers have worked creatively and collaboratively to develop 
more and better public-private partnerships more than ever. The 
vast majority of these partnerships serve visitors and 
taxpayers very well. The new education center at Old Faithful 
was funded in part by the Yellowstone Park Foundation, and $13 
million in donations from private individuals.
    On the West Coast, a nonprofit called NatureBridge 
introduces children from some of the poorest neighborhoods in 
Los Angeles to hiking and camping in nearby national parks. The 
National Park Foundation is providing essential funding for the 
Flight 93 memorial in Pennsylvania, and in my hometown of 
Tucson the Tohono O'odham Nation helped the National Park 
Service build portions of the Juan Bautista de Anza National 
Historic Trail.
    These and many other partnership are helping the National 
Park Service reach out to new audiences and serve the public in 
new ways, and we look forward to hearing from our witnesses 
today about some of those success stories.
    It is important to note, however, that the private 
partnerships within the National Park System have developed on 
a case-by-case basis and have grown in size and scope without 
coherent systemwide standards and management practices in 
place. Last year I instructed the Government Accountability 
Office to study National Park Service management of these 
partnerships and report on how these important relationships 
can be improved. The study revealed a number of concerns and 
made specific recommendations on how to remedy these concerns.
    Today's hearing is an important opportunity to discuss 
these and other issues with the agency and with some of the 
most successful park partners. We appreciate our witnesses. 
Again, thank you for being here. We look forward to their 
comments.
    [The prepared statement of Mr. Grijalva follows:]

  Statement of The Honorable Raul Grijalva, Chairman, Subcommittee on 
                National Parks, Forests and Public Lands

    The Subcommittee will now come to order. Thank you.
    Private philanthropy has played a vital role in sustaining and 
expanding the National Park System since its inception. In recent 
years, as federal funding levels have declined, park managers have 
worked creatively and collaboratively to develop more and better 
public/private partnerships than ever.
    The vast majority of these partnerships serve visitors and tax 
payers well: the new education center at Old Faithful was funded in 
part by the Yellowstone Park Foundation and $13 million in donations 
from private individuals; on the West Coast, a non-profit group called 
NatureBridge introduces children from some of the poorest neighborhoods 
in Los Angeles to hiking and camping in nearby national parks; the 
National Park Foundation is providing essential funding for the Flight 
93 memorial in Pennsylvania; and in my hometown of Tucson, the Tohono 
O'odham Nation helped the National Park Service build portions of the 
Juan Bautista de Anza National Historic Trail.
    These and many other partnerships are helping the National Park 
Service reach out to new audiences and serve the public in new ways and 
we look forward to hearing from our witnesses today about some of these 
success stories.
    It is important to note, however, that private partnerships within 
the National Park System have developed on a case-by-case basis and 
have grown in size and scope without coherent, system-wide, standards 
and management practices in law.
    Last year, I instructed the Government Accountability Office to 
study National Park Service management of these partnerships and report 
on how these important relationships can be improved. The study 
revealed a number of concerns and made specific recommendations about 
how to remedy those concerns. Today's hearing is an important 
opportunity to discuss these and other issues with the agency and with 
some of the most successful park partners.
    We appreciate our witnesses for participating in today's hearing 
and look forward to their comments.
                                 ______
                                 
    Mr. Grijalva. Any comments, Mr. Bishop?
    Mr. Bishop. Just a couple in very quick passing. I 
appreciate the Chairman's efforts to begin this dialogue by his 
request earlier on, and I look forward to hearing the testimony 
of those who have come here, both in written form as well as 
what they will say orally here today.
    Mr. Grijalva. Thank you. Dr. Christensen, any comments?
    Mrs. Christensen. Not at this time.
    Mr. Grijalva. Thank you. Let me now introduce Deputy Wenk 
from the National Park Service for his five minutes, and 
opportunity to answer some questions. Thank you, sir.

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman, for the opportunity to 
appear before you today to discuss National Park Service 
partnerships.
    Private philanthropy has played a major role in advancing 
the National Park Service. The park system benefitted from 
private contributions even before Congress created the National 
Park Service on August 25, 1916. Congress formally recognized 
the importance of private philanthropy to the parks in 1935 
when it established the National Park Trust Fund Board to 
receive gifts for the benefit of the National Park Service and 
its activities.
    Philanthropy is more than a source of land and money for 
the parks, it is the means of building and strengthening bonds 
between the parks and their advocates. While all taxpayers 
contribute to the parks, those who make additional voluntary 
contributions have a special interest in their welfare. The 
parks and the National Park Service benefit from their devotion 
as well as their dollars.
    I will focus upon the steps we have taken to ensure the 
facilities constructed in national parks through partnerships 
and donations are economically sustainable and driven by 
National Park Service priorities, as well as our response to 
the recommendations made by the General Accounting Office in 
the 2009 review of our partnership efforts, and our 
collaboration with partners to reach new and younger audiences.
    Congress has previously expressed concern about partner-
funded projects that were not prioritized by the National Park 
Service but were included in our five-year line item 
construction program. The concern focused primarily on those 
projects where private fundraising was unsuccessful and 
partners subsequently pursued Federal funds through the 
appropriation process. Congress also noted its concern about 
projects that resulted in new operations and maintenance costs.
    Internally, the National Park Service had similar concerns, 
and in response we developed the Partnership Construction 
Process for the review, approval, and management of capital 
projects involving public and private partners. This process 
ensures that new park facilities reflect National Park Service 
priorities, are appropriately scaled, and are financially and 
operationally sustainable. It includes multiple reviews at the 
regional and Washington levels, and ultimately requires the 
Director's approval for all projects valued $1 million and 
greater.
    Congressional consultation concurrence is required for 
projects $5 million or greater. Projects requiring line item 
construction funds are included in the National Park Service 
five-year plan, and prioritized based on their readiness and 
service-wide priorities.
    We have developed tools for use in determining the 
appropriate size of a new facility, and estimating the annual 
and cyclic operations and maintenance costs. Park partners are 
now required to develop business plans that describe how the 
partner intends to cover annual and long-term O&M costs. 
Overall, this process is resulting in more informed decisions 
about proposed projects and giving us the opportunity to modify 
the scope or scale of a project as needed in the early phases.
    The Service highly values our partners' commitment, energy, 
and fundraising efforts. We encourage parks to develop 
partnerships and continually review our policies to make it 
easier to work with the private sector. We support partners who 
share our interest and goals while maintaining the integrity 
and accountability of the parks and the National Park Service. 
We maintain high standards for construction inside national 
parks, and we strive to apply our policies fairly and 
consistently.
    Partner groups vary widely from small start-up friends 
groups to the large and experienced fundraising organization, 
so we have developed three templates. Friends groups 
fundraising in partner construction agreements reflects the 
level of partner activity in a park while providing consistency 
and streamlines the process. Improving the skills of the 
National Park Service managers is an ongoing effort. We use 
various methods, including web technologies, to reach a greater 
number of employees each year. Our training sessions regularly 
include partners as participants and trainers, allowing 
everyone the benefit of alternative perspective on the 
partnership program.
    Finally, I am pleased to tell you how partners are helping 
the National Park Service reach new audiences, particularly 
young people. Parks across the country are developing long-term 
relationships with schools, nonprofits, and other organizations 
to provide young people with opportunities for community 
service, internships, employment and just plain fun. We are 
strengthening our ties to community organizations like the Boys 
and Girls Clubs, YMCAs, national groups like the Youth 
Conservation Corps, Public Land Corps, and the Student 
Conservation Association, and places strong emphasis on 
intercity youth who may not know about national parks or 
consider career opportunities with us.
    For many young people, their first entry point to a 
national park is through curriculum-based education programs 
presented at their schools or at one of our park-based 
education centers or institutes. Partners often cover full and 
partial scholarships for low income and ethnically diverse 
students who otherwise could not participate.
    Partnerships like these are making a difference. They 
enable the National Park Service to reach as never before 
hundreds of thousands of young people. Our partners are 
contributing not only funding for these programs but their 
valuable time, energy, and commitment to youth education, 
recreation and park stewardship.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions you or other members of the 
Subcommittee may have.
    [The prepared statement of Mr. Wenk follows:]

             Statement of Daniel N. Wenk, Deputy Director, 
           National Park Service, Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss National Park Service partnerships. My testimony will 
focus on three areas: 1) the continuing progress we are making to 
ensure facilities constructed in national parks through the combined 
efforts and resources of the National Park Service, partners, and 
donors are sustainable; 2) the improvements we have made to our 
partnership program in response to recommendations from the Government 
Accountability Office and a 2009 Office of the Inspector General report 
on the Department of the Interior Challenge Cost Share programs; and 3) 
the work we are doing with partners to engage new and younger 
audiences.
    Private philanthropy has played a major role in advancing the 
national parks and the National Park Service. The park system benefited 
from private contributions even before Congress created the National 
Park Service on August 25, 1916. Congress formally recognized the 
importance of private philanthropy to the National Park System in 1920 
when it granted the Secretary legal authority to accept donations for 
the benefit of the national park and monument system, and in 1935 when 
it established the National Park Trust Fund Board to receive gifts for 
the benefit of the National Park Service, its activities, or its 
services. But philanthropy is more than a source of land and money for 
the parks. It is a means of building and strengthening bonds between 
the parks and their advocates. While all taxpayers contribute to the 
parks, those who make additional voluntary contributions will have a 
special interest in their welfare. The parks and the National Park 
Service benefit from their devotion as well as their dollars.
CONSTRUCTION
    Over the past several years, the National Park Service has taken a 
number of specific actions to better ensure that new park facilities 
reflect NPS priorities, are appropriately scaled, and are financially 
and operationally sustainable over the long-term. Previously, 
Congressional committees expressed concern about partner-funded 
projects that were not prioritized by the NPS nor included in our five-
year, line-item construction program. The concern centered primarily on 
projects where private funds were promised, but where private 
fundraising was unsuccessful and partners subsequently pursued federal 
funds through the appropriations process. Congress has also noted its 
concern about projects that result in new operations and maintenance 
costs.
    In response to the above concerns, the NPS developed a 
``Partnership Construction Process'' governing the review, approval, 
and management of capital projects that involve either public or 
private partnerships. Evidence that this process has been followed is 
required to secure the NPS Director's approval for any partner funded 
construction project. The Partnership Construction Process combines our 
standard review of all construction projects valued at $500,000 or 
greater with our fundraising approval process.
    Pursuant to the NPS Partnership Construction Process, projects are 
reviewed by the NPS Development Advisory Board and the Department's 
Investment Review Board, and are evaluated for compliance with park 
planning documents. Additionally, partners are required to have 
fundraising plans, feasibility studies and fundraising agreements in 
place prior to the launch of a fundraising effort. Those projects 
requiring funds from the NPS line-item construction budget must be 
included in the NPS five year plan and prioritized, based on the 
project's readiness to proceed and service-wide priorities. The 
Director's approval is required for construction projects costing $1 
million or greater, and congressional consultation and concurrence is 
required for projects costing $5 million or greater.
    The Partnership Construction Process is designed to ensure that 
proposed projects meet NPS needs, that facilities are sized and scaled 
appropriately, and that they are financially sustainable. These issues 
are considered in the early phase of project consideration and are 
documented in a Memorandum of Intent between a park and its partner. 
The Memorandum of Intent (MOI) describes (1) the park's need for the 
project, (2) the legal authority to carry out the project, (3) the 
park's and partner's respective capabilities and readiness to take on 
the project, (4) their roles in the operations of the facility, and (5) 
how the facilities will be sustained, e.g., through an endowment, fees 
for services, or other revenue-generating activities. Park 
superintendents submit these memoranda to their Regional Directors as 
the first step in gaining regional and Washington-level review and 
approval for projects. Regional Directors assess whether the project 
and both partners are ready to move forward. This assessment is based 
on the documented experience of the partner in raising funds for, as 
well as constructing or implementing, a project of the size and scope 
discussed in the MOI. The Regional Director also evaluates the ability 
and experience of the park staff in managing a project of the scope and 
scale proposed.
    Projects are further reviewed at the concept and schematic design 
phases by the Department's Investment Review Board and the NPS' 
Development Advisory Board. At the concept phase, board members review 
the park's projected operations and maintenance costs for proposed 
facilities. The boards are placing greater emphasis on project 
sustainability. Specifically, board members focus on the potential 
impacts to park operations and budgets and on the partner's ability to 
cover all or a portion of the operations and maintenance costs. This 
emphasis is in NPS's interest, and it responds to recommendations by 
the Office of the Inspector General and the Government Accountability 
Office in their respective 2007 and 2009 reports.
    The NPS's Denver Service Center, which manages most large NPS 
construction projects, has developed tools for parks to use in 
determining the appropriate size of a new facility (Visitor Facility 
Model) and for estimating annual and cyclic operations and maintenance 
costs (Operations and Maintenance (O&M) calculator). Partners will now 
be required to develop a Business Plan that describes how annual and 
long-term O&M costs will be covered. This requirement addresses a 
recommendation of the GAO report discussed below. The NPS currently 
assesses Business Plans using in-house expertise within our concessions 
and budget offices. NPS may also obtain the services of business 
consultants for such evaluations.
    NPS's Partnership Construction Process is resulting in more 
informed decisions about proposed projects and provides NPS with the 
opportunity to modify the scope or scale of proposed projects in early 
phases of project planning. For example, the Partnership Construction 
Process resulted in revisions to the scope and associated cost of 
projects at Mesa Verde National Park, the Flight 93 National Memorial, 
and the Yellowstone National Park visitor center.
    The NPS recognizes the need to have a clear understanding, both 
with partners and within the agency, regarding the total cost of a 
project and about funding assumptions. Furthermore, project proposals 
predicated on approaching Congress for earmarked funds that are not 
included in the NPS budget, or on undetermined funding sources, are 
rejected. The following provision is inserted into partnership 
agreements and prohibits partners from lobbying Congress for funds for 
a project or program unless it is included in the President's budget 
submission to Congress:
  Limitation on Lobbying. The Partner will not undertake activities, 
 including lobbying for proposed Partner or NPS projects or programs, 
 that seek to either (1) alter the appropriation of funds included in 
 the President's budget request to Congress for the Department of the 
   Interior or another federal agency that holds funds for the sole 
benefit of the NPS under Congressionally authorized programs, including 
the Federal Lands Highway Program; or (2) alter the allocation of such 
 appropriated funds by NPS or another Federal agency. Nothing in this 
  paragraph is intended to preclude the Partner from applying for and 
 obtaining a competitive or non-competitive grant of Federal financial 
assistance from a Federal agency, or from undertaking otherwise lawful 
  activities with respect to any Partner or NPS activity, project or 
program included in the President's budget request to Congress. Nothing 
in this paragraph should be construed as NPS requesting, authorizing or 
supporting advocacy by nonfederal entities before Congress or any other 
government official. Except as provided herein and in applicable laws, 
 nothing in this paragraph shall be construed to curtail the Partner's 
              ability to interact with elected officials.
GAO REPORT
    In 2009, GAO completed a report on Donations and Partnerships. \1\ 
The report contains seven recommendations for improvement of NPS 
management in these areas. The complete NPS response to these 
recommendations is contained in the report. Today, I would like to 
highlight three GAO recommendations and commensurate NPS responses that 
may be of special interest to the subcommittee in the context of this 
hearing.
---------------------------------------------------------------------------
    \1\ GAO-09-386: ``National Park Service: Donations and Related 
Partnerships Benefit Parks, But Management Refinements Could Better 
Target Risks and Enhance Accountability.''
---------------------------------------------------------------------------
    GAO recommended that NPS's donations and fund-raising policies be 
appropriately tailored to address the level of risk to the agency. In 
response, NPS noted that it had revised Director's Order #21 (DO-21) in 
2008 to simplify the approval and review process for construction and 
non-construction projects in national parks. Furthermore, NPS 
streamlined the partnership construction review and approval process 
from five phases to three and provided for Regional Director approval 
of fundraising efforts under $5 million on the condition that no 
federal funds will be contributed to the project or program, thereby 
shifting the approval of projects posing less risk to the agency from 
the Director to the Regional Directors. Additional improvements to the 
NPS partnership program follow.
    Partnership Agreement templates have been developed to reflect the 
level of risk of a project to the agency. For instance, agreements that 
authorize activities considered to be higher risk, such as the donation 
of facility designs and facility construction to NPS, include language 
to minimize the risk of these activities to the government. For 
example, the construction agreement includes very specific language on 
intellectual property ensuring that the United States has the 
appropriate rights to design and construction documents created in 
furtherance of the agreement and thereby reducing the risk of a 
conflict over the use of that material. In contrast, agreements 
addressing lower risk activities, such as those authorizing fundraising 
for design and construction that will be undertaken by NPS, contain 
provisions that appropriately address risks posed by fundraising 
activities.
    GAO recommended that, to increase transparency and efficiency, the 
Department of the Interior's Office of the Solicitor work with the NPS 
to finalize draft model agreements related to donations and 
fundraising. Accordingly, we have worked with the Office of the 
Solicitor to finalize three model agreements (templates): a Friends 
Group Agreement, a Fundraising Agreement, and a Partnership 
Construction Agreement. These agreement templates are now being used by 
the parks and their partners. The templates may be modified to address 
comments provided by Friends Groups and as a result of NPS's experience 
in using them.
    GAO recommended that NPS improve National Park Service employees' 
knowledge, skills, and experience about fundraising and partnerships 
with nonprofit organizations--and encourage employees to improve 
nonprofits' understanding of the National Park Service--through 
targeted training, resource allocation, recruiting, and promotion 
practices. NPS recognizes that professional development in partnerships 
is an ongoing need and we continue to expand training in this area. The 
NPS has a dedicated partnership training manager who facilitates 
national partnership training opportunities and forums annually, 
supports regional training efforts, and identifies ways to incorporate 
partnership training into broader curricula, such as the 
Superintendents Academy and Fundamentals courses. Our courses usually 
include partners as participants and trainers, so that we both benefit 
from learning about one another's cultures, missions, and the 
applicable laws and standards by which we operate.
    In order to leverage limited resources, we ``teach the teachers'' 
by training regional partnership employees who deal directly with 
partnership issues in their respective regions, and we are developing a 
variety of training methods, including face-to-face training sessions. 
We are also beginning to use web technologies to reach a greater number 
of employees.
    At all levels of the NPS, we recruit managers with partnership 
experience and we are requiring that many position descriptions include 
partnership-related knowledge, skills, and abilities.
    Although these three GAO recommendations have been highlighted, we 
would like to note that in response to the GAO recommendation regarding 
Data Collection, NPS now has incorporated the ``Annual Report of 
Operations and Aid to a Federal Land Management Agency'' form and its 
related requirements into the model Friends Group Agreement. And, with 
respect to the GAO recommendation for the development of a strategic 
plan, the NPS continues to consider this recommendation, and intends to 
begin developing such a plan as early as late 2010. This plan will 
attempt to define the wide range of NPS partnerships. It likely will 
include the many ways the agency partners with nonprofits, government 
agencies and educational institutions along with recommendations on how 
to enhance the partnership process.

CHALLENGE COST SHARE PROGRAM
    The purpose of the NPS Challenge Cost Share Program (CCSP) is to 
increase participation by qualified partners in the preservation and 
improvement of NPS natural, cultural, and recreational resources; in 
all authorized NPS programs and activities; and on national trails. NPS 
and partners work together on CCSP projects with mutually beneficial, 
shared outcomes. In 2008, the Office of the Inspector General (OIG) 
opened an evaluation of all DOI Challenge Cost Share (CCS) Programs 
including the NPS CCSP and released their evaluation report in 
September of 2009. The report was critical of aspects of all 
Departmental CCS programs, citing lack of transparency, documentation, 
and internal control reviews as issues. The report recommends that the 
Department's CCS programs require 1) CCS funding to be announced on 
Grants.gov; 2) partner commitment letters; 3) CCS awards to be reported 
in the Federal Assistance Award Data System; 4) accurate tracking of 
partner expenditures and in-kind contributions' 5) certifying 
agreements documenting that all agreed-to-tasks were performed and 
matching contributions provided; 6) return of unspent CCS funds for 
reallocation to other projects; 7) accurate reporting of the program's 
accomplishments, including federal/nonfederal matching ratio; and 8) 
periodic management control reviews. In response, the DOI Office of 
Acquisition and Property Management issued a directive dated September 
17, 2010 that addresses the eight recommendations.
    The directive requires program compliance with existing 
Departmental guidance relating to cooperative agreement use, 
requirements, and reporting of awards in the Federal Assistance Awards 
Data System. The directive also requires greater partner 
accountability, outlines reporting requirements, and addresses 
performance measures and project monitoring. All bureaus, including the 
NPS are expected to revise their program guidance to align with the 
Departmental directive.
    Prior to the issuance of the DOI directive, in FY 2010, NPS CCSP 
guidelines were revised and tightened to address OIG concerns. By June 
2010, four of eight OIG recommendations were able to be closed out with 
the NPS Office of Financial Management. One recommendation was pending 
close-out. Three (relating to Grants.gov posting, Federal Assistance 
Awards Data System requirements, and management control reviews) have 
been addressed and are currently being reviewed by the NPS Office of 
Financial Management. The DOI directive will be sufficient to close-out 
the remaining OIG recommendations for the program.

SERVICEWIDE YOUTH PROGRAMS AND PARTNERSHIPS
    Much of our attention in the past five years has focused on the 
role of partners in funding bricks and mortar projects. We are pleased 
to have this opportunity to tell you about another facet of our 
partners' support, and that is the role partners have had in helping 
NPS engage new audiences - in particular, young people. A primary goal 
- and need - of our agency is to make national parks relevant to all 
Americans.
    Our youth outreach and recruitment strategy is focused and 
specific. Park employees across the country are developing long-term 
relationships with universities, community colleges, high schools, 
technical schools, non-profit organizations, and national organizations 
like Outward Bound to provide children with opportunities for community 
service, internships, employment, learning, and just plain fun.
    Many of our partnership programs focus on training and employing 
youth for environmental careers. These programs are designed to engage 
young people early, when they are just beginning to think about their 
career choices. There is a particular focus on inner-city children of 
color, who may not have known about or considered environmental career 
opportunities. In addition to mentoring and career development, these 
programs allow students to carry their experiences back to their 
families and communities, further broadening awareness of the NPS and 
the parks. Students continue in these programs throughout their high 
school career, providing interested students a link to future NPS jobs 
through the Student Temporary Employment Program (STEP) and the Student 
Career Experience Program (SCEP), and ultimately permanent positions. 
The results are that young people experience the national parks, and 
the parks become meaningful to their own lives. It also results in the 
NPS having a more diverse workforce, which brings new energy and new 
perspectives to our agency and positively influences our operational 
and management decisions.
    We are able to provide these programs by strengthening our ties to 
community centers and organizations like Boys and Girls Clubs and 
YMCAs; as well as national organizations like the Greenworks USA Trust, 
Greening Youth Foundation, and the Student Conservation Association.
    Young people participating in the Public Lands Corps and Youth 
Conservation Corps work with park staff to complete a variety of summer 
natural and cultural resource conservation projects. Their work 
experience includes the chance to explore career opportunities that 
have an emphasis on park and natural resource stewardship.
    Paid internships in the field of interpretation and visitor 
services are offered during the summer to graduating high school 
seniors and freshman and sophomore college students in partnership with 
a host of non-profit youth organizations. Work experience gained 
through internships provides avenues for students to qualify for summer 
seasonal employment as GS-04 Park Rangers.
    Many of our parks are collaborating with non-profit organizations 
to establish education and environmental institutes inside parks, which 
typically offer field, classroom, and laboratory environmental science 
education and overnight experiences in a park for students in grades K-
12. For many young people, their first entry point to a park experience 
is through curriculum-based education programs presented at their 
schools or at one of our park-based education or environmental centers. 
Our partners often provide full and partial scholarships and therefore 
are able to attract and serve low-income and ethnically diverse 
students, who otherwise could not participate.
    One of our newer programs, the ``Let's Move Outside'' Junior Ranger 
program, encourages young people to enjoy the outdoors and be active 
and healthy. Park rangers provide programs, workbooks, and incentives 
to pursue a Junior Ranger badge. Young people who complete at least one 
physical activity in pursuit of their Junior Ranger badge receive a 
special sticker that designates them as a ``Let's Move Outside'' Junior 
Ranger. It is a great way to learn and have fun in a park.

PARK SPECIFIC YOUTH PROGRAMS AND PARTNERSHIPS
    The following programs are just a few notable examples of the many 
outstanding ways we are working with our partners to make national 
parks more accessible and meaningful to the younger generation, to new 
Americans, and to people who have rarely, if ever, experienced a 
National Park.
    Santa Monica Mountains National Recreation Area is strategically 
partnering with non-profit and government agencies in youth employment, 
education and service-learning, volunteerism, and urban outreach. The 
park collaborates with the Los Angeles Conservation Corps and more than
    30 education partners and public school districts in Los Angeles 
and Ventura Counties, to provide programs that engage approximately 
50,000 urban youth annually with quality outdoor learning experiences. 
These programs help connect young people in cities to the outdoors and 
to principles of stewardship, while promoting civic responsibility and 
appreciation of our national heritage.
    The Golden Gate National Park Conservancy's I-YEL (Inspiring Young 
Emerging Leaders) Program is initiated, designed, and coordinated by 
young people, who receive support and training in planning and 
implementing projects that create positive change in their communities. 
Participants engage in many activities, such as teaching drop-in 
programs at the park's environmental center, conducting outreach 
activities in communities, attending conferences, or creating their own 
community service project.
    Also at Golden Gate National Recreation Area, the Linking 
Individuals to the Natural Community (LINC) Summer High School Program 
allows high school students to join a team that works on outdoor 
service-learning projects throughout the park, including trail work, 
plant propagation, and habitat restoration. In addition, students 
attend leadership workshops and take field trips to special park sites 
like Alcatraz and Muir Woods, and participate in a four-day camping and 
service trip to Yosemite.
    The Tsongas Industrial History Center is a partnership of the 
Lowell National Historical Park and the University of Massachusetts' 
Graduate School of Education, providing heritage education programs for 
50,000 school children per year. The park provides the center physical 
space in its Boott Cotton Mills Museum building, the university takes 
the lead in grant-writing and fundraising to fund the exhibits, and 
both partners work jointly on curriculum, outreach and teaching. This 
effort won a National Parks Foundation Partnership Award as a model for 
effective heritage education.
    Working with partners, Lowell's Mogan Cultural Center hosts a 
series of programs each year, engage underserved populations and over 
three dozen ethnic communities, earlier generations of whom worked in 
the textile mills. Recently, the center, through exhibits, lectures, 
projects, performances, and other special events greatly expanded the 
Park's interaction with newer immigrants from Brazil, Cambodia, Puerto 
Rico, Laos, and Sierra Leone.
    Two programs of the Thompson Island Outward Bound Education Center, 
Green Corps and Island Ambassadors, provide employment for high school 
students at Boston Harbor Islands National Recreation Area, teach them 
job readiness skills, and engage them in hands-on stewardship in the 
park. This summer the Green Corps cleared trails and invasive plants 
from salt marsh areas on Thompson Island, prepared garden areas, and 
created compost bins. The Island Ambassadors cleared trails and 
campsites, and used the green waste to create artwork such as weaving 
and paper. They also assisted with monitoring marine invasive species, 
mapping invasive plants, and collecting GPS data for an on-going 
phenology \2\ study.
---------------------------------------------------------------------------
    \2\ The study of periodic biological phenomena, such as flowering, 
breeding, and migration, especially as related to climate. The American 
Heritage Dictionary.
---------------------------------------------------------------------------
    Island Pass, sponsored by the Boston Harbor Islands Alliance, is 
dedicated to improving the accessibility of the islands for those who 
cannot afford to pay the regular public ferry fare. The Island Pass 
program focuses on bringing groups to the islands from the YMCA of 
Greater Boston, part of the national Y's initiative to build 
``Healthier Youth and Healthier Communities.'' The pass is providing 
approximately 5,000 people this year with free rides to the islands. 
The Island Pass program also provides NPS-guided, State-guided and 
self-guided tours to help Boston's under-served youth explore the 
islands.
Conclusion
    Partnerships like these are making a difference. They enable the 
National Park Service to engage, as never before, hundreds of thousands 
of young people and new Americans. Our partners are contributing not 
only funding for these programs, but their valuable time, energy, and 
commitment to youth education, recreation, and park stewardship.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions you or the other members of the Subcommittee 
have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir.
    What aspects of running a national park are the best 
candidates for private partnerships and which ones are never 
appropriate for any private funding?
    Mr. Wenk. A lot of our partnerships center around really 
two different aspects. There are the infrastructure aspects or 
the projects that might be, as you mentioned, the new visitor 
center at Old Faithful. We have many partners who engage in 
development of trails and other recreational activities where 
there are distinct projects or segments that are identified 
first and foremost in the park's general management plan. They 
can be agreed to with a park partner that it is an appropriate 
activity to undertake, and then fundraising construction can 
take place in a logical sequence.
    Another area where we work extensively with partners is 
programs. It could be, for example, the funding of films. 
Partners may take that on as a project and fund a film, an 
educational film for a visitor center. They may engage with 
youth, as we mentioned, where they would work with local 
communities. Some of our partners have emersion programs where 
they bring youth into the parks for a period of time. It may be 
their first experience, but we have positive results that are 
having a positive influence on youth and their association with 
the outdoors.
    Mr. Grijalva. And what would be an example of a private 
funding that would not be appropriate in the park system?
    Mr. Wenk. Basically private funding that would go to 
commercial activities or commercial endorsement.
    Mr. Grijalva. OK.
    Mr. Wenk. Partner organizations, we have many different 
ways that we provide services to our visitors. One of the ways 
that we provide services is through our concessions contract 
that are very strongly regulated, and we have concession 
contracts that we compete for that provide business opportunity 
within parks.
    Some partner organizations have approached us about 
opportunities that may be for the benefit of a partner as much 
as for a park, and we would not allow those where they would 
want to advertise, or they would want to take advantage of that 
partnership to further their own business cause rather than the 
park causes.
    Mr. Grijalva. If partners are best in bricks and mortar 
construction projects from your answer, does that create an 
incentive to build stuff even if that stuff is not needed?
    Mr. Wenk. It could but I don't believe it does, Mr. 
Chairman. Back in 2005, the National Park Service, along with 
Members of Congress and the committees, were concerned about 
projects that had been identified and that were under 
construction, and at times had failed because the partner 
organizations may not have been successful, and they would come 
back to Congress for additional funding.
    As part of that process, we instituted what we call the 
partner construction process, which is a process that basically 
assures that before we undertake a partner project of bricks 
and mortar that, first of all, it has been an identified 
project within the general management plan of the park so that 
we are only doing those projects that are of high priority and 
identified previously by the park by park planning documents.
    Mr. Grijalva. In reviewing some of the testimony from the 
other witnesses, a number of complaints have arisen, and they 
center around the increasing complexity of the cooperative and 
fundraising agreements, and the length of time it takes the 
Service to approve those agreements.
    What is in the works to streamline or to address those 
complaints?
    Mr. Wenk. First of all, I would agree that they are getting 
more complex, and one of the reasons they are getting more 
complex is because the partnerships are getting more complex in 
many cases. These are not just simply perhaps the building of a 
structure. The partnership may be the building of a structure 
that also follows with educational components and it may be a 
long-term commitment on the part of the park and the partner, 
so they are getting more complex.
    One of the things we are doing is we are trying to put 
templates into place for three different kinds of agreements. 
One of those is a partnership agreement, a general agreement 
that certain amount of fundraising could be undertaken to 
establish, maintain, and to operate a partnership within a 
park.
    Mr. Grijalva. But will those three tiers expedite the 
process?
    Mr. Wenk. We believe they will.
    Mr. Grijalva. Templates.
    Mr. Wenk. Mr. Chairman, what we have recently done in June 
of this past year, I think it is a fair statement to say that 
we were stalled to some extent with our partnership agreement 
in terms of both the partners and the National Park Service 
coming together on the language in the agreement. We sat down 
in June with representation of the friends group.
    Based on that meeting, they submitted to us a draft 
partnership agreement. We have now reviewed that agreement that 
they submitted. We sent it back to them with our comments. So, 
we believe we have created an atmosphere right now so that we 
can move forward, and we are going to get that template done. 
That template will, in fact, describe probably 80 percent of 
the language that will be common to all partnership agreements, 
and we will only be negotiating about 20 percent based on the 
particular circumstance, project or program that partnership 
may undertake in any one place.
    Based on that positive inertia, we think we will move onto 
the construction and fundraising agreements as well, and we 
think using the same model will be very successful and will 
sort of break that stalemate.
    Mr. Grijalva. Thank you. Mr. Bishop?
    Mr. Bishop. Thank you. Welcome, Mr. Wenk. We appreciate 
your being here again.
    I would have a request of you, if possible. If you would 
please provide for the record and to my office a list of the 
cooperative agreements for the last five years, and a separate 
list of the grants or contracts with nonprofits for the last 
five years.
    Mr. Wenk. We will do that.
    Mr. Bishop. Thank you. I understand that the senator with 
jurisdiction over this area sent you a letter yesterday for 
basically the same kind of information. Which one, obviously, 
will you answer first?
    Mr. Wenk. Mr. Bishop.
    Mr. Bishop. OK, that is the right answer. Good job.
    [Laughter.]
    Mr. Bishop. I noticed in your testimony that there was a 
provision that will be implemented in all the partnership 
agreements in the future about limitation on lobbying, and you 
provided that on page 5 of your written testimony.
    Mr. Wenk. Yes.
    Mr. Bishop. Does that mean that these groups that are 
participating with you are limited in their lobbying or just 
not with the cooperative or the government funds that they 
receive?
    Mr. Wenk. Mr. Bishop, as I mentioned earlier, there were 
times when some partner organizations were not successful in 
raising all the money they thought they could raise through 
private dollars. There were circumstances when they had done 
that, and they had gone back to Congress and looked for those 
funds they weren't able to raise through an appropriation.
    What this language attempts to do--actually it is not an 
attempt--I believe this language does say that they cannot 
lobby to change the construction dollars in the President's 
budget. If they have made a commitment to raise $10 million, 
they cannot lobby for money out of the President's budget from 
the Department of the Interior, National Park Service budget 
any funds----
    Mr. Bishop. So it is a very narrow limitation on that 
project.
    Mr. Wenk. It is a very narrow limitation, yes.
    Mr. Bishop. You alluded to the Inspector General's 
investigation that had detailed missteps at the Park Service 
with regard to the George Wright Society investigation. To what 
level of leadership at the Park Service did this wrongdoing 
rise and what actions have been taking on the specific case?
    Mr. Wenk. The awareness of this rose to my level. I was 
Acting Director at the time that this was done. What we have 
done is we have changed the--we have directed that while 
employees of the National Park Service can, in fact, be members 
of the George Wright Society, they can no longer serve on the 
board of the George Wright Society, and that we also are 
looking at how we are using the agreements and we are narrowing 
defining what can be funded through the agreements.
    Mr. Bishop. OK. The Inspector General also instructed the 
agency to keep arms-length distance with interactions on 
outside groups. Would it be appropriate for a senior Park 
Service official to engage in closed meetings with partners on 
issues such as planning for the Park Service budget?
    Mr. Wenk. I am not aware that that has happened. I don't 
believe that that is happening, sir.
    Mr. Bishop. Would it be appropriate?
    Mr. Wenk. I don't believe it is appropriate.
    Mr. Bishop. OK. I think that is what I have for now. Thank 
you.
    Mr. Grijalva. Dr. Christensen.
    Mrs. Christensen. Thank you, Chairman Grijalva, and thank 
you for this hearing. I really have had an opportunity to see 
how partnerships benefit the park and can benefit the community 
as well, and I think partnerships are really the answer to some 
of the problems and issues and concerns that you were able to 
witness when you visited my district, especially in St. John. 
Before I ask a question I just want to highlight some of them 
because I think we have benefitted from partnerships.
    For example, we have had a long-time relationship with the 
Trust for Public Lands and the Nature and Ocean Conservancies, 
which have helped to expand our national parks and continue to 
help us protect some of our more precious resources. So have 
some of our local partnerships with, for example, the St. Croix 
and the St. Thomas Environmental Associations. Our local 
government has been a great partner, for example, at Salt 
River. That is even improving and possibly will be a partner 
with us in Castel Nugent in the future.
    The Friends of the Park in St. John have been the best 
supporter that the Virgin Islands National Park could ask for, 
and the St. Thomas Historical Trust, which is a new partner, 
has begun to preserve and awaken the rich history of Hassel 
Island in the harbor of St. Thomas.
    But I would say if there is one area where partnerships 
could be strengthened in my district, and probably in others, 
it is with the community and, in our case, the long-time 
residents or native community in St. John and St. Croix. The 
park has made good progress, but I think it still could do some 
more work to see itself as more part of the community and not 
just in the community. I think more planning needs to 
incorporate that of the local and longtime often multi-
generational residents.
    So, I look forward to this hearing through our witnesses to 
find ways that we can improve the partnership in my district 
and in other parts of our country.
    I do have as many questions as time will allow. So Deputy 
Director Wenk, and I think the Director is on his way to the 
Virgin Islands.
    Mr. Wenk. I believe meetings were held yesterday
    Mrs. Christensen. Yes. So he is there already. OK. But what 
methods are used for monitoring whether parks and partners are 
following policy requirements, and how frequently are routine 
assessments of park partnerships conducted?
    Mr. Wenk. We do, in fact, rely on our park superintendents 
who we are consistently providing more training, better 
training. The first, if you will, partner relationship and 
check on the effectiveness and the manner in which the 
partnership is being conducted is the park superintendent. The 
regional directors, who are the supervisors of those 
superintendents, they conduct as part of their appraisal 
process on a yearly basis those with partnerships, they review 
that partnership arrangement, and part of the evaluation of a 
superintendent is based on the effectiveness of that 
relationship.
    Mrs. Christensen. And in your written testimony you noted 
that the National Park Service is dedicated to partnership 
training annually. Is there a similar program that serves as a 
prerequisite before a partnership can officially begin with the 
national park?
    Mr. Wenk. I would not say it is a prerequisite, but one of 
the things that I am very pleased to be able to say is that it 
is not just the National Park Service that does training, our 
partners do training as well for their organizations. I have 
participated personally in the training of park superintendents 
in partnership training. I believe that it is ongoing where you 
are using more systems that allow us to do it remotely so we 
can take advantage of the Web and get more partners or more 
superintendents and partners trained.
    We are also training people together so that everyone can 
get the same information about what the requirements of 
partnerships are.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. If I may, Mr. Wenk, the GAO report 
talks about a risk to the National Park Service. What types of 
risks are we trying to avoid?
    Mr. Wenk. I think the primary risk that we would want to 
avoid is, first of all, we would not want to have a project 
that was not appropriate to be done; that wasn't a high 
priority within the planning documents and was not an approved 
project of the park.
    The second risk is we want to make sure that we are 
building facilities and we are knowledgeable and understand the 
associated operation and maintenance costs, the life cycle 
cost, if you will, of that structure. We also would like to 
make sure when we sign the agreements with our partners to the 
extent possible we would look at what kind of structure can we 
put in place, whether it be endowments, whether it be funding, 
it may be appropriate in some places, not in others, to cover 
some of those costs. I think the risk that we have are greater 
cost at the same time where the base operations and funding for 
parks are not increasing.
    Mr. Grijalva. And I think my last question is kind of a 
general one. One of the assets that partnerships bring to the 
Park Service and to the parks is creativity, and so how do you 
balance that part of it with the supervision of projects that 
the Service must conduct?
    Mr. Wenk. Mr. Chairman, some of the most successful partner 
relationships we have had have been with some of our most 
creative superintendents. One of the things that I think we try 
to do is that we try very hard to identify those 
superintendents and bring them in to help train, to help train 
others so that we make sure that we are operating within the 
law, regulation, and policy that governs the National Park 
Service.
    I think what we have tried very hard to do is to encourage 
that creativity, but at the same time make sure that it is 
operating within the proper constraints.
    Mr. Grijalva. OK, thank you. Mr. Bishop? Doctor?
    Thank you very much, and let me invite the next panel up if 
I may.
    Mr. Wenk. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you very much and welcome to the 
panelists, and let me begin with Donna Asbury, Executive 
Director, Association of Partners for Public Lands. Welcome. I 
look forward to your comments.

 STATEMENT OF DONNA ASBURY, EXECUTIVE DIRECTOR, ASSOCIATION OF 
          PARTNERS FOR PUBLIC LANDS, WHEATON, MARYLAND

    Ms. Asbury. Thank you, Mr. Chairman.
    As the Executive Director of the Association of Partners 
for Public Lands, our organization has a history since 1977 of 
cooperation with the National Park Service. Our membership is 
comprised of 82 nonprofit organizations, 83 percent of which 
serve National Park Service sites. These organizations provide 
more than $70 million in aid to National Park Service, 
inclusive of major projects, programs and services that respond 
to the agency's priorities, and that was in 2008.
    All of our members are nonprofit organizations with both 
IRS 501[c][3] status, and written agreements with one or more 
public lands agencies. These nonprofit partners enable the 
National Park Service and its sister public land agencies to 
accomplish what they cannot do alone: by engaging the American 
public in philanthropy and volunteerism and helping to protect, 
enhance, and interpret park resources. Several of these 
organizations, like the Grand Canyon Association, Mesa Verde 
Museum Association, Mount Rushmore Society, the Rocky Mountain 
Nature Association, the Yellowstone Association, and Yosemite 
Conservancy, have had relationships and agreements with 
individual parks for more than 75 years.
    We were asked to share some of the key components that have 
made nonprofit partnerships with the National Park Service 
successful, and our APPL members consistently relate that first 
and perhaps core to success factors are communication, trust, 
and a shared vision of the collaborative missions. The second 
is that of frequent interaction, joint planning and the setting 
of realistic expectations for the partnerships. Another is when 
the park and the resource itself is the focus for why 
individuals give or why partnership decisions are made and for 
which projects are pursued.
    And while it is the big projects that get the attention, 
the sustaining value is the postcard or the $3 trail guide 
purchasers or the thousands of donors who give modestly, these 
purchased memories and the opportunity to give become the 
building blocks and the glue that binds the public to our 
national parks.
    We were asked about roadblocks, and the roadblocks to 
partnerships are typically bureaucratic problems and they 
relate to what is seen, as was mentioned earlier, the 
burdensome and time-consuming agreement process, the challenge 
of bridging both the nonprofit and the public agency cultures, 
and uneven interpretation of policies across and between 
levels, locations, and functions of staff.
    We would like to see a culture change in viewing 
partnerships more in a facilitative role rather than a 
regulatory role so that this can move the focus to one of 
supporting and empowering partnerships without increasing risk 
to the agency. Specifically, National Park Service policies and 
agreements frequently fail to acknowledge that Federal and 
state law regulates nonprofit organizations. As a result, 
National Park Service guidelines and provisions and agreements 
sometimes overstep boundaries and add additional levels of 
unnecessary regulation to the nonprofits.
    We suggest continuing to engage public and private partners 
in forums to discuss emerging issues, share the impacts of 
external trends, and internal policies, and develop workable 
solutions through facilitative discussion and follow up.
    We also see that there is a lack of uniformity in how 
agreements and policies are applied throughout the Department 
of the Interior and the National Park System. Policies and 
requirements for entering into agreements are understood and 
implemented differently at various levels and locations 
throughout the agency. We encourage interagency collaboration 
in developing supportive structures and policies that enhance 
nonprofit partnerships. This will help to reduce the agreement 
and reporting requirement's burden for nonprofit partners who 
work with multiple public lands agencies and across park 
boundaries.
    Partnership relationships are typically managed through 
procurement specialists instead of partnership agreement 
specialists. Non-partnerships, while they may engage in 
contracts or other kinds of agreements as tools to manage the 
relationship, primarily they are neither grants nor contracts 
in terms of their relationship. They are voluntary, ongoing, 
mutually beneficial relationships established for the public 
good and for the benefit of the resource.
    So, we encourage the development of partnership agreement 
specialists as a discipline and a career track within Interior 
and within the National Park Service. Ideally if nonprofit 
partners and agency staff were assigned one National Park 
Service agreement specialist, even if it was one in each 
region, this could result in more efficiency and completing the 
agreements with the parks and more consistency throughout the 
park system.
    Mr. Wenk has already talked about the need for the training 
both for the public land agency staff and for the nonprofit 
partners and the ongoing efforts that are being made in that 
arena. We encourage that to continue with the engagement of 
both the nonprofit and the public sector so that we can ensure 
that there is mutual understanding of the business and culture 
of each entity.
    Finally, the practice of rotating National Park Service 
leadership between the parts results in a lack of consistency 
and institutional knowledge relative to the park's 
partnerships. Nonprofit partner organizations often become the 
point of continuity between the park, the local community 
volunteers and donors. Park partners comment that they spend a 
disproportionate amount of time having to start over with new 
agency leadership in addressing the type, scope and paperwork 
necessary to effectively co-manage partnership expectations.
    We suggest rewarding longstanding tenure that enables 
partnerships to flourish and institute training mentioned 
previously so that staff members approach partnerships from the 
same level of knowledge throughout the park system.
    In summary, nonprofit partnerships benefit from the 
credibility and expertise of agency partners as the agencies 
benefit from the business, philanthropic expertise and 
community connections that partner organizations bring through 
their staff and their nonprofit boards. Together, we are better 
able to advance innovative ideas, to ensure the relevancy of 
national parks to a diverse population of park users, and to 
ensure that parks continue to be conserved, enjoyed, and valued 
by the public.
    The Association of Partners for Public Lands stands ready 
to work with the National Park Service to implement the 
recommendations within this testimony. Thank you.
    [The prepared statement of Ms. Asbury follows:]

            Statement of Donna Asbury, Executive Director, 
                Association of Partners for Public Lands

 Introduction
    Mr. Chairman and members of the Subcommittee, I thank you for the 
opportunity to testify today on the role of partnerships in national 
parks. My name is Donna Asbury, and I am Executive Director of the 
Association of Partners for Public Lands (APPL) which has a history 
since 1977 of cooperation with the National Park Service. Our 
membership is comprised of 82 nonprofit organizations, 83% of which 
serve National Park Service sites. In 2008, these organizations 
provided more than $70 million in aid to national parks inclusive of 
major projects, programs and services that respond to the agency's 
priorities.
    Through their on-site presence in national park visitor facilities, 
and in communities nationwide, our member organizations serve as front 
line ambassadors to the public, building constituencies that care for 
our nation's finest natural and cultural areas. Their work is based 
upon a living partnership with each site, anchored in an agreement 
founded upon the purpose and management plan for the park as well as 
its rich natural, cultural and historic resources.
    APPL's efforts have concentrated on the tradition of membership, 
volunteerism, education and philanthropy that characterize the best of 
nonprofit entities. All of our members are nonprofit organizations with 
both IRS nonprofit 501(c)(3) status and written agreements with one or 
more public lands agencies. These nonprofit partners enable the 
National Park Service and its sister public lands agencies to 
accomplish what they cannot do alone, by engaging the American public 
in philanthropy and volunteerism and helping to protect, enhance, and 
interpret park resources.
    As the June 2009 GAO report on National Park Service Donations and 
Related Partnerships acknowledges, these mission-based nonprofits are 
essential and increasingly valuable partners to the National Park 
Service, providing significant services in addition to monetary 
contributions. However, it should be noted that philanthropy and 
partnerships within the parks are not new. Thirty national parks were 
created through private donations, and many more are enhanced by the 
contributions of people who care about them. Several park partner 
organizations, like the Grand Canyon Association, Mesa Verde Museum 
Association, Mount Rushmore Society, Rocky Mountain Nature Association, 
Yellowstone Association and Yosemite Conservancy have been partners 
with individual national parks for more than seventy-five years.
    I have organized my testimony around the key questions posed to 
panelists as being of interest to Subcommittee members, highlighting 
success factors in NPS-nonprofit partnerships as well as barriers to 
success most frequently expressed by our membership. Additionally, I 
have suggested recommendations for consideration that may address, at 
least in part, the concerns and barriers that can impede these 
partnerships.

 What have been some of the key components that have made your 
        partnerships with the National Park Service so successful?
    When asked, our APPL members consistently relate the following 
factors to be central to the success of their partnership with the 
National Park Service. To illustrate, I have included direct quotes 
from executive directors of APPL member organizations relative to these 
partnership success factors:
        <bullet>  Communication, trust, and a shared vision of our 
        collaborative mission. . .
                ``Probably the key component of success for our 
                organization and NPS throughout the years has been a 
                mutual respect for the missions of our organizations 
                and an appreciation for the work we do in the very 
                broad scope of caring for our nation's cultural, 
                historical and natural resources. Always we keep this 
                mind as we work through any `roadblocks' and 
                challenges.''
                ``As an association, we do not have any agenda that 
                does not include our partner, and we feel confident 
                that our partner values us and trusts us and sees us as 
                a crucial player in their future.''
        <bullet>  Frequent interaction, joint planning, and making a 
        concerted effort to ``be there'' for the other partner. . .
                ``We confer together regularly, participate in joint 
                meetings, and as a result we are able to stay on the 
                same page and have mutual buy-in on decisions. We feel 
                valued by park staff and no one has any hidden 
                agendas.''
                ``We are very fortunate that our offices are under the 
                same roof as the park administration, enabling us to 
                confer daily on big picture issues as well as 
                details.''
        <bullet>  When the park, the resource itself, is the focus--for 
        why individuals give, for why partnership decisions are made, 
        and for which projects are pursued. . .
                ``When nonprofit partners and agency staff decide that 
                the priority is the resource, human dimensions change. 
                The focus is moved from the nonprofit or the agency to 
                the park, enabling personal agendas to be put aside in 
                favor of developing solutions, projects, and programs 
                that are meaningful and sustainable.''
                ``Fundraising success is best achieved when both the 
                nonprofit partner and the National Park Service fully 
                embrace the importance of the goal/project and strongly 
                believe the goal/project will benefit both the partner 
                and the NPS.''
        <bullet>  When park management, from the top down, recognizes 
        and communicates the relationship with the nonprofit partner as 
        critical to success. . .
                ``The full potential of each partner is realized when 
                communication, cooperation and collaboration between 
                all nonprofit partners at an NPS park or site is 
                encouraged and nurtured.''
                ``The potential for partner success is enhanced when 
                the National Park Service is consistently pro-active in 
                providing generous (and always tasteful) acknowledgment 
                of the support being provided by the nonprofit 
                partner--whenever possible and in as public a way as 
                possible--in order to encourage future support.''
        <bullet>  A mutual understanding of the tremendous potential of 
        moving people along a continuum in their support for a park...
                ``While it is the big projects that get the attention, 
                the sustaining value is the postcard or $3 trail guide 
                purchaser, or the thousands of donors who give 
                modestly. These purchased memories, and the opportunity 
                to give, become the building blocks, the glue that 
                binds the public to the national parks.''
                ``Making that very personal connection with park 
                visitors is one of the best ways nonprofit support 
                groups are able to add value to their park's 
                operations. A casual visit to a park visitor center can 
                result in a low level annual membership with a 
                cooperating association. A follow-up newsletter can 
                generate more interest--perhaps in attending a site-
                based educational program presented or sponsored by the 
                nonprofit partner. This program presents the nonprofit 
                partner the opportunity to develop a personal 
                relationship with the member/donor and can lead to 
                additional participation in park events or volunteer 
                activities, with NPS staff present to convey the park's 
                story. This continuum leads to a much higher level of 
                financial support for the park, and results in a very 
                efficient use of park management's time in conveying 
                the park's story and supporting the fund raising 
                effort.''
        <bullet>  Building upon established partnerships, with 
        realistic expectations for what nonprofit partners can achieve. 
        . .
                The superintendent began discussions with us about 
                whether or not we would be willing to pursue 
                fundraising in behalf of the park. We agreed to form a 
                foundation under the umbrella of our association and 
                take some small, project-specific steps into the 
                fundraising arena. We maintained our same board of 
                directors and formed a foundation committee to oversee 
                the new fundraising component of our operation. With 
                existing staff we moved forward with annual project-
                specific goals, starting by raising $50,000 to help 
                rehab a historic building in the park. The 
                superintendent was sensitive to our need to start small 
                and we have been able to continue to raise more money 
                each year for specific projects decided upon mutually 
                by the Park Service and the Foundation.

 What types of roadblocks have challenged or prevented your 
        organization from fully benefiting from your partnership with 
        the parks?
    Nonprofit organizations work in partnership with the National Park 
Service to realize common goals and to provide a public benefit. 
Roadblocks are mostly bureaucratic, and relate to what is seen as a 
burdensome and time consuming agreement process; the challenges of 
bridging nonprofit and public agency cultures; and uneven 
interpretation of policies across and between levels, locations and 
functions of staff.
    Specifically,
        <bullet>  NPS policies and agreements frequently fail to 
        acknowledge that federal and state law regulates nonprofit 
        organizations, requiring them to operate according to their 
        tax-exempt mission. As a result, NPS guidelines and provisions 
        in agreements sometimes overstep boundaries, and attempt to add 
        additional levels of unnecessary regulation of the nonprofit.
        <bullet>  There is a lack of uniformity in how agreements and 
        policies are applied throughout the Department of Interior and 
        the National Park system. Policies and requirements for 
        entering into agreements are understood and implemented 
        differently at various levels and locations throughout the 
        agency. This is especially problematic for nonprofit 
        organizations that work with multiple agencies, that work 
        across park or regional boundaries, or whose activities are at 
        a level requiring multiple agreements or multiple layers of 
        approval.
        <bullet>  Partnership relationships are treated like contracts 
        and managed through procurement specialists instead of 
        partnership agreement specialists, sometimes with the 
        perspective that partnerships should be competitively bid. 
        Nonprofit partnerships are, as a whole, neither grants nor 
        contracts. They are voluntary, ongoing, mutually beneficial 
        relationships established for the public good and for the 
        benefit of the resource. Even in situations where a contract is 
        the appropriate vehicle for accomplishing a goal, the parks 
        often do not have the trained personnel on-site that know how 
        to handle these contracts.
        <bullet>  There is a lack of understanding by many agency 
        staff, including solicitors, contracting officers and 
        procurement specialists, as to how nonprofits work and how they 
        are regulated. In the words of one association executive: 
        ``Typically the contracting officers that are assigned to work 
        through the complexities of building these agreements with us, 
        and getting funds to us, do not understand the mission of our 
        organization and our ties to the parks.''
        <bullet>  As the 2009 GAO Report on National Park Service 
        Donations and Related Partnerships notes, there is a need to 
        improve NPS employees' knowledge, skills and experience about 
        fundraising and partnerships with nonprofit organizations, and 
        to improve nonprofits' understanding of Park Service policies 
        and procedures. Meeting this need for targeted and 
        comprehensive training and reference materials requires 
        collaboration and involvement of the nonprofit sector to ensure 
        accuracy of content, and understanding of the business and 
        culture of each entity. Too frequently, training and guidance 
        are developed separately from within each sector rather than 
        collaboratively.
        <bullet>  Care must be taken not to create agreements and 
        policy that attempt to address every possible situation, or to 
        cover any and all potential partnership risks, regardless of 
        the level or scope of the activities to be conducted by the 
        nonprofit partner. This creates unnecessary paperwork and 
        oversight, discourages partnerships from developing, and drains 
        time and energy that could be directed to the agency's and the 
        organization's missions.
        <bullet>  The agreement approval process, and the inability of 
        the agency to move agreements quickly through the process, is 
        the most often sighted frustration among nonprofit partners to 
        the National Park Service. These process delays can result in 
        escalating project costs, loss of donor support, and in some 
        cases the delay or abandonment of viable projects and 
        initiatives.
        <bullet>  The practice of rotating NPS leadership among and 
        between parks results in a lack of consistency and 
        institutional knowledge relative to the park's partnerships; 
        and is disruptive of the type of long-term relationships that 
        characterize the most outstanding examples of NPS partnership 
        success. Nonprofit partner organizations and their staff are 
        often the point of continuity between the park, the local 
        community, volunteers and donors--and the point of continuity 
        relative to the agreements and procedures that define their 
        partnership functions with the agency. Because of the 
        inconsistencies in training and interpretation of policies 
        throughout the NPS system, park partners comment that they 
        spend a disproportionate amount of time having to ``start 
        over'' in addressing the type, scope, and paperwork necessary 
        to effectively co-manage partnership expectations.

 Have policy changes from within the National Park Service affected 
        your ability to have successful partnerships?
    A continuing focus on ``trouble cases'' tends to result in a 
reactionary response within the agency that overshadows the ongoing 
positive accomplishments that happen daily through NPS partnerships. 
The more emphasis placed on successes through nonprofit partnerships, 
the more burdensome the policies and procedures have become. Policies 
are often in a state of change, and the information regarding these 
changes doesn't flow effectively through the system to field staff and 
partners--resulting in confusion, delays, and at times a negative 
impact on the ability to implement a program or project.
    The time it takes to develop agreements, especially cooperative 
agreements, consumes valuable agency and nonprofit partner resources 
that could be applied to meeting park and visitor needs. While APPL 
itself is not a fundraising partner for the parks, we do at times 
collaborate under project specific cooperative agreements to conduct 
training, facilitate meetings, or develop partnership resources and 
tools. As a result, we have experienced first-hand the variations in 
how agency staff interpret policies, and the delays that accompany the 
agreement process. This has become amplified in recent years as 
cooperative agreements have come under more scrutiny.
 What can be done to address the challenges and roadblocks noted above?
    APPL member organizations endorse the importance of agreements that 
clarify and support the role of NPS and its partners. However, 
partnerships are at their core about relationships, and there is 
therefore no such thing as a ``no risk'' partnership. But when 
nonprofit partners and agency staff decide that the priority is the 
resource, the focus is moved from the nonprofit or the agency to the 
park, enabling personal agendas to be put aside in favor of developing 
solutions, projects, and programs that are meaningful and sustainable.
    A cultural change from viewing partnerships in a ``facilitative 
role'' rather than a ``regulatory role'' can move the focus to one of 
supporting and empowering partnerships without increasing risk to the 
agency. The following opportunities exist to further advance 
partnerships within NPS, and to help ensure a sound foundation for 
future partnership successes:
        <bullet>  Develop partnership agreement specialists as a 
        discipline and a career track within Interior and within the 
        NPS. Ideally, if nonprofit partners and agency staff were 
        assigned one NPS partnership agreement specialist--even if it 
        was one in each region--this could result in more efficiency in 
        completing the agreements with parks, and more consistency 
        throughout the park system.
        <bullet>  Encourage inter-agency collaboration in developing 
        supportive structures and policies that enhance nonprofit 
        partnerships. This will help to reduce the agreements and 
        reporting requirements burden for nonprofit partners working 
        with multiple public lands agencies.
        <bullet>  Work with nonprofit partners to provide reciprocal 
        training for agency staff and nonprofit representatives so that 
        all partners carry out their work in productive relationships 
        that are characterized by a high degree of mutual 
        understanding, transparency in management policies, shared 
        goals, and effective communication.
        <bullet>  Streamline requirements within public lands agencies 
        for nonprofit partners to work under mutually beneficial 
        cooperative agreements.
        <bullet>  Involve nonprofit partners at the earliest possible 
        stages in planning and decisions affecting their relationship 
        with public lands.
        <bullet>  Engage public and private partners in forums to 
        discuss emerging issues, share the impacts of external trends 
        and internal policies, and develop workable solutions through 
        facilitated discussion and follow-up.
        <bullet>  Exempt established cooperating associations and 
        friends organizations from competitive bidding of their general 
        agreements. Nonprofit partners to the National Park Service 
        bring durability and tenure not only to the agency but to its 
        donors. Competitive bidding for cooperative agreements and 
        their components sends a contrary message and imposes 
        unnecessary and potentially damaging disruption to these 
        partner relationships at a time when they are most needed.

 What types of accomplishments has your organization achieved that 
        directly benefits parks and their mission?
    APPL helps serve as a bridge to increasing partnership 
understanding among nonprofits and public lands agencies. We facilitate 
dialogue through in-person meetings, conference call forums, 
newsletters, workshops, training materials and site-based 
consultations.
    Among our member nonprofit organizations, the benefit is realized 
through contacts made with park visitors that reinforce the theme and 
purpose of the park, the number of site-specific publications now in 
print because of cooperating association efforts, the educational 
seminars, field institutes, and the events that connect people to their 
parks, and the philanthropic dollars raised in support of park 
priorities.
    The following are just a few examples of the variety and impact of 
these partnerships:
        <bullet>  Through the Acadia Trails Forever program, Friends of 
        Acadia supports maintenance of Acadia's 130-mile footpath 
        system, used by hundreds of thousands of people each year. Some 
        trails have been made wheelchair accessible. Some abandoned 
        trails are being restored, and new village connector trails are 
        being established to encourage people to walk (rather than 
        drive) from island towns into the park.
        <bullet>  Alaska Geographic works with NPS and a concessionaire 
        to distribute a tour booklet program developed collaboratively 
        and provided by the concessionaire to all of its tour 
        participants. Revenue from this initiative supports educational 
        programming at Murie Science Center at Denali as well as 
        throughout the parks of Alaska.
        <bullet>  Pacific Historic Parks (formerly Arizona Memorial 
        Museum Association) has raised nearly all of the significant 
        funding for the new Pearl Harbor Museum and Visitor Center. 
        Phase I of the project was opened to the public on February 17, 
        2010 and dedication of the completed project is scheduled for 
        December 7, 2010. The completion and success of this project 
        will ensure that millions of visitors each year will better 
        understand the history of Hawaii, Pearl Harbor, and WWII as 
        well as appreciate the sacrifices made by many at Pearl Harbor.
        <bullet>  Friends of Big Bend raised over $250,000 for the new 
        educational exhibits that grace the walls of the newly re-
        opened Panther Junction Visitor Center in the park. Other 
        support to the park includes a $10,000 project to lay the 
        foundation for future Big Bend National Park podcasts and other 
        multimedia video materials.
        <bullet>  Over the last twenty years the Rocky Mountain Nature 
        Association has tackled 44 special improvement projects 
        benefiting the park, ranging from educational exhibits to 
        visitor centers, from wheelchair accessible trails to land 
        purchases, from publications to saving historic buildings.
        <bullet>  Sequoia Natural History Association (SNHA) works with 
        NPS to educate the public about environmental issues, not just 
        through interpretive programs and materials, but through their 
        own actions. Two years ago, SNHA began eliminating plastic bags 
        in visitor center stores, asking visitors to hand carry small 
        purchases or consider buying an inexpensive reusable bag. This 
        effort has taken an estimated 50,000 plastic bags out of the 
        waste stream annually. Last year the association partnered with 
        NPS to obtain grants and donations to make Crystal Cave 
        interpretive tours, operated by SNHA in Sequoia, the first cave 
        tour operation to be operated 100% on solar power. Through 
        interpretive signage, this project is also a visible message to 
        the 55,000 annual cave visitors.
        <bullet>  Western National Parks Association--operates 
        educational bookstores in 66 national park areas in 12 states 
        and then returns proceeds of sales to their NPS partners for 
        interpretive, educational and research projects. Eastern 
        National operates in 150 national park areas in 30 states. 
        These cooperating associations, by applying shared resources, 
        enable parks that could not support their own independent 
        bookstore operation, or that are not viewed as ``commercially 
        viable'' to have high quality park specific themed items that 
        convey the story of the resource to the visitor.
        <bullet>  Yosemite Conservancy over the last 22 years has 
        funded over 300 projects totaling more than $55 million in 
        support. Many of these projects have improved the 
        infrastructure supporting visitor enjoyment. As one example, 
        support for the Junior Ranger program provided the opportunity 
        for 27,000 kids to get their badge in 2009.

 How does your organization benefit from your relationship with the 
        parks?
    Our organization, as well as our member organizations, benefit from 
the ability to fulfill our nonprofit mission--which complements the 
mission of the National Park Service. Nonprofit partners bring 
expertise in areas that balance agency staff members' expertise, and 
vice versa. Nonprofit partners benefit from the credibility and 
expertise of their agency partners, as the agencies benefit from the 
business, philanthropic expertise, and community connections that the 
partner organizations bring through their staff and nonprofit boards. 
Together, we are better able to advance innovative ideas, ensure the 
relevancy of national parks to diverse populations of park users, and 
ensure that parks continue to be conserved, enjoyed, and valued by the 
public.
    In most cases, cooperating associations and friends groups were 
formed to support a specific park or a group of parks. Therefore, they 
view their organizations as existing to benefit the park(s), not the 
other way around. As one association executive director put it, ``the 
only benefit is seeing projects and programs funded for the protection 
of the resource and the enjoyment of the visitor.''

 In working with parks, how are projects determined? Are project ideas 
        driven by park needs or are they more likely to originate with 
        your organization?
    National park partners agree that projects are driven by park 
priorities and needs. However, ideas are often spawned because of the 
strong partnership, planning and dialogue that enable nonprofit 
partners to bring ideas to the table for consideration.
    The nature of philanthropy and earned revenue requires significant 
advance planning to ensure that staffing and resources are dedicated to 
activities that will have the most impact; and to ensure adequate time 
to plan for business operations and to nurture philanthropic support.
    Typically the park submits its requests to the board or a project 
review committee of the cooperating association or friends group, which 
then selects or approves projects for a given year based upon the 
park's recommendations and the capabilities of the partner to achieve 
the requested level of support. Depending upon the type of project or 
program, and the capacity of the partner or the park to manage the 
project or program, decisions will be made as to how the project will 
be carried out. In some situations the association or friends group 
will fund the project to be carried out by the Park Service. In other 
instances, the association or friends group collaborates with the park 
to accomplish specific projects or programs. This collaboration spawns 
creativity, better planning, and more productive and sustainable 
projects.
    The following example is illustrative of how a program need was 
articulated by park leadership and then implemented collaboratively 
with the Park Service. ``In the case of our Field Institute, the 
superintendent laid out his vision to us, then charged us to move 
forward and create a business plan. Initially, our association's vision 
for the Institute was markedly different from that of the Park Service, 
but both sides kept their doors and minds open and trust and 
cooperation prevailed, resulting in an institute that has worked for 
everyone.''

 Summary
    Americans have always treated their public lands generously. Today, 
more than ever, the means to do this rests with the nonprofit partners 
of those public lands, as the nation wrestles with multiple demands 
upon the federal budget and public land agency budgets are stretched. 
APPL and its members are at the nexus of the connection to public 
support for public lands.
    The time has come to fully acknowledge, encourage, and foster the 
partnerships that provide the heart and soul of our stewardship efforts 
to protect our world-class natural, cultural and historical resources. 
The key to the long-term health of our nation's treasured public lands 
is partnerships.
    APPL provides information, facilitates communication, and delivers 
training to build the capacity of these organizations and their agency 
partners to deliver the highest quality programs, products, and visitor 
services. APPL fosters standards of excellence for nonprofit partners 
and helps agencies understand how to approach productive relationships 
that extend resources and serve visitors. We have developed 
organizational assessment tools to assist parks and partners in 
determining their strengths, potential obstacles, and capabilities to 
increase their programmatic, fundraising, and earned income benefits. 
We stand ready to work with NPS to implement the recommendations within 
this testimony.
    We believe that caring for our national parks is a shared 
responsibility. The job is big and resources are limited. As more and 
more Americans turn to national parks for their recreation and green 
space, as more and more schools seek laboratories for learning, as 
communities and citizens look for volunteer and economic opportunities, 
nonprofit partnerships grow increasingly necessary.
                                 ______
                                 
    Mr. Grijalva. Before I turn to Susan Smartt, let me ask our 
colleague who has joined us if he has any opening comments at 
this point?

 STATEMENT OF THE HONORABLE BILL SHUSTER, A REPRESENTATIVE FOR 
                   THE STATE OF PENNSYLVANIA

    Mr. Shuster. Thank you, Mr. Chairman, and I want to thank 
all the witnesses for being here today. I appreciate you 
holding this hearing.
    Our national parks are a great source of pride and it is 
imperative that they thrive and tell the story of this nation. 
As I said, I want to thank the witnesses for being here today.
    I have the great honor of having Flight 93 National 
Memorial in my congressional district. From the beginning, I 
have been involved in the process of completing a memorial 
honoring those that gave their lives on September 11th, and I 
want to take a moment to point out that the building of Flight 
93 Memorial has been a collaborative process and a great 
experience and a great example of how these public-private 
partners should work.
    From the tragic day when the heroes of Flight 93 gave their 
lives to stop a terrorist attack on our nation's capital, this 
work continues on the memorial, and the local community has 
been there, first establishing a temporary memorial site with 
volunteers to show folks around and they continue to protect 
the site and tell the story of the heroes of Flight 93.
    In 2002, Congress authorized and President Bush signed into 
law the Flight 93 National Memorial Act creating a permanent 
national memorial as part of the National Park Service System. 
The Fight 93 Advisory Commission was created as part of this 
law to ensure that local citizens had a voice in the process, 
and we have had several leaders in Somerset County: Jerry 
Spangler, Pam Tokar-Ickes, Greg Walker, Gary Singel, Donna 
Glessner and Dan Sullivan, they have been involved to make sure 
the local concerns have been heard all along, which I think is 
extremely important.
    Together with the National Park Service and the National 
Park Foundation, the Flight 93 Advisory Commission, the 
families of Flight 93, and the Commonwealth of Pennsylvania, 
the progress on the memorial is being made with the first phase 
of construction being completed by the tenth anniversary, which 
will be next year. Over $17 million in private donations has 
already been raised for the completion of the first phase of 
the memorial, and the families of Flight 93 are targeted to 
reach their committed goal of raising $30 million for the 
construction of the memorial.
    Mr. Chairman, this is exactly how the process should work, 
strong local support, community input and collaboration among 
affected parties should always be part of the process.
    So, again, thank you very much for holding this hearing, 
and again appreciate you taking the time to let me make a 
statement.
    Mr. Grijalva. Thank you, and congratulations on the fine 
work on that memorial.
    Mr. Shuster. Thank you. And they have broken ground and we 
should be on target.
    Mr. Grijalva. Congratulations.
    Mr. Shuster. Thank you.
    Mr. Grijalva. Let me now ask Ms. Susan Smartt, President 
and CEO of NatureBridge in San Francisco, I had an opportunity 
to meet with when I was there to meet with some of your folk 
involved in that, and it is an excellent program, by the way.

STATEMENT OF SUSAN SMARTT, PRESIDENT AND CEO, NATUREBRIDGE, SAN 
                     FRANCISCO, CALIFORNIA

    Ms. Smartt. Thank you, Chairman Grijalva, Ranking Member 
Bishop, and other Members of the Subcommittee. Thank you for 
the opportunity to testify this morning.
    I am Susan Smartt, President and CEO of NatureBridge and I 
am honored to be provide testimony on partnerships in the 
National Park Service.
    Our mission at NatureBridge is to provide science and 
environmental education in nature's classrooms to inspire a 
connection to the natural world and responsible actions to 
sustain it. We do this by providing three- to five-day 
residential programs in our national parks, and we contract 
directly with schools for these programs and other community 
groups. We have been working in partnership for 40 years and 
currently operate in four national parks. Our first institute 
was in Yosemite National Park in 1971, inspired by a science 
teacher from Los Angeles who thought his kids could learn 
science better in nature's classrooms. We were then invited to 
expand to the Golden Gate National Recreation Area, and then 
invited to expand to Olympic National Park, and finally last 
year we opened our fourth institute in the Santa Monica 
National Recreation Area, again at the invitation of the 
National Park Service.
    We have a long history of collaboration with the National 
Park Service. It is easy to focus on partnerships that have not 
gone well, but it is critically important to remember that far 
more partnerships are working extremely well, so I would just 
like to share with you some of the things we think we have 
learned in our 40 years about partnerships.
    First of all, as was mentioned by Donna, close alignment of 
mission and programs is essential to a good partnership. Also, 
our financial model does not require any funding from the 
National Park Service. We have always been financially self-
sufficient organization, which has served us well. We raise 
money from fees for the programs, but we also raise about $2 
million a year to scholarship schools and kids from underserved 
communities that would not otherwise be able to afford our 
programs.
    Finally, we are in close communication with the National 
Park Service, and I cannot emphasize that enough at all levels, 
not only the park level, the regional level, and the national 
level to make sure that we remain in alignment with National 
Park goals and missions.
    So, our accomplishments over these 40 years we have 
educated one million participants in our national parks in 
environmental science education. They are the next generation 
of national park supporters and stewards. We are reaching and 
building diverse and underserved audiences that better reflect 
the face of America through our scholarship program. We are 
building community: all very important benefits to the national 
parks.
    Of course, our organization has also benefitted 
tremendously from being a National Park partner. There are no 
better classrooms for our education than our magnificent 
national parks. We are honored to be associated with the 
National Park Service, and the values it stands for. This 
association provide us with a stamp of approval and 
credibility, and we honor that.
    As I said earlier, we started in 1971, and we have expanded 
by invitation. Currently there are two parks on the East Coast 
that have contacted us and are interested in us expanding our 
programming to their parks. We would not even consider 
expanding to a new park without strong leadership and 
commitment from the park to support the program. We work in 
close collaboration with the National Park Service at all 
levels, and know that is fundamental to our relationship.
    I do want to talk a bit about the difficulty of some of the 
barriers and things that are affecting our partnership and 
other nonprofit partners. You will hear a lot today about legal 
agreements, it has already been mentioned by the first two 
witnesses, so I will not spend a lot of time on it other than 
to say that the increasing complexity of these agreements have 
become unworkable in some respects. The tone has moved from 
partnership as collaborations to a legal transactional approach 
which doesn't serve us well. No risk partnerships do not exist 
and should not be the legal bar that is set.
    The inconsistency of policies across parks: For those of us 
that work in multiple locations, this could be quite 
significant and frustrating. As we make plans to expand our 
programs to new parks, it will save countless hours and money 
if there is a more standardized approach to the manner in which 
partnerships are established and administered.
    The cultural challenges exist also. There are differences 
between government agencies and nonprofits, and a key to 
effectiveness is understanding those differences and figuring 
how to bridge them.
    Decisionmaking needs to be done more quickly. When you are 
working with a donor community they have an expectation that 
their donations will be used effectively and efficiently, and 
if it takes five years to negotiate a fundraising agreement, 
that is the wrong message to our funders. Those kinds of delays 
are costly, frustrating, and can inhibit timely implementation 
and execution of partnership agreements, which negatively 
impact program and fundraising activities.
    So, our three simple recommendations are:
    First of all, we support the efforts that are underway that 
Dan Wenk mentioned earlier, the current efforts to streamline 
and standardize partnership agreements. We think that will go a 
long way to removing some of the more bureaucratic barriers. 
This includes the approval process and layering of agreements. 
It will also improve mission-related results for both partners 
and save both donor and taxpayer money.
    We would like the National Park Service to consider a 
proven partner status for long-time partners. This would allow 
partners who have worked successfully with the National Park 
Service over several years to benefit from that proven track 
record, and again hopefully eliminate some of the hurtles and 
barriers we have now to expanding programs.
    Finally, we would like to see more inclusion and engagement 
of nonprofit partners in operational leadership training at all 
levels of the National Park Service, and we are ready to help 
with that.
    Thank you all for the opportunity testify this morning. We 
honor and value our partnership with the National Park Service, 
and we are ready and willing to work with Congress and the 
National Park Service to strengthen and improve these nonprofit 
partnerships. Thank you.
    [The prepared statement of Ms. Smartt follows:]

         Statement of Susan Smartt, President/CEO, NatureBridge

    Dear Chairman Grijalva, Chairman Napolitano, Ranking member Bishop 
and other members of the subcommittee:
    Thank you for the opportunity to submit written testimony to the 
Subcommittee on National Parks, Forests and Public Lands of the 
Committee on Natural Resources with specific regard to ``The role of 
partnerships in National Parks.'' We intend to highlight the enormous 
benefits to citizens, especially our youth, that are the result of 
effective and highly productive partnerships with our National Parks. 
We also will focus on some of the hurdles that must be overcome if we 
are to make this relationship sustainable over the long term.
    We are very pleased that the Subcommittee is seeking information 
from National Park partners that will enhance our ability to work 
together more productively. We all understand that partnerships are 
mutually beneficial and an excellent way to leverage limited resources.
    NatureBridge has been working in partnership with the National Park 
Service (NPS) for almost 40 years. NatureBridge currently operates 
residential environmental education programs in four National Park 
locations: the Santa Monica Mountains National Recreation Area, 
Yosemite National Park, the Golden Gate National Recreation Area, and 
Olympic National Park. Launching more campus programs in National Parks 
in the eastern United States is contemplated in our recently completed 
Strategic Plan. Ours is a history of mutually beneficial collaboration. 
Indeed, there is great excitement about the impact we are able to have 
on the lives of youth and the quality of life in their home communities 
through our partnership with the National Park Service.
    One of the top priorities of NPS Director Jon Jarvis is to increase 
environmental education and outreach to underserved youth. The recent 
launch of the President's America's Great Outdoors Initiative speaks to 
the need to reconnect Americans to the outdoors. It emphasizes reaching 
out to underserved youth and building new constituencies for our 
treasured parks. Director Jarvis' priorities and the President's 
initiative both highlight the need to expand the very programs that 
NatureBridge offers. The success of these efforts can only be achieved 
with increased and more effective and efficient public/private 
partnerships.
    NatureBridge is looking to strengthen an already rewarding 
partnership with the NPS. We seek to advance our common mission and 
develop a closer working relationship. We are concerned that the 
hurdles to effective and sustainable partnerships have increased and 
indeed may severely limit our ability to expand beyond our four 
campuses.
    Our testimony focuses on broad issues that impact our entire 
organization rather than one specific park. We start with the 
assumption that we are building on a successful model of shared mission 
with the National Park Service and this testimony is offered in the 
spirit of increased effectiveness and the need to leverage increasingly 
scarce resources.

Partnership Limitations, Barriers and Frustrations

1. Difficulty of Completing Legal Agreements
    The increasing complexity of public/private partnerships has 
resulted in Agreements (Cooperative, Fundraising, etc.) that are 
overreaching and unworkable. The staff time and financial resources 
spent on reviewing and redoing agreements is frustrating and wasteful, 
can take several years to complete and in the end fosters a climate of 
legal adversaries rather than partners.
    The process of reviewing agreements is highly centralized; drafts 
acceptable to the Park or the Region may be extensively questioned by 
the Washington Support Office (WASO), which can at times seem 
disconnected from the field. ``No risk'' partnerships do not exist and 
should not be the legal bar that is set.
    For example, our Yosemite Institute has operated under a series of 
agreements with the NPS since 1971, but in 2010 questions from WASO 
about the NPS's legal authority to allow us to enter into agreements 
has caused extensive delays. Our most recent experience with the 
Fundraising Agreement for our proposed new Environmental Education 
Center in Yosemite National Park is a perfect example of what is not 
working. We first received a 20 page draft modeled from former partner 
agreements that has now mushroomed into over 40 pages after review by 
NPS solicitors.
    Meanwhile, at Golden Gate National Recreation Area, NatureBridge's 
Headlands Institute campus is operating under its fourth successive 
one-year extension of its general agreement. After operating and 
providing programs for over 30 years in the Park, the partnership feels 
more like a landlord/tenant arrangement as we are now being asked to 
pay approximately $140,000 annually in ``service district charges'' to 
continue our programs in the Park.
    NatureBridge recognizes and values the uniqueness of each park but 
is frustrated by our inability either to use agreements signed in one 
park as a template for a similar agreement in another park, or to 
negotiate a master agreement that would cover NatureBridge operations 
in multiple parks.
    Suggestion: NatureBridge supports streamlined and standardized 
partnership agreements. For example, the National Park Service should 
consider ``proven partner status'' for longtime partners that have a 
strong mission alignment and have met their program and financial 
obligations for a number of years. This would involve setting up a 
vetting system for new partners and enabling them to use streamlined 
processes once certain conditions are met and a proven track record is 
established.

2. Inconsistency of Policies Across Parks
    In four different parks, NatureBridge helps the NPS implement its 
educational mission. Our educational programs are the same in each 
location, but NPS administration varies significantly from park to 
park. For example, at Olympic National Park, private bidding and 
private construction were allowed on a project funded by NatureBridge 
and located on our Institute's campus. At Yosemite National Park, great 
uncertainty surrounds whether private bidding and construction will be 
allowed for the new Environmental Education Center, which has important 
cost implications.
    Another example has to do with park facilities assigned to us so 
that we can provide the educational programs that the parks have 
requested. In Olympic National Park, Santa Monica Mountains National 
Recreation Area and Yosemite National Park there is a strong 
partnership relationship. Unfortunately, the Golden Gate National 
Recreation Area, as mentioned above, apparently sees us as a tenant and 
wants to charge rent.
    As we make plans to expand our programs to new parks, it will save 
countless hours and money if there is a more standardized approach to 
the manner in which partnerships are established and administered.
    Suggestion: For partners who operate in multiple parks, NPS should 
standardize its administrative requirements and employ a more uniform 
approach to working with partners.

3. Cultural Challenges
    The cultural differences between government and nonprofits are 
often a barrier to effective partnerships. Understanding this is a key 
for both the NPS and their nonprofit partners. We recommend that a 
central part of the NPS partnership training be on the differences in 
how nonprofits and how government agencies operate, and how to bridge 
the gap. NatureBridge would gladly participate in this type of 
training.
    Suggestion: Include and engage nonprofit partners in operational 
leadership (multi-level) training opportunities, and already existing 
National Park Service training. This type of collaborative training 
will greatly benefit both the nonprofit partners and the National Park 
Service.

4. Decision Making
    Decisions must be made more quickly. This mainly has to do with the 
layering of agreements and multiple written approvals that are time-
consuming, cumbersome and difficult to manage and enforce. Often it 
seems the delays come from divisions within a particular park's 
management. These kinds of delays are costly, frustrating and can 
inhibit timely implementation and execution of partnership agreements 
as well as program and fundraising activities.
    Suggestion: Approval processes should be streamlined to fit the 
pace of business in the 21st century. This will improve mission-related 
results for both partners and will save both donor and taxpayer money.

5. Sharing Information/Changes in Rules
    The complexity of the rules/regulations that we operate under in 
the national parks makes it difficult to stay abreast of changes in the 
rules.
    Suggestion: In order to facilitate compliance on the part of 
NatureBridge and other partners, NPS should consider a system of alerts 
and better communication to assure timely notification of changing 
requirements.
    We welcome the opportunity to work with the Subcommittee to find 
ways to build and foster more effective partnerships while honoring and 
enhancing the mission of both of our organizations.
                                 ______
                                 
    Mr. Grijalva. Before we go to our next panelist, let me ask 
my colleague, Mr. Holt, if he has any comments?

STATEMENT OF THE HONORABLE RUSH D. HOLT, A REPRESENTATIVE FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman, and I thank the panel 
for their good testimony, which I am beginning to go through 
right now.
    This is a very important hearing, and I thank the Chairman 
for putting this together. Partnerships with the parks and the 
other agencies that look after our public treasures are really 
important, and for example, some of us have been promoting an 
educational partnership with the national parks. But I hasten 
to state my personal concern that over the real decades now a 
number of functions that I think should be core functions of 
these agencies have been shed to other for-profit and nonprofit 
organizations, and I think it is really important that we take 
a good look at this and make sure that we provide the resources 
to the Park Service and other agencies so that they can fully 
undertake those things that should be the core functions, and 
not have to go around hat in hand and tin cup rattling to do 
those things.
    Thank you very much for doing this Mr. Chairman.
    Mr. Grijalva. Thank you, Mr. Holt. And Mr. Sarbanes, any 
opening?
    Let me now go to Dan Puskar, Director of Government 
Affairs, National Park Foundation. Welcome. I look forward to 
your comments.

     STATEMENT OF DAN PUSKAR, DIRECTOR OF PARTNERSHIPS AND 
  GOVERNMENT RELATIONS, NATIONAL PARK FOUNDATION, WASHINGTON, 
                              D.C.

    Mr. Puskar. Thank you, Mr. Chairman, Mr. Ranking Member, 
Members of the Committee. Thank you for the opportunity to 
discuss with you the role and value of partnerships in our 
national parks.
    The National Park Foundation is proud to serve as the 
Congressionally established charitable and promotional partner 
of the National Park Service. We strive to benefit and add 
value to all 392 national parks. Over the past five years, the 
Foundation has provided over $124 million to the National Park 
System. We receive no Federal appropriations. Instead finding 
these resources from individuals, foundations, and 
corporations.
    In my testimony, I hope to highlight how the Foundation 
does three things:
    First, how we collaborate with the National Park Service to 
ensure that our work directly addresses its critical needs and 
individual park priorities. Second, how we help the Service 
fulfill our shared mission by providing the expertise, 
resources, qualities that a government agency cannot; and 
third, how we support friends groups and the philanthropic work 
at individual national parks.
    The Foundation is honored to continue the rich tradition in 
which parks were established and sustained--public and private 
interests working in tandem. The Foundation's activities 
benefit from our close collaboration with all levels of the 
National Park Service. We are privileged to have the Director 
as an ex-officio member of our Board of Directors. Our 
collaboration extends from the creation of a superintendent's 
council that facilitates dialogue and the sharing of ideas 
between the Foundation and the Park Service field, to weekly 
meetings that I have between myself and the chief of the 
National Partnership Office.
    Because of our shared mission, the Service has called on 
the Foundation to address its critical needs. In 2007, we were 
asked to take the lead in the fundraising campaign to build the 
Flight 93 National Memorial. Within the past fiscal year of the 
$17 million raised that Mr. Shuster mentioned, we transferred 
$10.2 million to the Service just in the last fiscal year to 
complete this construction project.
    Our common mission and close relationship has allowed us to 
create grant programs and encourage the Service to help us find 
what we can do with the funds that we provide, where they can 
be leveraged most succinctly. Consider our America's Best Idea 
Grant Program. Here the Foundation has invested almost $900,000 
in the last year and a half in 52 national parks to help them 
reach underserved group and empower those groups to create 
strong, lasting bonds of stewardship.
    The Foundation does not define for the parks what an 
underserved group is or the best mechanism to reach them. We 
rely on that knowledge base there where we can provide a 
certain level of fundraising expertise in other areas.
    In addition, the Foundation managers select national 
programs of significance, programs that fit our role as the 
national charitable and promotional arm of the Service. Our 
Electronic Field Trips give students an opportunity to 
virtually visit national parks they may never be able to do so 
on their own. Since 2004, we have participated in 11 of these 
field trips. And our last one to Bryce Canyon earlier this 
year, 6,000 teachers registered to allow their 120,000 students 
to participate on the day of broadcast here in the U.S. and on 
military bases in six nations. There was a potential additional 
bureauship of 7.5 million viewers by working with Public 
Broadcasting and other educational networks.
    In each of these examples the Foundation has brought its 
fundraising and marketing expertise to complement the Park 
Service's deep understanding of their local communities, their 
resources, their needs.
    The Foundation has also been tasked by Congress to play a 
vital nurturing role in strengthening the philanthropic 
programs of support at an individual park unit level. The 
Foundation recognizes that bolstering sustainable friends' 
groups is the key to successfully answering this charge. When 
friends groups have the capacity to promote and publicize their 
parks, when they can serve as the liaisons between parks and 
communities, when they can raise monies for park-specific 
programs, the benefits are multi-dimensional and they extend 
well beyond the parks' boundaries.
    In a survey of friends groups that we conducted in April of 
this year, 41 percent reported, however, that their operating 
budgets were less than $50,000. Fifty percent reported having 
fewer than one paid staff member. More than half of those 
polled, over 110 groups responded, stated that advanced 
training, fundraising, and board development would 
significantly help them to respond to these concerns.
    The Foundation is launching an in-depth assistance program 
that will help friends group become more effective and 
sustainable. This pilot program will conduct on-site 
engagements with friends groups across the nation. We will work 
with them to do an organizational assessment, find a work plan 
that suits their organization's growth, mentor, coach them, and 
provide matching funds along the way to ensure that they can 
build their own capacity.
    The state of our parks as the centennial comes in 2016 will 
say a lot about our priorities as a nation. Philanthropy is 
critical to creating new opportunities so that the public can 
relate to their parks and we can generate the creativity and 
innovation that the National Park Service will need in the next 
century.
    Thank you, Mr. Chairman, Mr. Ranking Member, and Members of 
the Committee for your ongoing support of the national parks 
and for allowing me the opportunity to report on the important 
role philanthropy plays in supporting our shared mission.
    [The prepared statement of Mr. Puskar follows:]

         Statement of Dan Puskar, Director of Partnerships and 
             Government Relations, National Park Foundation

    Mr. Chairman and Members of the committee, thank you for the 
opportunity to appear before you today. The National Park Foundation 
(``Foundation'') is proud to be the Congressionally chartered 
charitable partner of the National Park Service (PL 90-209) and 
commends this committee for its commitment to prepare our national 
parks for the challenges and opportunities of the next century and for 
highlighting the role that partnerships will play in this future.
    The Foundation serves as the philanthropic and promotional arm of 
the national park system, much like friends groups service individual 
parks or park groups. Through its grant-making programs and public 
outreach, the Foundation works with National Park Service leadership in 
Washington, D.C. and in parks across the country to fund conservation 
and restoration efforts, foster stewardship, engage youth, promote 
citizenship and preserve history in the places where it happened. The 
Foundation helps the Park Service to fulfill its mission to connect the 
American people to their parks in ways that a government agency cannot. 
Unlike other Congressionally chartered nonprofits established to 
support land management agencies, the Foundation receives no federal 
appropriations.
    In my testimony, I will highlight how the Foundation collaborates 
with the National Park Service at all levels to ensure that its grant-
making directly addresses park priorities. We embrace an 
entrepreneurial spirit that allows us to pilot projects and ideas that 
may provide innovative solutions to the challenges of connecting youth 
and underserved audiences to our parks. Inevitably, we have experienced 
successes and failures, and continue to learn how to improve our 
partnership and our practices.

PHILANTHROPY IN THE NATIONAL PARKS
    Since Yellowstone National Park was established in 1872, private 
philanthropy has been at the core of the preservation, protection, and 
improvement of America's national parks, and will continue to be 
essential in securing their future.
    Private philanthropy helped create individual national parks, as 
well as the National Park Service itself. The earliest philanthropic 
acts spanned the country from California to Maine. In 1907, Mr. and 
Mrs. William Kent donated what became Muir Woods National Monument in 
California. In June 1916, a group of private donors donated to the 
federal government the land for Sieur de Monts National Monument in 
Maine, the very same land that would one day grow and develop into 
Acadia National Park. Stephen Mather himself, the first director of the 
National Park Service, contributed from his personal fortune to support 
parks and their administration both before and after he led the agency. 
In addition to land purchases, Mather enlisted several western 
railroads to join him in contributing $48,000 to publish the National 
Parks Portfolio, which publicized national parks and helped persuade 
Congress to create the National Park Service in 1916.
    With the help of friends groups and other nonprofit park partners, 
the Foundation has carried on this legacy of private support of our 
national parks for over forty years so that they may be preserved and 
protected for future generations.

OUR IMPACT
    Congress established the Foundation in 1967 to encourage private 
philanthropic support for America's national parks. Over the past five 
years (FY2005-2009) the Foundation has provided over $89.3 million in 
grants and program support and more than $35.5 million in contributed 
goods and services to the national park system, a total contribution of 
$124.8 million.
    The Foundation is authorized to accept and administer ``any gifts, 
devises, or bequests, either absolutely or in trust of real or personal 
property or any income therefrom or other interest therein for the 
benefit of or in connection with, the National Park Service, its 
activities, or its services.'' This broad mandate has been used to:
        <bullet>  Between FY2005-FY2009, manage an average of $51.9 
        million restricted net assets for numerous parks and park 
        initiatives, some of which do not have friends groups.
        <bullet>  Establish the Everglades National Park Freshwater 
        Wetlands Mitigation Trust Fund in 1983 to restore and monitor 
        the 6,600 acres ``Hole-In-The Donut'' area of the park. The 
        Foundation has received and distributed $67.4 million since the 
        inception of this massive restoration project.
        <bullet>  Earn interest and increase the impact on restricted 
        contributions until required by the national park system. For 
        example, in February 2010, the Foundation received $5.5 million 
        for the Martin Luther King Jr. National Memorial. This amount 
        represents 10% of the total estimated cost of construction and 
        has been set aside to offset the costs of perpetual maintenance 
        and preservation of the commemorative work once it is 
        completed. It is unlikely to have any disbursement for more 
        than a decade.
        <bullet>  Provide technical assistance and cost-effective 
        financial operations for facilitating philanthropy at national 
        park units without a friends group.
    The Foundation also raises funds for specific grant-making and 
programs to strengthen park resources and visitor experiences. In 
FY2010, the Foundation awarded grants to 108 parks and National Park 
Service offices totaling $2.5 million. This amount does not include 
$10.2 million to complete the first phase of construction for the 
Flight 93 National Memorial, monies that have been leveraged by $18.5 
million from the Commonwealth of Pennsylvania and $13 million from 
federal appropriations.
    In its grant-making, the Foundation has found in recent years that 
the best ideas for funding truly come from the parks. Recently 
established grant-making programs include the following examples:
        <bullet>  Through the America's Best Idea grant program, the 
        Foundation has invested almost $900,000 since 2009 to reach 
        traditionally underserved groups and empower them to create 
        strong, lasting bonds of stewardship.
        <bullet>  The Impact Grants program has provided over $500,000 
        in two years to help 62 parks that needed a small amount of 
        additional funding to strengthen the efforts of a local 
        partnership or turn an underfunded and innovative idea into a 
        successful project.
        <bullet>  Active Trails! grants promote healthy lifestyles and 
        recreation on land and water trails while protecting and 
        enhancing our national parks' trail resources. Volunteers, 
        community groups, corporate partners, students and educators 
        get involved with their national parks through hands-on trail 
        work, citizen science and learning activities.
    In each of these grant-making opportunities, the Foundation 
encourages individual parks to define precisely what the grant will 
fund and how it will make a difference for the park and the American 
public. Grantees are encouraged to use this seed money from the 
Foundation to leverage other monies or contributed services from other 
partners thus extending their reach and impact.
    Regarding the America's Best Idea grant program, the Foundation 
does not specify what constitutes an ``underserved group.'' Instead, 
parks provide unique answers that fit their gateway communities and 
stakeholders needs. Consequently, the Foundation is able to fund a 
diverse array of meaningful projects. For example, in 2009 grants 
enabled Puebloan youth to spend weeks exploring Bandelier National 
Monument's backcountry and educating visitors about their cultural 
connection to this northern New Mexico monument. At Salem Maritime 
National Historic Site in Massachusetts, Boys and Girls Club members 
learned about maritime trade during the 18th and 19th centuries aboard 
the wooden boat Friendship. With this grant program, the Foundation and 
Park Service leadership look for applicants with projects that are 
simultaneously fundable, scalable and innovative. To date, 68 parks 
have employed an America's Best Idea grant to give life and legs to new 
ideas at the local level.
    In addition to its grant-making, the Foundation manages select 
national programs of significance. Electronic Field Trips (``EFT''), a 
signature program of the Foundation, give students the opportunity to 
virtually visit a national park that they might otherwise never get a 
chance to visit. An EFT consists of an hour-long broadcast from a 
national park featuring rangers and youth hosts--often from a local 
school--who focus on subjects relevant to the park. The broadcast is 
coupled with a website that offers interactive tools for students and 
downloadable lesson plans for their teachers.
    Since 2004, the Foundation has participated in EFTs to 11 national 
parks including Great Smoky Mountains, Grand Canyon, Carlsbad Caverns, 
Hawaii Volcanoes and Grand Teton National Parks. Our next EFT to North 
Cascades National Park this October will study the effects of climate 
change in parks. Nearly 6,000 teachers registered for the last spring's 
EFT to Bryce Canyon National Park reaching 120,000 students in the U.S. 
and on military bases in six other nations with a potential additional 
7.5 million viewers through the subsequent rebroadcast by Public 
Broadcasting Service (PBS) and other educational TV stations.
    The Foundation also makes an impact by bringing specialized skills 
and technologies to assist the National Park Service in sharing its 
story with the American people. The Foundation coordinates with the 
National Park Service to promote the entirety of the national park 
system through joint awareness campaigns. The Foundation provides 
marketing, communications and branding support for events and programs 
that recognize the breadth of the system and may be activated in any 
park. As an example, for National Park Week 2010, the Foundation 
developed a tool kit of posters, banners, informational brochures, 
website graphics, social media templates and press releases that could 
be customized by individual parks to highlight youth engagement under 
the title ``Share A Park, Shape A Life.''
    Finally, the Foundation is eager to respond to National Park 
Service needs, even those that cannot be anticipated. In response to 
the April 2010 oil spill in the Gulf of Mexico that jeopardized the 
wildlife and coastline of 10 national parks, the Foundation and the 
National Park Service established a permanent National Parks Disaster 
Recovery Fund. In the case of catastrophic wildfires, floods and even 
manmade disasters, our two organizations now have a ready vehicle to 
help Americans direct their time, talents and monies to restore 
national parks marred by tragedy. Where a responsible party is 
identified, as with the Gulf oil spill, no funds raised will be used to 
mitigate what is rightfully owed to the National Park Service.

PROMOTING LOCAL PARK PHILANTHROPY
    In 1998 Congress directed the Foundation to design a program to 
foster fundraising at the individual national park unit level (PL 105-
391). In the intervening years, several models have been adopted to 
make the most of local community enthusiasm and expertise and the 
Foundation's own institutional experience.
    The Foundation recognizes that bolstering sustainable friends 
groups is the key to successfully answering this charge from Congress. 
When friends groups have the capacity to promote and publicize their 
parks, serve as liaisons between parks and communities, and raise funds 
to support individual park projects, the benefits are multi-dimensional 
and extend well beyond park boundaries. Successful friends groups 
provide the National Park Service with better resources to fulfill its 
mission of preserving parks for future generations. Communities reap 
the economic development benefits of public-private partnership and a 
vibrant tourism draw. Perhaps most importantly from the Foundation's 
perspective, citizens are afforded proactive, tangible and varied ways 
to connect with the lands and resources they own in common trust as 
Americans.
    There is tremendous potential to expand the activities and reach of 
friends groups today. In a survey of friends groups by the Foundation 
in April 2010, 41% reported operating budgets of less than $50,000 and 
50% reported having fewer than one paid staff member. More than half of 
those polled stated that advanced training in fundraising and board 
development would significantly benefit their organizations. These 
results reflect impressive passion for our parks and a desire for 
greater guidance.
    This year the Foundation is launching an in-depth pilot program to 
assist friends groups and help them become more effective and 
sustainable. This in-depth model has a proven track record, 
particularly within the land trust community, of creating more robust 
and efficient organizations that are better able to meet their 
missions. The potential also exists to help a national park form a 
friends group if there is sufficient community interest.
    The pilot program will conduct on-site engagements with friends 
groups in each of the seven National Park Service regions for 
approximately twelve months per organization. The engagements begin 
with an organizational assessment that will consider such areas as 
organizational policies and procedures; strategic and program planning 
and evaluation; fundraising and resource development; and community 
relations and networking. In addition to fulfilling the promise of our 
Congressional charter, the Foundation's goal is to steadily increase 
the number of sustainable friends groups across the nation, broadening 
the landscape and growing the appetite for park philanthropy.
    This pilot program builds on previous efforts whereby the 
Foundation successfully created new sustainable friends groups for 
Biscayne, Crater Lake, Dry Tortugas, Everglades, Glacier, Grand Teton, 
Mount Rainier, North Cascades, Olympic and Shenandoah National Parks, 
as well as Gateway National Recreation Area, Lake Mead National 
Recreation Area, Mississippi National River and Recreation Area, and 
the U.S.S. Arizona Memorial.

SETTING PRIORITIES
    The Foundation is honored to help continue the rich tradition in 
which the parks were established and have been sustained--public and 
private interests working in tandem. The Foundation's activities 
benefit from our close collaboration and deep, positive relationships 
with all levels of the National Park Service - from the park rangers in 
the field to the Director himself.
    As noted in our charter, the Secretary of the Interior serves as 
the ex officio Chairman of the Foundation's Board of Directors and the 
Director of the National Park Service serves as its Secretary. In 
cooperation with their fellow citizen board members, these officials 
direct the activities of the Foundation staff and help set its mission, 
budgets, grant-making areas and fundraising goals. The Secretary of the 
Interior and the National Park Service Director have always been 
invaluable resources to the board as it charts a course for our 
organization.
    In 1998, the National Park Service and the Foundation jointly 
established a Superintendents Council, a platform for open dialogue 
between the Foundation and the National Park Service field. The Council 
provides a forum to receive critical feedback and advice on its current 
and future projects from park managers connected to the lands, 
resources and visitors. The Council is composed of two superintendents 
from each of the seven National Park Service regions who are nominated 
by their regional directors to exemplify the rich diversity of talent 
and training found in the national park system. These park managers 
constructively evaluate and critique the Foundation's fundraising, 
marketing and grant-making programs. This routine engagement helps 
ensure that the Foundation's projects support park-level interests and 
have the likelihood of on-the-ground success.
    Additionally, the Foundation's offices are located in the National 
Park Service headquarters building in Washington, D.C. permitting daily 
contact between operations and program managers and Foundation staff. 
The primary liaisons between our organizations - the Chief of the 
National Park Service Office of Partnerships and Philanthropic 
Stewardship and the Foundation's Director of Partnerships and 
Government Relations - meet weekly to discuss new opportunities, manage 
ongoing activities and evaluate projects. This collaborative approach 
extends to staff-to-staff communications between Foundation and 
National Park Service staff in parks, regional offices and Washington, 
D.C.
    Recently, the Foundation helped convene National Park Service and 
friends group leaders to discuss agreement templates that codify their 
partnerships and define fundraising activities. The Foundation has 
provided private legal counsel for these discussions, encouraging 
solutions that remove limitations to effective and sustainable National 
Park Service - friends group partnerships. Like the National Park 
Service, the Foundation applauds investments in templates and training 
that will streamline the process of establishing and growing these 
partnerships.

THE CHARITABLE COMMUNITY FOR PARKS
    The National Park Foundation has benefited from the generosity of 
many individuals, foundations and corporations.
    The Foundation has seen the greatest growth in its individual 
giving program in the past five years. In our 2010 fiscal year, the 
Foundation received donations from over 52,000 individuals. A robust 
website and a new online parks community have expanded our ability to 
attract donors in addition to an active direct mail program. In 2006, 
the Foundation established a major gift program to energize and retain 
individual donors who want to help connect the American people to their 
national parks. The Foundation benefits from the significant outreach 
of its Board of Directors, composed of leading philanthropists, 
business leaders and nonprofit directors.
    Throughout its history, the Foundation has also worked with many 
significant corporate and foundation partners. Their support has 
enabled the National Park Service to enhance and expand important 
programs in such areas as education, preservation, community 
engagement, health and wellness, habitat restoration and volunteerism.
    As noted in the 2009 GAO report commissioned by the Subcommittee 
for National Parks, Forests and Public lands and titled Donations and 
Related Partnerships Benefit Parks, but Management Refinements Could 
Better Target Risks and Enhance Accountability, the Foundation employs 
several models for corporate partnerships. The Foundation continues to 
pursue long-term relationships with existing and new corporations in a 
way that provides greater cash resources and minimizes Park Service 
risk.
    With the support of the National Park Service, the Foundation is 
currently phasing out one specific model for corporate partnership. 
Launched in 2000, the ``Proud Partners of America's National Parks'' 
program permitted corporations to commit certain donations, primarily 
in-kind services, by entering into a tri-party agreement with the 
Foundation and the Park Service. In return, the corporations were 
designated as Proud Partners, permitted to affiliate themselves with 
the National Park Service and the Foundation in promotional materials 
and granted national marketing exclusivity. To ensure marketing 
exclusivity, the National Park Service agreed to abstain from entering 
into any other nationwide advertising agreements with companies that 
sell the same product or service as the Proud Partner.
    Although this program has reaped significant benefits for the 
parks, its marketing exclusivity requirements prohibited the Foundation 
from soliciting new corporate donors for significant periods of time. 
Where the Foundation and National Park Service had five Proud Partners 
in 2006, only one, Coca-Cola, is active today. The Foundation and the 
National Park Service have learned that a robust fundraising program 
that connects the parks and corporate partners is possible under a 
different model.
    A new model of successful corporate partnership is one with Macy's, 
Inc. From 2008 to 2010, the Turn Over A New Leaf campaign was designed 
to support, educate and inspire sustainability and eco-friendly 
practices in everyday life, as well as raise substantial support for 
the Foundation and its programs. Macy's has raised over $6.4 million in 
unrestricted funds for the Foundation in three years. The partnership 
was formalized in a two-party agreement with the Foundation that 
provided for limited marketing exclusivity (i.e. 4-6 months) with the 
Foundation but not the Park Service, and leveraged a substantial 
corporate marketing budget to generate national awareness.
    Partnerships like Macy's benefit the National Park Service and the 
Foundation through both the funds they provide and information in 
advertisements, which promotes public engagement with national parks. 
This model minimizes the appearance of commercialization within 
national parks by having corporations affiliate with the Foundation 
rather than directly with the National Park Service.

CONCLUSION
    The state of our parks at the Centennial Celebration in 2016 will 
say a lot about our priorities as a nation. Opportunities for 
philanthropy must be central to the future of our national parks. The 
Foundation is confident this can be accomplished in a manner that 
allows our local partners to be successful and helps programs at the 
national level extend the benefits of philanthropy to all parks. 
Philanthropy is critical to create new opportunities for more of the 
public to relate to their parks and to generate the creativity and 
innovation the National Park Service will need in the coming century.
    Thank you, Mr. Chairman, for your ongoing support of national parks 
and for allowing me the opportunity to report on the important role 
philanthropy plays in supporting the noble mission of the National Park 
Service and in connecting all Americans to these very special places.
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Derrick Crandall, Counselor, 
National Park Hospitality Association. Welcome, sir.

  STATEMENT OF DERRICK A. CRANDALL, COUNSELOR, NATIONAL PARK 
           HOSPITALITY ASSOCIATION, WASHINGTON, D.C.

    Mr. Crandall. Thank you, Mr. Chairman and distinguished 
members. I am delighted to be here representing the National 
Park Hospitality Association, one of the longest partnerships 
that the Park Service has had, stretching back more than 125 
years. Concessioners now operate in some 160 national parks, 
providing a billion dollars in goods and services to nearly 100 
million visitors to the parks every year, generating some $70 
million payments through franchise fees, and doing far more. 
Our guest donation programs in 13 national parks in cooperation 
with the National Park Foundation have generated more than $1.1 
million over the last five years, including more than $300,000 
in just the year concluding in June of 2010.
    We look forward to doing much more in terms of partnerships 
in the second century of the National Park Service, and we 
would like to talk about several of the key issues of concern 
to concessioners.
    First of all, we would note that park visitation by 
Americans is lower today than several decades ago even as our 
population has increased by 25 percent. We believe there are 
many units of the National Park System which offer wonderful 
experiences, but are highly underutilized and can, in fact, 
serve the Nation well while also protecting the resources.
    We believe that concessioners can be an effective partner 
in calling these parks to the attention of the American public 
and building the infrastructure needed to satisfy visits. I 
would note that park-appropriate, LEED-certified ADA-compliant 
and architectural significant park structures need to keep up 
with the growth in population of the United States.
    Earlier this year, Ken Burns, who produced the PBS series 
``America's Best Ideas,'' honored Stephen Mather, the first 
Director of the Park Service, for his unique role as a 
promoter, and pointed out that many of the roads to and through 
our national parks and many of the facilities in our parks were 
a result of the same individual that is so often credited with 
directing the culture of the Park Service in terms of 
protection.
    One of his often quoted statement is ``Scenery is a hollow 
enjoyment to the tourists who sets out in the morning after an 
indigestible breakfast and a fitful night sleep on an 
impossible bed.''
    We enjoy world-class facilities that are the result of 
Stephen Mather and his contemporaries, the El Tovar, the 
Ahwahnee, the Many Glacier Hotel land many more.
    I would also note that Ken Burns ended his comments by 
saying, ``If you think you have a good park, but no one knows 
about it, you don't have a good park.''
    What I would like to do is address four areas for 
partnerships in which concessioners can and should be playing a 
major role. The first is to create a new generation of enduring 
visitor infrastructure. I mentioned to you before that many of 
the lodges, restaurants, and other structures that now exist in 
the National Park System and are synonymous with visits to many 
of those units date back nearly 100 years ago. It is time to 
look at how we can ensure 100 years from now, we have a similar 
generation of new grand structures serving the public in 2116. 
And in order to do that we believe that we need to look at 
several strategies to enhance the building use of the private 
sector, including concessioners, to invest in the national 
parks.
    I note that there has been limited development of new 
infrastructure in the national parks over the last 20 years. 
Cavallo Point in Golden Gate National Recreation Area is an 
exception to that. I would note that Cavallo Point was offered 
initially as a concessions contract, and attracted no bidders 
from existing concessioners or other major hospitality 
entities. It was eventually offered as a commercial lease 
because that made it an investment of over $100 million, when 
augmented by the money raised by Federal and friends' 
organizations, and the possibility of a 50-year lease.
    What we would like to do is urge that the Congress consider 
a variety of ways both to encourage additional concessioner 
investment in infrastructure, and that would be to look at 
lengthening the current maximum concessions contract, which is 
now normally 10 years, but at a maximum of 20 years, to reflect 
the need of recovering that investment and also protecting the 
LSI investment, and if the Congress is interested we would be 
willing to talk more about the complexities of LSI.
    But very quickly, we believe that there are alternatives. 
The Chicago lakeside and the investment in marinas under 
alternative revenue bonds where those are paid for by the 
boaters and other users of the lakeshore are one example; 
historic tax credits that could be used to encourage investment 
in facilities needed for makeovers, both existing Park Service 
properties as well as perhaps facilities that come to the Park 
Service through military base reuse strategies. We think that 
the President's suggestion of an infrastructure bank for 
surface transportation may have applicability to the national 
parks and would be willing to talk about that.
    We also think that the Park Service, like Agriculture and 
Transportation, would benefit immensely from a multi-year 
program and an appropriations process to allow the kinds of 
thinking by both partners and the Park Service in needed 
infrastructure.
    Finally, we urge the Congress now, after more than 12 
years, to look at the implementation of the 1998 Concessions 
Act.
    Mr. Chairman, we are proud of the job that concessioners 
have been playing. We think we can, in fact, help the Nation 
continue to have a close and beloved relationship with their 
national parks, and look forward to working with the 
Subcommittee.
    [The prepared statement of Mr. Crandall follows:]

             Statement of Derrick A. Crandall, Counselor, 
                 National Park Hospitality Association

    Mr. Chairman and Members of the Subcommittee, my name is Derrick 
Crandall and I am delighted to appear as a representative of the 
National Park Hospitality Association (NPHA) to discuss the future of 
the National Park System and, in particular, the role of increased 
partnerships with the National Park Service (NPS) to protect parks, 
promote park visitation and provide outstanding services and 
experiences for the millions of people who visit units of the National 
Park System each year.
    Concessioners are proud of the important role they play in helping 
people enjoy parks. Visitors come to the national parks to be inspired 
by the beauty of the parks while relaxing, recreating, learning, and 
having a good time with family and friends. What we do as concessioners 
has a great deal to do with the overall experience when they visit the 
park. We're an integral part of the national park experience and an 
important element in helping the NPS meet its mission. We are working 
hard at demonstrating best practices in environmental management, and 
are ISO-certified in many parks. We are active in offering healthy, 
sustainable foods to park visitors. We are true partners with the 
National Park Service.
    Concessioners have served park visitors since the 1870's and today 
serve some 100 million park visitors annually in approximately 160 park 
units. NPHA members have a combined workforce of nearly 25,000 persons 
- mostly front-line, visitor-contact jobs - and provide in excess of $1 
billion in goods and services to visitors annually. Franchise fee 
payments to NPS generated from the approximately 600 concessions 
contracts exceed $70 million annually, or about the combined sum raised 
annually by the National Park Foundation and members of the Friends 
Alliance. And concessioners do far more than generate franchise fees. 
Our Guest Contribution programs operate in partnership with local 
friends organizations and the National Park Foundation. The NPF-
associated programs alone, in 13 parks, have generated $1.1 million for 
deserving park projects since 2006, including more than $300,000 in the 
year ending June 30, 2010. Concessioner marketing and park promotion 
efforts exceed $10 million annually, and are coordinated with the 
marketing and promotion efforts of state and gateway communities that 
equal that amount. Concessioners are leading efforts to find ways to 
focus promotion on the National Park System and those Americans unaware 
of the great benefits available through time in our parks rather than 
on specific parks and services and traditional park visitors. Most 
importantly, concessioners are committed to meeting America's needs - 
needs for healthier lifestyles, for better and lifelong educational 
opportunities, for strong local and regional economies that can sustain 
and protect our parks, and for connecting all Americans to our parks 
across differences in regions, ages, income and ethnicity.
    Concessioners are concerned that park visitation by Americans is 
lower today than several decades ago - even as our population has grown 
by 25%. While visitation to showcase parks remains stable, many other 
units of the National Park System offer wonderful experiences but are 
highly underutilized. In many cases, these less-visited, high-potential 
parks have limited visitor services, and this is an area we urge the 
Congress to examine. Some have argued that in today's complex, fast-
paced world, even if we build new facilities in these park units, 
people might not come. We can tell you that the evidence seems 
conclusive: if we don't provide park lodging, restaurants and more, 
people won't come and the relevancy of parks to our society is 
threatened. As we look at partnerships and parks, we suggest that 
concessioners can and should be prime partners in building a new 
generation of park-appropriate, LEED-certified, ADA-compliant and 
architecturally significant park structures. And concessioners can be 
equally prime partners in outreach and promotion - promoting not just 
increased park visitation but targeting especially use of the many 
under-visited and underutilized units of the park system.
    At a hearing on national parks earlier this year, Ken Burns, 
producer of the ``America's Best Idea'' series about national parks, 
praised the National Park Service's first Director, Stephen Mather, as 
a premier promoter and for working actively with railroads and others 
to build roads to and through parks and to build visitor facilities 
ranging from lodges to restaurants in the expanding National Park 
System. Mather's motive is clear from his oft-quoted statement: 
``Scenery is a hollow enjoyment to the tourist who sets out in the 
morning after an indigestible breakfast and a fitful night's sleep on 
an impossible bed.'' We enjoy the legacy of Stephen Mather today in the 
world-class facilities concessioners operate: El Tovar, Ahwahnee, Many 
Glacier Hotel and more. Ken Burns concluded his testimony by saying, 
``If you think you have a good park but no one knows about it, you 
don't have a good park.''
    Promoting national park visitation is important for many reasons. 
Not only is it good for jobs, but it also reconnects people to nature, 
provides them with an opportunity to be physically active, promotes 
learning, and strengthens families. Today we live in a world that is 
filled with distractions - a world where we can connect with 
information and communicate with people almost instantaneously. 
Unfortunately, these alternatives seem to increase the extent to which 
people become disconnected from nature and focused on virtual 
connections to places and to people. A recent study by the Kaiser 
Family Foundation indicated that the average American youth spends 7.5 
hours a day focused on a screen of some sort. No wonder that so many of 
the nation's youth are obese and at risk of Type II diabetes.
    The National Park Service and its partners - including 
concessioners - need to undertake new outreach and marketing efforts. 
The efforts would not be based on advertising - as if we were selling a 
car or a theme park. But the efforts should include outreach to schools 
and to families with children and greatly improved information on the 
internet. In fact, Secretary Salazar undertook a major outreach and 
marketing effort last year - which he is repeating again this year - 
creating fee-free periods at national parks.
    Mr. Chairman, we urge the Congress to act on several important 
opportunities to assure that the parks are able to remain relevant and 
loved over the next hundred years.
New, Enduring Visitor Infrastructure
    We urge you to help in the creation of new park facilities in the 
tradition of the grand, enduring structures, many predating the 
creation of the National Park Service in 1916, that are synonymous with 
the National Park System. Unique architecture and quality construction 
mark structures like the Ahwahnee and El Tovar Hotels, lodges in 
Glacier and Yellowstone and many more historic structures that help 
make 21st Century park visits lifelong memories. Yet not all visitor 
structures in our parks are grand, or even park-appropriate. Many of 
those constructed mid-20th century are quite unremarkable, are costly 
to operate, and produce inferior visitor experiences. These structures 
fail to meet expectations of the Congress, the agency, concessioners, 
and the public that our parks should serve as outstanding examples of 
design in harmony with nature.
    We believe that one of the greatest opportunities associated with 
the upcoming 100th anniversary of the National Park Service can and 
should be a limited number of new structures that, even in 2116, will 
still demonstrate national park-appropriate design and operations. This 
would mean quality design and materials that meet LEED and ADA design 
requirements. The resulting structures would minimize barriers to 
serving all Americans well while also achieving agency-espoused goals 
in energy efficiency, reduced water use, and other environmental 
objectives.
    The National Park Service has undertaken some important planning in 
this area, although much of the planning has focused on buildings that 
would be constructed with appropriated funds and used for visitor 
centers, offices and more. This base of knowledge, though, could be 
united with the knowledge of concessioners operating in the park and 
other companies to achieve truly outstanding results.
    New strategies to encourage non-federal capital investment in park 
visitor services and facilities are needed. Very few of the facilities 
now operated by concessioners were built with appropriated federal 
funds, and there is no reason to begin doing so now as the National 
Park Service approaches its 100th anniversary. Yet invitations to build 
new park facilities have been rare - certainly not enough to support a 
growth in capacity equal to population growth. And where new facilities 
have been added, like Cavallo Point in Golden Gate NRA, it has often 
been done as an exception to usual practices. It is noteworthy that the 
reuse of Fort Baker as a world-class conference center was initially 
proposed as a concessions contract. After careful study, all major 
current concessioners and other leading hospitality companies declined 
to offer qualifying bids. Fortunately, the combined vision and energies 
of GGNRA's NPS leadership and friends organization found an alternative 
course - a commercial lease which, ironically, could only be offered 
after concluding that there was no necessary visitor service to be 
provided at the location.
    The creation of the Lodge at the Golden Gate was financially viable 
only through a 50-year lease, through an approach to regulation of 
pricing of rooms and food radically at variance from the approach used 
by NPS with concessioners, and with an infusion of supplemental federal 
and Golden Gate National Parks Conservancy-raised capital. Contrast 
that approach with the NPS standard of a 10-year concessions contract 
and a concerted - and we think misguided - effort to expunge 
concessioner capital investments and limit clearly legal credit to 
concessioners for investments, as is being proposed in the now-pending 
concessions contract for Signal Mountain Lodge and related facilities 
in Grand Teton National Park. The decision to choose an alternative 
treatment of Leasehold Surrender Interest (LSI) under this contract is 
likely to decrease payments to the National Park Service by $3 million 
over 10 years, payments which are vital to facility maintenance and, 
because of the reduction, exacerbating the NPS serious deferred 
maintenance problem.
    We urge the Congress to redirect NPS efforts and we offer several 
additional ideas for accessing private capital for beautiful, state-of-
the-art, and enduring visitor facilities for the next century of park 
operations - structures that will be as beloved by the national park 
community in 2116 as the Ahwahnee is today.
    First, concessioners remain willing and able to invest in new 
visitor facilities, major renovations of existing facilities and 
conversions of buildings to new uses - especially as opportunities may 
arise at new park units. To do so, a minimum concessions contract of 20 
years is needed, possible under law, but a longer contract more 
comparable to that used at Cavallo Point or for ski areas in national 
forests would make this more viable. And concessioners need the 
protection of LSI provisions under the 1998 concessions act to make 
this investment economic.
    Second, Congress and NPS should look closely at the dramatic 
rejuvenation of the Chicago lakeshore by the Chicago Park District 
(CPD). Over a decade, some $250 million in investment has dramatically 
changed the park infrastructure on the lakeshore. Working in 
partnership with a concessioner with expertise in marina operation, the 
CPD has rebuilt and expanded nine recreational harbors with revenues 
from alternative revenue bonds. The added revenues from these 
improvements not only service the debt from the bonds - bonds that have 
no recourse to either CPD or the City of Chicago, but only to the 
revenue stream from the recreation operations on the lakeshore - but 
also provide some $15 million annually in new operating funds for CPD. 
And those paying the higher fees - mostly recreational boaters - are 
delighted by the improved safety and services. Happily, millions of 
other visitors to the lakeshore are also beneficiaries of the 
investment - at no cost to them!
    Third, NPS owns, and will be offered ownership of, many structures 
which, if privately held, would reward qualifying investments with 
historic tax credits. We urge the Congress to make investments by 
concessioners in these structures eligible for these tax credits. 
Noteworthy, after private investors in qualifying historic structures 
are rewarded with a 20% tax credit, the private owner then has 100% 
equity in the building and may sell the enhanced property for gain. 
Were historic credits to be offered to concessioners, ownership of the 
improved property would remain with the NPS.
    Fourth, the President has proposed a creative approach to 
leveraging federal funds in the surface transportation arena that is 
worth examining for use in other arenas. Part of his newly announced 
and ambitious six-year surface transportation measure, expected to be 
outlined fully in his FY2012 budget early next year, is a new 
Infrastructure Bank. Using $5 billion in federal funds as a guaranty, 
he proposes to raise $50 billion in private funds to be invested in 
surface transportation projects. While some of these funds would go 
toward toll roads and bridges with revenues, the concept also includes 
investment in projects that are strategic public investments. We urge 
this committee to look carefully at the concept of an investment bank 
applied to needed park infrastructure investments - utilities, lodges, 
campgrounds, marinas, transportation systems and more. It may well be 
that this new entity could be as vital to the future of the national 
parks in the century to come as the National Park Foundation is and 
should be.
    Fifth, we urge the Congress to understand the immense advantages 
accorded to federal agencies with multi-year programs and 
appropriations. In transportation, agriculture and other fields, a 
multiple-year program empowers the Congress to express clear long-term 
goals and priorities, and provides partners - states, local governments 
and business - to similarly develop multi-year strategies. The savings 
to the involved federal agencies can also be dramatic. The arguments 
for multiple-year programs and appropriations for transportation and 
agriculture seem applicable to America's park system - especially if a 
sustainable source of funding can be identified.
    Sixth, the Congress should conduct oversight on the 1998 
legislation, which changed concessions practices, to see if the results 
are really those intended. The shortening of most contracts, the 
elimination of preferential rights on contract renewals and the 
substitution of Leasehold Surrender Interest (LSI) for Possessory 
Interest (PI) have increased the flow of franchise fee payments to the 
National Park Service, but it is not clear that goals of reduced burden 
on concessioners and the agency or increased competitiveness are being 
achieved. Moreover, there is good evidence that combined with the 
restrictions of Directors Order 21, the administration of the act has 
discouraged companies acting as concessioners from adopting best 
practices in customer service, since guest satisfaction is poorly 
monitored and offers no advantages for excellence. This committee needs 
to know the hurdles concessioners often face doing the ``right thing.'' 
Not long ago, the long-time practice of a concessioner here in 
Washington to provide free hot chocolate to children attending the 
Pageant of Peace on the Ellipse caused a mini-firestorm because 
Directors Order 21 prohibits concessioners from contributing directly 
to charitable events in parks which they serve.
New Opportunities in Health and Education
    We believe that one of the most exciting opportunities for the 
national parks in the 21st Century is to recognize the measureable 
benefits the park system offers in fields such as education and health, 
and to develop sustainable funding responding to these contributions. 
There is good precedent. Beginning with ISTEA in 1991, a large share of 
park road costs has been shifted from natural resources appropriations 
to transportation appropriations.
    There is significant and growing evidence that parks are, and can 
increasingly be, playing a significant role in reducing the nation's 
healthcare costs. The nation now spends $2.7 trillion on healthcare, or 
about $8,000 annually per American. Of this cost, an estimated 70% is 
for chronic illnesses, which are lifestyle-induced and largely 
preventable. Historically, smoking has been the largest single 
contributor to these costs. Yet in the 21st Century, there is a new 
competitor for the top contributor to chronic illness: physical 
inactivity and eating patterns that are at the heart of an obesity 
epidemic with resulting illnesses ranging from diabetes to hypertension 
and strokes, cancer and depression. A growing army of medical experts 
is looking at parks and open space as cost-effective and successful 
intervention strategies.
    In conjunction with the underway America's Great Outdoors 
Initiative, we have teamed up with the Institute at the Golden Gate to 
begin the documentation of parks/medical community efforts. In 
locations ranging from Albuquerque to Brooklyn, doctors are prescribing 
parks. In Arkansas, we discovered that cardiologists had personally 
raised more than $1 million for construction and maintenance of an 
urban ``Medical Mile,'' offering both opportunities for healthy fun and 
information about ``minimum daily requirements'' for physical activity. 
Also in Arkansas, we learned that the University of Arkansas has 
invested $90,000 in expanding and upgrading a U.S. Army Corps of 
Engineers campground because studies show that patients receiving long-
term cancer treatment recover better and faster while staying in a 
park-like setting than in a hospital ward, a hotel or other facility - 
and at much lower costs. We see major healthcare insurers paying for 
park-focused activities for those diagnosed as pre-diabetic as a cost-
effective way to arrest the advance of the disease. We applaud the 
partnership of NatureBridge, Olympic National Park, TriWest Healthcare 
Alliance and others that is bringing wounded warriors and their 
families to that park to heal physical and emotional wounds. And in 
California, we have found a healthcare insurer committed to helping its 
insureds control healthcare costs with regular screenings and steps as 
unusual as treating park entrance fees as reimbursable expenses. These 
and other initiatives have been collected as a first round of case 
studies on Health and the Great Outdoors in a booklet submitted with 
this testimony, and we propose to continue this collection and sharing 
of best practices.
    In short, we believe that partnerships with medical interests are a 
huge opportunity for America's national parks, and one that should be 
encouraged and aided by the Congress. Much of this activity can be 
attributed to the impact of a recent White House Fellow. Dr. Michael 
Suk, an orthopedic trauma surgeon, was selected and somewhat surprised 
when he was assigned to spend his fellowship year aiding the Secretary 
of the Interior. His seminal work connecting health and parks is now 
paying immense dividends and prompts us to recommend the establishment 
of a on-going fellowship program placing a doctor in the Office of the 
Secretary of the Interior as Special Advisor for Health Programs, 
perhaps in conjunction with the Robert Woods Johnson Foundation, which 
already places 12 fellows annually within the U.S. Department of Health 
and Human Services.
    And we also believe similar partnership opportunities exist in the 
educational field. There is a growing body of evidence that 
experiential learning in parks achieves better educational outcomes and 
is cost-effective. And the educational community is reaching out to the 
parks community. Just 30 miles from Capitol Hill, Prince William County 
Schools - Virginia's second largest and fastest growing school system - 
is moving from pilot to full implementation of ED OUT, an outdoors 
learning program that enlists adjunct faculty from federal, state and 
non-profit entities and utilizes 16 recreation sites in the county, 
ranging from Prince William Forest Park to wildlife refuges. The 
program is far more ambitious than a day of outdoor learning, however. 
Students - and parents - receive information about summer fun that 
relates to the upcoming year's curriculum. Best of all, programs of 
this type can actually generate revenue for NPS and other agencies.
Funding Sustainable Outreach and Promotion Efforts
    As mentioned earlier, the NPHA believes that the National Park 
Service should undertake expanded outreach and marketing efforts - 
especially directed to urban Americans, Americans of color, new 
Americans, and other portions of the American public with limited 
traditions of park visitation. To facilitate this, we offer the 
following alternatives.
    One option would be to provide the agency with authority to utilize 
franchise fees paid by national park concessioners annually to support 
NPS outreach and marketing efforts. The NPHA urges committing 10% of 
the $70 million in total franchise fees paid, or some $7 million 
annually, to a new National Park Outreach and Promotion Fund.
    Alternatively, 10% of the receipts from annual sales of the America 
the Beautiful Pass could be dedicated to a matching fund to support 
park promotion efforts. Purchase of the annual pass - permitting access 
to virtually all federal recreation sites for 12 months - should be a 
major component of park promotion efforts. Holders of passes can be 
reached to communicate opportunities in parks - and because they can 
enter any park without paying an entrance fee, they are likely to be 
interested in learning more about when and where they can add to their 
park experiences.
    Current annual park pass sales are very limited, but a new 
promotion coalition could boost sales significantly, adding 
substantially to the current $175 million in park fees now collected 
annually. If these funds could be used on a 50-50 matching basis with 
resources from private sources such as non-profit and philanthropic 
organizations, concessioners and other private interests, then the NPS 
could double its money and greatly expand outreach to minorities and 
other underserved communities, young adults, families with children, 
and the ever-expanding number of older Americans with grandchildren. 
This effort would be good for gateway communities, generating jobs and 
added income, and could help to expand interest and awareness among an 
entire generation of Americans who, without this promotion, are likely 
to remain unaware of this wonderful legacy of national parks. If 
successful, this effort could reverse recent trends in park visitation, 
and help generate additional income to support the parks and improve 
facilities and visitor services.
Institutionalizing Creativity
    America's park and conservation community has been blessed with 
visionary leadership for more than 150 years - reflected in the world's 
first national park, the world's first national forest and national 
wildlife refuge systems and more. That vision continues. For many of us 
who had the pleasure to work with the late Brian O'Neill, long-time 
General Superintendent of Golden Gate National Recreation Area, we saw 
firsthand one of the leading contemporary visionaries in our field. We 
are enthusiastic about the interest of the Chairman of this 
subcommittee in exploring ways to encourage and nurture this visionary 
spirit within NPS professionals and partners to the agency. While it 
seems like an oxymoron to attempt to institutionalize untraditional 
thinking and partnership-based thinking, we believe that it can and 
should be done. Our experience with our annual Partners Outdoors 
program, an effort drawing some 150 carefully chosen, diverse public 
and private sector representatives to look afresh at challenges and 
opportunities gives us confidence that the Chairman's objectives can be 
met with the right kind of governance and leadership.
Summary
    Mr. Chairman and Members, we need to get Americans back in touch 
with nature, engaged in physical activities and outdoor recreation, and 
connected to the magnificent culture, heritage and landscapes that are 
celebrated by our National Park System. We need to reach out to youth 
to encourage them to share in the wonder and enjoyment of our national 
parks and discourage the increasingly sedentary lifestyles that are 
contributing to our healthcare crisis. We need to expand park 
visitation to encourage minorities, disadvantaged communities, new 
Americans and urban residents to see their national parks for 
themselves and to build a broader constituency for America's great 
outdoors. We need to find new and innovative ways to reinvest in the 
maintenance, restoration, and expansion of critical park infrastructure 
- much of which was built either by private investment when the 
national parks were first created, or in conjunction with the work of 
the Civilian Conservation Corps more than half a century ago. And we 
need to take advantage of new opportunities for partnerships in the 
health and education arenas.
    The National Park Hospitality Association and the national park 
concessioners want to help you, the National Park Service, and all 
Americans in achieving these objectives. As the 100th Anniversary of 
the National Park Service shines a light on America's Best Idea, we 
hope you will help us build on our longstanding partnership with the 
NPS to find new and innovative ways to improve the parks and create a 
new generation of Americans who share in the wonder of this amazing 
legacy. We thank you for considering our thoughts and recommendations. 
We would be delighted to provide additional information and respond to 
any questions you might have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much.
    Let me begin with you, Mr. Crandall. Toward the close of 
your statement you brought up how you encourage non-Federal 
investment in capital improvements in the parks. Can you expand 
on the alternative revenue bond and the historic tax credit 
concept that you brought up?
    Mr. Crandall. Yes. In Chicago, the entire lakeshore has 
been rebuilt with some $250 million worth of alternative 
revenue bonds issued by the Chicago Park District, but with no 
recourse to either the City of Chicago or its taxpayers. The 
recourse on that bond is exclusively from the revenues 
generated through leasing of slips to recreational boaters, and 
franchise fees paid by restaurants and other commercial 
operations along the lakeshore.
    The nice thing is that in addition to paying the entire 
service on the debt, it generates some $15 million a year to 
serve visitors who are paying nothing to enjoy the lakeshore. 
It has been a tremendous success.
    In terms of historic tax credits, as you know there are 
wonderful examples of buildings that have been restored through 
what effectively is a 20 percent tax credit to the investors in 
those structures. Now normally when a private individual does 
that on a private building they then own entirely this tax 
advantage property. What we would suggest is there is a logic 
to saying that if, in fact, the concessioner or another 
interest were to invest in something like the Many Glacier 
Hotel, the structure would remain the Park Service's, and so, 
therefore, the benefits of the tax credit would truly accrue to 
the public and remain with the public as opposed to becoming 
something that has value to the private investor.
    Mr. Grijalva. OK. Thank you.
    Mr. Puskar, give me an idea of how the Foundation 
determines which projects you are going to fund and what role 
does the Service play in that determination?
    Mr. Puskar. The Service plays an integral role in that 
determination and in that process. I would look at it in two 
ways. One, as I mentioned, the Director of the National Park 
Service serves on our Board of Directors. On an annual basis 
our board meets to discuss what the fundraising and grant 
program goals are going to be each year. He is a part of that 
discussion.
    Following the GAO report in 2004, we also responded by 
working with the Park Service to implement a general agreement 
between our organizations that spells out how, as staff 
members, we will work together to ensure that we implement 
those Board interests. What I can say is that from the 
beginning of each grant program, for example, we are involving 
the National Park Service Partnership Office, working with the 
park leadership. When it comes to handing out our grants, 
decisions are not made solely by the Foundation but experts 
within the Park Service are used who know best how things will 
work on the ground.
    Mr. Grijalva. Yes, one of the grant programs that you have 
initiated that I think has great potential for addressing some 
of the issues that other panelists have brought up about 
visitorship, increasing that number, is America's Best Idea 
Grants, about a concept of inclusion and bringing more folks 
in.
    Do you think there is enough oversight and enough 
coordination with the Park Service, because this is a central 
concept to building up the base of support from a variety of 
communities? Is there enough oversight going on in terms of 
those grants so that they are indeed doing the attraction and 
working to make sure that the parks are becoming more user 
friendly to a variety of communities?
    Mr. Puskar. I would argue that it is, by its very nature, 
entrepreneurial and experimental. In many ways, these grants 
serve as seeds for the Park Service to determine, at the local 
level, that this is an underserved community that needs our 
help. This is the way that community is telling us we may be 
better served.
    Mr. Grijalva. At what point, and maybe that is something 
that we can talk at another time, at what point do you evaluate 
if that seed took root?
    Mr. Puskar. At the end of each grant period, let us just 
say it is handed out in January, by September we are looking 
for the monies to be spent, a report given that we can then 
work with the Park Service to evaluate.
    Mr. Grijalva. OK.
    Mr. Puskar. And see if there is something that should grow 
more.
    Mr. Grijalva. Thank you very much. Mr. Bishop?
    Mr. Bishop. Could I just ask each of you if you would be 
kind enough to tell me in one sentence, it could be compound 
but not run on, what is the purpose of national parks?
    Ms. Asbury. I would say it is to connect our nation's 
citizenship to the culture and the heritage, and to preserve 
and protect those places for generations to come.
    Mr. Bishop. OK.
    Ms. Smartt. To protect our natural resources, tell the 
story of America and provide educational and recreational 
opportunities.
    Mr. Puskar. To protect the natural wonders of the United 
States and the places where history was made.
    Mr. Crandall. And I would say to provide the American 
public with a shared sense of treasured places that provide 
education, fun, and healthy activity.
    Mr. Bishop. Thank you all. Mr. Puskar, you provide within 
one of your services Electronic Field Trips.
    Mr. Puskar. Yes.
    Mr. Bishop. Which is exciting. Is there any substantial 
definable evidence that kids seeing the Electronic Field Trips 
actually attend the parks that they view electronically?
    Mr. Puskar. I do not have any data on how many children 
that are able to view this would then go onto their parks. 
Hopefully between the broadcast and the attendant educational 
materials they get a good sense of them and are hopefully 
inspired to get to the park closest to them--or to their 
backyard at the very least.
    Mr. Bishop. And I appreciate that as well. Some of our 
resources within the park system, like the mall, for example, 
are well visited by people who come to Washington, but they 
don't come to Washington to see the mall. It is a secondary 
impact. Unfortunately, many of our resources in the park system 
are out of the way, which means it has to be a destination 
point. So could I once again ask each of you, start with Mr. 
Crandall, how your entity makes the parks a destination point?
    Mr. Crandall. Well, it provides me with an opportunity to 
recall that the Park Service was once the Nation's travel 
department and, in fact, promoted--and I submit this for the 
record, a series of posters that were prepared during the CCC 
days. Today, one of the few organizations pushing for and 
promoting, putting onto the radar screen the national parks 
would be concessioners, although I would say that promotional 
activity is largely focused on the parks in which concessions 
currently operate.
    Mr. Bishop. Can I also recommend for your idea that if you 
really want to get more people attending the parks certain 
things be allowed to be found in the parks? Hint. Hint. OK, 
fine. Mr. Puskar.
    Mr. Puskar. I don't know how to follow that.
    I would say two things. One, I think the work that we are 
doing with friends groups to ensure that, at a local level, 
communities are able to engage with their parks, create friends 
groups, and in some ways drive economic development may help 
parks get more on a map, which is great. Second, as the 
national charitable partner, we look to work with the Park 
Service as best we can to make sure that people know that there 
are 392 units out there when they may suspect there are 14.
    Mr. Bishop. Ms. Smartt.
    Ms. Smartt. Our organization works with schools that we 
scholarship, and these are typically children that have not 
been to a national park. In fact, that is one of the questions 
that we ask in working with the schools, to survey the class 
not only their science education, but their experience with 
national parks. We don't have hard data. It is something we are 
looking at, their program evaluation, about what the impact is 
long term on these children in terms of their coming back with 
their families to the parks, but I think that is a large part 
of our effort.
    Mr. Bishop. Thank you. Ma'am.
    Ms. Asbury. Our organizations, particularly the cooperating 
associations, help to provide that intersection of taking the 
parks' story and putting them into tangible materials that the 
public can purchase or that they can learn about online, and so 
that opportunity for sights that are sometimes not commercially 
viable, or the big, you know, top 10 or 11 sites get their 
story out and people have the opportunity to connect to that. 
Also, the education of programs and the activities, such as the 
field schools and field institutes and the programs that are 
taking place, engage people in the parks that might not 
otherwise attend at an early age.
    Mr. Bishop. Thank you. I appreciate that. Obviously one of 
the issues we have with parks is the visitation. It is 
declining, the age of visitors is increasing, and those are two 
trends that are not boding well for the future of our park 
system. Thank you.
    Mr. Grijalva. Thank you, sir.
    Let me just follow up. Ms. Smartt, in your testimony you 
discuss some of the new hoops that you have to jump through to 
get an agreement with the National Park Service, and you also 
mentioned that these agreements are becoming overreaching and 
not workable. Can you give us some specific examples and 
discuss how that differs from past experience?
    Ms. Smartt. Yes. We have been working on a fundraising 
agreement for a new campus in Yosemite National Park. We 
started on it in draft in 2008, and were told by the National 
Park Service to quit working on it because we hadn't gotten a 
record of decision, so we had to quit working on that 
agreement, and it would be seen as pre-decisional if you are 
raising money for a project that you haven't gotten your record 
of decision on. So, we got into this kind of bureaucratic loop 
with the Park Service. That is the first time that has ever 
happened, and I am not sure what was driving the sensitivity on 
the National Park Service side.
    We are still in draft. That original 20-page agreement has 
now morphed into a 40-page agreement. The clause in it on donor 
recognition is in direct conflict with Director's Order 21, so 
there are parts of it that don't agree with other legal 
documents that the Park Service uses to guide its work. That is 
just one small example.
    Another example is we built a facility in Olympic National 
Park to house our children.
    Mr. Grijalva. Can I ask, just to follow up on that example, 
would the uniformity point, the template point that Mr. Wenk 
was making----
    Ms. Smartt. Yes.
    Mr. Grijalva.--would that help with----
    Ms. Smartt. It would help substantially, yes. Yes. And to 
make sure that everything in these agreements are in conformity 
with other rules and regulations. There are conflicts. There 
has even been a suggestion that they need to see the by-laws of 
our organization, so we have had a number of conversations 
around agreements that have not been particularly productive. 
We have a 40-year partnership with the National Park Service, 
and it seems a little odd after 40 years that they are 
concerned about our by-laws.
    We had operated in the Golden Gate National Recreation Area 
for 30 years, and our cooperative agreement came up for 
renewal, and they offered us a five-year agreement with the 
expectation that we were going to invest in facilities there. 
It goes to the heart of what Derrick Crandall was saying. Even 
for nonprofits, you cannot invest long term without long-term 
agreements. It doesn't make any sense. There are a number of 
those kinds of things that are quite different than when we 
started operating 25, 30, 40 years ago, depending on the park.
    Mr. Grijalva. Thank you. Ms. Asbury, tell us about the 
competitive bidding process that currently exists among 
nonprofits that are seeking to operate in the parks. Is this a 
common occurrence among organizations that you represent?
    Ms. Asbury. It is not now a common occurrence but it is 
something that our organizations see quite often creep into 
language about the importance of competition, and sometimes in 
situations where competition is not necessarily productive. I 
will use an example. It started with the Bureau of Land 
Management a few years ago when they were kind of the lead 
organization for placing all opportunities to work with the 
agency on grants.gov. So, examples would be like a cooperating 
association that may have had a longstanding relationship with 
BLM land, their agreement ended. In the past, it had been open 
to automatic renewal if they were doing a good job and being 
productive in the partnership. Suddenly those agreements 
started showing up on grants.gov, with a suggestion that they 
needed to be competed.
    So we recognize that there needs to be processes sometimes 
when there is a new opportunity to make sure that different 
entities have an opportunity to participate. However, when 
there are long-term established relationships that are 
productive relationships and are working effectively, it is 
disruptive to have that feeling of competition necessary to 
make things work into the future.
    Mr. Grijalva. Ms. Smartt, one last question.
    Ms. Smartt. Yes.
    Mr. Grijalva. The conflicts and problems that we were 
talking about in the last question, are they found at the local 
level predominantly or is it a higher level?
    Ms. Smartt. Actually, I think what has happened is we feel 
like we have been working very well with the local park, and 
then it goes to the region for review, and then it comes to 
Washington to the solicitor's office for review, and then it 
gets into this endless loop between the park and Washington 
with more and more layers of legalese and clauses added.
    Mr. Grijalva. Got you.
    Ms. Smartt. Yes.
    Mr. Grijalva. So it is at the higher level?
    Ms. Smartt. Yes.
    Mr. Grijalva. OK. Thank you very much. Mr. Bishop, any 
follow up? Thank you very much, and let me invite the next 
panel up.
    Thank you very much and let me begin with Ms. Nancy 
Chamberlain, Associate Dean, Department of Recreation and 
Parks, Northern Virginia Community College. Welcome. I look 
forward to your comments.

STATEMENT OF NANCY CHAMBERLAIN, M.S., C.P.R.P., ASSOCIATE DEAN, 
DEPARTMENT OF RECREATION AND PARKS, NORTHERN VIRGINIA COMMUNITY 
                  COLLEGE, ANNANDALE, VIRGINIA

    Ms. Chamberlain. Thank you, sir. Good morning, Mr. 
Chairman, and Members of the Subcommittee.
    Thank you for the opportunity to present the key components 
of the partnership between the Department of the Interior, 
National Park Service-Shenandoah National Park and Northern 
Virginia Community College. I am here before you today due to 
the dedication of my students and the recreation parks leisure 
services program at Northern Virginia Community College.
    The successful partnership with the National Park Service-
Shenandoah National Park was born of their efforts to bring the 
love of their national parks, forests and public lands to the 
lives of youth, primarily school-aged children.
    The RPK students, Recreation and Parks, designed a Students 
Encouraging Environmental Discovery Program or SEED in 2008 to 
address the disconnect between children and the environment. 
The SEED goal was to serve children who were both socio-
economically disenfranchised as well as nature disenfranchised.
    I want to highlight some of the--there are lots of 
successful components of this partnership. Some are most 
important, I think, for this Committee's concern. All partners 
share a common goal in reaching urban youth and providing 
quality, resource-based education. The National Park Service 
and the Northern Virginia Community College and our subpartner, 
Prince William County Park Authority, had this as a student-
driven partnership. College students cared for and designed 
this program.
    The National Park Service was receptive to the offer of 
partnership. It was designed and driven by academic goals and 
service learning objectives. The operational model between the 
partners was mutually determined. It was not imposed by either 
the goals and objectives of either of the partners in 
isolation.
    The task agreement allowed the National Park Service-
Shenandoah National Park staff to focus as subject-matter 
experts, and allowed the other partners to focus on daily 
operations and disciplinary requirements and monitoring within 
the program.
    I think the most unique feature of the partnership with 
Northern Virginia Community College and Prince William County 
is that we are programmatic partners. We are not fundraising 
partners and we are not research partners.
    Neither Northern Virginia Community College nor the Prince 
William County Park Authority partners proposed long-term 
projects, or projects that required maintenance or service 
beyond the actual program period. The Northern Virginia 
Community College maintains substantial volumes of equipment 
necessary for backpacking, camping, and hiking, and the goal of 
this particular partnership was to get youth into camping. 
Access to equipment made overnight experiences possible and 
reduced the financial risk to the National Park Service-
Shenandoah National Park for equipment.
    The National Park Service did design specific programs, 
destination subject matters, and demonstrated subject matter 
expertise, which was invaluable to the partners of Northern 
Virginia Community College-Prince William County Park. They 
customized the junior ranger program booklets for us and they 
were a fabulous hit. The National Park Service also made video 
cameras available to participants so they could document their 
experiences, and this was a fabulous mechanism to hold the 
attention of the youth. The goal is to use those materials in 
historical documentation in future marketing.
    There were some challenges as we have all discussed today, 
some bureaucratic requirements that were time-consuming and 
took our attention away from programming. The cooperative 
agreements, task agreements and memorandums of understanding 
needed to have been in place in January in order for us to 
implement mid-June operations.
    Funding notification needed to have come no later than the 
31st of January in order to implement June operations. The 
cooperative agreement process between the National Park Service 
and Northern Virginia Community College admitting mutual 
constraints was time-consuming and somewhere between three and 
four months.
    Time delays affected programming, compromised contracting 
periods, employee and volunteer screening schedules and 
marketing demands for the program. The time to negotiate 
cooperative agreements between the National Park Service and 
NOVA was in stark contrast to our time it took Northern 
Virginia Community College to negotiate a memorandum of 
understanding between Prince William County Park and the 
community college.
    The date of funding notification in March of 2009, in 
combination with the final agreement, was too late to deliver 
the program as originally structured. We went from a six-week 
program format down to a two-week program format. The date of 
funding came most too late for the marketing programs and the 
hard marketing materials for summer programs. Typically that is 
issued in mid-February. It proves to be difficult to celebrate 
partnerships with the National Park Service imprinted in static 
marketing materials in advance of funding notification or 
clarifications of the task agreements.
    As all of us have said, some of the effect of the changes 
in the partnership and the centralization of agreements seems 
to have been in response to a set of unknowns. What did the 
cooperative task agreement look like? What did the 
documentation look like? And what were the methods for 
distributing grant monies?
    The accomplishments were many--too many to highlight in our 
time period. The success of the partnerships was evidenced by 
the children completing the Junior Ranger Program and Leave No 
Trace Awareness Program that created constituencies between the 
parks, the National Park Service, and the families. Children 
have returned to the national parks since the end of this 
program. Children visited at least four programs in the 
national parks, and met park rangers. A multitude of high-risk 
youth were profiled and served--culturally diverse children 
with documented cognitive disabilities. The parents reported 
great things. My favorite was, ``My child was allergic to 
effort, but she can't stop talking about hiking and climbing.'' 
``My child was afraid to sleep in a tent but now wants her very 
own.''
    Program diversity was achieved because the National Park 
Service was flexible enough to let us visit one and two-night 
short experiences. The program served as the first experience 
in a national park for 80 percent of the children and the first 
time they had participated in a park program delivered by a 
park ranger. And 100 percent of the participants gave up their 
cell phones and electronic devices to play in the national 
park, and forgot to ask for their equipment when they went 
home. We thought that was great.
    The methodology for project determination from our agency 
is just that it meets our institutional capacity and curriculum 
goals, and that the principal and county park as a partner are 
prioritizing their Fiscal Year 2011 budgets for anything that 
has to do with environmental awareness or education.
    Recommendations: Refine partner types. There didn't seem to 
be a place for us----
    Mr. Grijalva. We are going to have to ask you to go a 
little faster on the recommendations.
    Ms. Chamberlain. That is fine. There was no place for us as 
program partners. We need some outlines on how to do that. What 
does the National Park Service need? Give us a list. Maybe we 
can get help from the academic community where it is not 
research-based. Expand questionnaires and qualifications. Make 
a checklist for who is an appropriate program partner and how 
that is devised. Share training with us as it has been spoken 
about before. We would be willing to serve as training 
facilities for the National Park Service in the local regions, 
and encourage National Park Service to reach out to colleges 
and institutions programmatically because there is an 
educational service learning modality issue and goal in the 
colleges and communities.
    Mr. Grijalva. OK, thank you.
    Ms. Chamberlain. Thank you.
    [The prepared statement of Ms. Chamberlain follows:]

Statement of Nancy A. Chamberlain, M.S., C.P.R.P., Associate Professor/
Assistant Dean, Recreation, Parks & Leisure Studies, Northern Virginia 
                 Community College, Annandale, Virginia

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the key components of the partnership by and 
between the Department of the Interior, National Park Service, and 
Northern Virginia Community College (NOVA) and Prince William County 
Park Authority (sub-partner).
Overview:
    I am before you today due to the dedication of my students, in the 
Recreation, Parks & Leisure Studies (RPK) at Northern Virginia 
Community College (NOVA). The successful partnership with Shenandoah 
National Park and the National Park Service is borne of their efforts 
to bring our love of the national parks, forests and public lands to 
the lives of youth.
    The RPK Program is the only two year Associate of Science program 
in the Virginia Community College System in the Commonwealth of 
Virginia. Faculty and students in this program are uniquely dedicated, 
as are other academicians and students across the United States, to the 
study of environmental education, recreation, stewardship and 
sustainability in parks, forests and public lands.
    The RPK students designed the ``Students Encouraging Environmental 
Discovery'' (S.E.E.D.) program in 2008 to address the disconnect 
between children and the environment in keeping with H.R. 3036: No 
Child Left Inside Act of 2008. Students were also touched by the 
publication of Richard Louv, ``Last Child in the Woods''.
    In a culminating academic assignment they were tasked to design a 
program that would address the lack of outdoor experiential learning 
opportunities for children. As a result since spring 2009, the S.E.E.D. 
program has delivered after-school programs in Fairfax County, 
Virginia's, School Age Child Care (SACC) centers along the Route 1 
corridor. RPK worked with Theresa Jefferson at the Bureau of Land 
Management (BLM), Lorton, Virginia office to deliver these after school 
programs to build on existing BLM programs in the local school 
district.
    The S.E.E.D. goal is to serve youth who were both socio-
economically disenfranchised as well as youth who were nature 
disenfranchised. Youth without quality access to parks, environmental 
education, outdoor discovery and stewardship opportunities were 
determined to be at risk by the S.E.E.D. program guidelines. The summer 
camp program ``Camp S.E.E.D.'' was an outcome of the after school 
program allowing the RPK program to continue its outreach to youth year 
round.
    My testimony will focus on six core areas today:
        1)  Components of Successful Partnership
        2)  Challenges in Partnership
        3)  The effect of National Park Service policy on partnership
        4)  Accomplishments of and benefits to the National Park 
        Service, Shenandoah National Park, Northern Virginia Community 
        College and Prince William County Park Authority by virtue of 
        partnership
        5)  Review methodology for project determination
        6)  Recommendations for future program partnerships
1. Components of Successful Partnership
        a)  All partners shared the common goal in reaching urban youth 
        and providing quality resource based education.
        b)  The NPS/NOVA partnership was a Recreation, Parks & Leisure 
        Studies student driven partnership. Shenandoah National Park 
        was receptive to the offer of partnership. Partnership with NPS 
        was driven by academic and service learning goals of RPK 
        program.
        c)  The operational model between the partners was mutually 
        determined and not imposed by the goals and objectives of 
        either partnership in isolation.
        d)  Division of responsibilities outlined clearly in the Task 
        Agreement which allowed the Shenandoah National Park staff to 
        focus on subject matter expertise across multiple disciplines 
        while NOVA and Prince William Park Authority staff provided 
        daily operations and disciplinary requirements of the program.
        e)  There were substantial and unique contributions made by all 
        partners which truly supported the cooperative agreement.
        f)  Northern Virginia Community College (NOVA) and their sub-
        partner, Prince William County Park Authority, are unique 
        partners. These agencies are programmatic partners not fund 
        raising partners.
        g)  NOVA and Prince William County Park Authority have their 
        own infrastructure to deliver similar projects, marketing, web 
        support, equipment, staff, registration capabilities, and 
        therefore did not place financial burdens on the NPS partner.
        h)  Each partner had different federal, state and municipal 
        guidelines and accepted tasks and responsibilities based on 
        bureaucratic capabilities rather than focus on restriction.
        i)  Neither the NOVA or Prince William County Park Authority 
        partners proposed long term projects nor programs that required 
        maintenance or service by any partner beyond the program 
        period. NOVA contributed equipment and materials necessary for 
        the program and makes this type of equipment available to this 
        and other programs throughout the year. NOVA uses this 
        equipment throughout the remainder of the year to meet 
        educational objectives. The nature of the finite program design 
        reduced financial risk for all partners.
        j)  NOVA Office of Grants Development could draw on past 
        experience with the task agreement documents and grants forms 
        from partnership with the Manassas Battlefield.
        k)  Professionals in partner agencies had unique and 
        unduplicated skills which contributed to the substantial and 
        diverse offerings within the program and stood as a testament 
        to cooperation.
        l)  NOVA's Recreation, Parks & Leisure Studies program 
        maintains a substantial volume of equipment necessary for a 
        backpacking, camping, and hiking programs. Access to equipment 
        made the overnight experience possible. Financial risk for 
        equipment was transferred from the park to the program partner. 
        The sub-partner, Prince William County Partner has a similar 
        challenge with respect to gear to facilitate overnight 
        experiences. Having camping gear available to families made the 
        cost of enrolling their child in the program more cost 
        effective. Lack of access to gear would have been a barrier to 
        both programming and participation.
        m)  Grant funding from NPS partner made programming available 
        off site from partner's agency location. New geography and new 
        experiences for staff and participants were afforded.
        n)  Grant funding from NPS partner made intense day-long ranger 
        programs available.
        o)  NPS partner had developed new programs that integrated 
        technology with resource investigations using hand-held GPS 
        units not available to NOVA or Prince William County Park 
        Authority partners. NPS staff served as subject matter experts 
        and trained staff and participants with GPS units.
        p)  NPS partner designed programs specific to the destination 
        demonstrating subject matter expertise which was invaluable to 
        the partners. The customized Junior Ranger programs booklets 
        were a great hit with participants.
        q)  NPS partner made Flip-Video cameras available to the 
        participants so they could document their experiences at the 
        park and throughout the week at other NPS locations. This was a 
        fabulous mechanism to hold the participants attention and gave 
        them ownership in an end product. The goal is to use these 
        videos to create marketing materials and historical 
        documentation of program success.
        r)  The NPS partner had radio communication in the park thus 
        affording emergency communication. Cell phones were 
        insufficient methods of communication in park due to 
        connectivity challenges. Radio communication was a substantial 
        part of the Emergency Action Planning for the partners when 
        taking children into the wilderness.
2)  Challenges in Partnership
        a)  Legal/bureaucratic requirements were very time consuming 
        and took away from program development.
        b)  All cooperative agreements, task agreements and memorandums 
        of understanding need to be in place no later than January in 
        order to implement operations in mid-June.
        c)  Funding notification needs to be released no later than 
        January 31 in order to implement operations in mid-June.
        d)  Cooperative agreement process between NPS and NOVA (mutual 
        constraints) was too time consuming (3--4 months). Delays 
        consumed valuable programming time and compromised contracting, 
        employee and volunteer screening schedules and program 
        marketing demands. The time to negotiate the cooperative 
        agreement between NPS and NOVA stands in stark contrast to the 
        one month it took to negotiate a Memorandum of Understanding 
        between NOVA and Prince William County Park Authority.
        e)  Date of funding notification in March, 2009 in combination 
        with the final Task Agreement completion (June, 2009) came much 
        too late to deliver the program as originally designed 
        requiring major structural program changes as NOVA was not 
        willing to commit funds without the agreement in place and a 
        promise of funding.
        f)  Date of funding notification came to both NOVA and sub-
        partners much after summer program marketing materials had been 
        prepared and distributed in mid-February. One solution 
        discussed for FY2011 is to market the CAMP S.E.E.D. program 
        without regard to the availability of funding and to operate as 
        a full-cost recovery program. In the event grant funding was to 
        become available, scholarships would be made available and 
        publicized in web based format.
        g)  It proves to be difficult to celebrate the partnership with 
        the NPS in printed and static marketing materials in advance of 
        funding notification. Clarification of partnership outside the 
        scope of grant funding could be better defined.
        h)  Most Ranger programs are for limited time periods of 1 - 3 
        hours. Partners have expressed concern that without future 
        funding, access to day-long intensive Ranger programs like CAMP 
        S.E.E.D. will not be sustainable in future years.
3)  The effect of National Park Service policy on partnership
        a)  The NOVA partner's understanding of NPS transition toward 
        centralization of agreement approval through regional offices 
        seemed to create a set of unknowns regarding time required to 
        approve the partnership, coordinate task agreement and 
        cooperative agreement documentation and method/mechanism of 
        distributing grant funds.
        b)  The learning curve for the NPS in regard to partnership and 
        resulting new policies may create administrative delays.
        c)  The learning curve for future partners is steep and can 
        lead unnecessarily to frustration with the timing of programs 
        and program marketing (see Recommendation's section regarding 
        partner training).
4)  Accomplishments of and benefits to the National Park Service, 
        Shenandoah National Park, Northern Virginia Community College 
        and Prince William County Park Authority by virtue of 
        partnership
        a)  Partnership delivered successful resource based learning 
        evidenced by the completion of the Junior Ranger program and 
        the Leave No Trace Awareness program by participants promoting 
        environmental awareness and lasting concepts of stewardship in 
        the participants.
        b)  Created sustainable constituencies between partner 
        agencies.
        c)  Created connections between partner agencies and 
        participants and their families which have resulted in repeat 
        visits to Shenandoah National Park since program completion.
        d)  Participants visited multiple national park sites; Prince 
        William Forest Park, Antietam National Battlefield, Great Falls 
        National Park and Shenandoah National Park and one municipal 
        park, Locust Shade, Prince William County Park Authority.
        e)  Exposure of participants to healthy leisure activity 
        choices.
        f)  Program gained the attention of the Let's Move Outside 
        campaign which is supported by the Department of the Interior 
        and the Department of Agriculture. The Let's Move Outside 
        campaign is a part of First Lady Michelle Obama's nationwide 
        Let's Move campaign to end childhood obesity. For more 
        information regarding this program visit: http://7bends.com/
        2010/06/21/shenandoah-hiking-and-outdoor-program-for-families/.
        g)  A multitude of youth with high risk profiles were served in 
        both years 2009 - 2010. Participants were referred to our 
        program through Department of Social Services, school 
        counselors, and local police departments.
        h)  The program served a culturally diverse group of youth; 
        children with documented cognitive disabilities, children from 
        the local foster system, and children who received free and 
        reduced lunch in the public schools (used to evidence economic 
        need).
        i)  The program served a balance of male and female 
        participants.
        j)  Parents reported great things as a result of participation 
        in the program:
                -  My child is allergic to effort but she can't stop 
                talking about climbing and hiking!
                -  My child wants to work for the program next year as 
                a Counselor in Training.
                -  My children loved being in the outdoors.
                -  My child took me back to the park so I would know 
                about the trees and where we camped.
                -  My child wants to come back next year to help teach 
                the new kids!
                -  My child has spent his time differently after camp 
                and is beginning to choose better friends.
                -  My child has never enjoyed camp before participating 
                in Camp S.E.E.D.
                -  My child said that this program was one of his all 
                time favorites and he has lots of family camping 
                experience.
                -  My child could participate because you made access 
                to camping gear possible otherwise we couldn't afford 
                to send our child to camp.
                -  My child was extremely shy and now has the 
                confidence to express interests.
                -  My child was afraid to sleep in a tent but now wants 
                their very own tent and sleeping bag.
                -  My child had so much fun, I wish you would teach me 
                how to camp so I could take my whole family camping!
        k)  Attached please find photographs of engaged and happy 
        participants and their drawings about the environment (see 
        Appendix A). These pictures are evidence of the successful 
        delivery of meaningful outdoor experiences.
        l)  Offered diverse programming in the spirit of the Children's 
        Outdoor Bill of Rights (http://www.kidsoutside.info/
        billofrights.php); hike a trail, discover wilderness, camp 
        under the stars (we even brought in an astronomer), catch and 
        release frogs and insects, explore nature, play in the stream, 
        swim, hug a tree and celebrate the rich heritage of public 
        lands in their neighborhood and in their state.
        m)  Offered diverse programming in keeping with the concerns 
        raised in the H.R. 3036: No Child Left Inside Act of 2008.
        n)  Successful programs in past years increase likelihood of 
        future program success and increases in registration.
        o)  Program diversity was achieved. Not all children are 
        comfortable with a week-long sleep away camp. The use of 
        Shenandoah National Park campsites allowed shorter overnight 
        programs (1 and 2 night experiences).
        p)  The program served as the first opportunity for more than 
        half of the participants to spend the night outside, to spend 
        time in the dark, and/or to sleep in a tent. We combated 
        homesickness and fear of the dark by creating night programs 
        and having night-staff that were there to greet a concerned 
        child. We had lots of lanterns too!
        q)  The program served as the first experience for 80% of the 
        children to participate a Ranger program in a national park.
        r)  This was the first time that 83% of the participants (2009 
        - 2010) had visited Shenandoah National Park.
        s)  The program exposed participants to appropriate field 
        technology by creating exercises using hand-held GPS units for 
        resource investigation.
        t)  The 2010 program was the first time that 100% of 
        participants gave up their cell phones and other electronic 
        devices for two nights and three days and forgot to request the 
        return of these devices at the end of the program in Shenandoah 
        National Park. They didn't miss them. They forgot all about 
        them. The participants actually spoke to one another in person 
        rather than texting the child standing next to them. They spent 
        time writing in their journals, taking videos, interviewing 
        each other, interviewing the staff, interviewing the rangers, 
        drawing pictures, playing cards, making s'mores, helping clean-
        up, pitching tents, and cooking. Children slept on the way home 
        on the bus or talked together about their experience throughout 
        the week, admired their patches and their Junior Ranger 
        booklets. They were wet, dirty, tired, and loved every minute 
        of the great outdoors!
        u)  Northern Virginia Community was successful in meeting 
        stated commitment to partnerships. Shenandoah National Park was 
        identified as a partner under a 2009 Task Agreement. NOVA is 
        committed to partnerships that ``create gateways of 
        opportunity'' with ``local governments to develop key 
        relationships with local governments that are willing to invest 
        in NOVA as a strategic asset in their localities future''. 
        (http://www.nvcc.edu/president/strategic_vision.pdf)
        v) NOVA successfully partnered in 2009 with Community 
        Recreation Services, Camp Ravens Quest, Fairfax County 
        Government, Fairfax, Virginia to deliver the CAMP S.E.E.D. 
        program.
        w) NOVA successfully partnered in 2010 with Prince William 
        County Park Authority to deliver the CAMP S.E.E.D. program. To 
        view the program page please visit the link: http://
        pwcparks.org/RecreationGolf/LocustShadePark/SEEDSummerCamp/
        tabid/582/Default.aspx.
        x)  The Recreation, Parks & Leisure Studies program (NOVA) was 
        academically successful in creating educational service 
        learning opportunities for college students which helped to 
        facilitate career exploration for RPK students. Interest 
        stimulated supports the Student Career Experience Program 
        (SCEP) and Student Temporary Employment Program (STEP) 
        programs. It also planted seeds in the minds of participants 
        about careers related to the environment and outdoor 
        recreation.
        y)  Academic credit was awarded by NOVA to students who studied 
        issues in Camp Management (RPK 121) during the summer programs 
        at Shenandoah National Park.
        z)  The Recreation, Parks & Leisure Studies was successful in 
        placing students in part-time and full-time employment directly 
        related to the implementation of the CAMP S.E.E.D. program with 
        sub-partners.
        A1) NOVA students in the Recreation, Parks & Leisure Studies 
        program have expressed interest in the Camp Management course 
        and working with the CAMP S.E.E.D. program and Shenandoah 
        National Park up to a year in advance of the program 
        demonstrating dedication of college students to the program.
        A2) NOVA Recreation, Parks & Leisure Studies students and CAMP 
        S.E.E.D. participants have expressed interest in becoming 
        National Park Service, or U.S. Forest Service and Bureau of 
        Land Management employees.
        A3) Prince William County Park Authority identifies partnership 
        in general as one of their agency goals in their 2010 - 2015 
        Strategic Plan. The plan specifically states that the agency is 
        to ``Develop partnerships with a focus on environmental 
        sensitivity and awareness''. Therefore partnerships that share 
        dedication to ``environmental initiatives'' are of highest 
        priority.
        A4) Prince William County Park Authority has reached out to the 
        NPS locally as Prince William Forest Park (NPS) is the home of 
        Camp Mawavi for the last 5 years. Prince William County Park 
        Authority would prefer that the relationship be more than a 
        rental site for Camp Mawavi and enter into a partnership with 
        the park to benefit from the subject matter expertise of the 
        park employees and programs. For more information visit: http:/
        /www.pwcparks.org/Portals/0/Camps/PDF/
        Mawavi%20Brief%20Sheet%202010.pdf.
        A5) The 2010 grant allowed Prince William County Park Authority 
        to expand programming, program destinations and ability to work 
        with another National Park. Without this grant, Prince William 
        County Park Authority may not have considered Shenandoah 
        National Park (NPS) as a potential partner. Prince William 
        County Park Authority is committed to return to the park with 
        programs and hopes to formalize their partnership relationship 
        with the park.
        5)  Review methodology for project determination
                a)The Recreation, Parks & Leisure Studies program 
                (NOVA) selects projects based on relevance to course 
                content and curriculum goals, institutional capacity to 
                serve, ability to create service-learning opportunities 
                and student commitment from student leaders in the 
                Recreation & Parks Society (a NOVA Student Activities 
                organization which may be found on line at 
                www.nvcc.edu/rpk).
                b)  Prince William County Park Authority places a 
                higher funding (FY 2011) and programming priority on 
                all programs which have components of ``environmental 
                sensitivity, awareness, education, and stewardship''.
        6)  Recommendations for future program partners (non-
        fundraising partners)
                a)  Refine definition of partner types - create 
                guidelines and set parameters for program partners 
                (non-fund raising partners and academic institutions 
                not associated with research) and publish these 
                guidelines on the agency websites.
                b)  Develop links ``So you want to be a NPS partner'', 
                ``What to expect'' and ``Next steps'', and ``FAQ's'' 
                and add to the ``About Partnerships'' webpage. It looks 
                as though there are links created that are awaiting 
                activation on topics: Forming Partnerships, Partnership 
                Management, NPS Management Realities, Alternative 
                Funding, Special Partnerships that may address these 
                issues (www.nps.gov/partnerships/about.htm).
                c)  Develop a link on the ``About Partnerships'' 
                webpage to include a link to the ``Reference Guide to 
                Director's Order #21 Donations and Fundraising'' which 
                contains fantastic materials (www.nps.gov/refdesk/
                DOrders/DOrder21.html).
                d)  Develop partner suitability screening mechanism 
                (survey, questionnaire, or checklist) to help federal 
                agencies ensure suitability of and institutional 
                capacity of the partner (perhaps something like this 
                already exists).
        f)  Expand ''Dynamics of Successful Partnerships'' website page 
        in case studies section to include sample task agreements, 
        sample Memorandums of Understanding with sub-partners, 
        participation statistics and program outcomes may be featured 
        to encourage future partnerships (www.nps.gov/partnerships/
        inspiration.htm).
        g)  To address the concern regarding value of partnership so as 
        to reduce financial risk to the NPS, the NPS may wish to take 
        the opportunity to train existing partners and groups 
        interested in partnership side-by-side with their park managers 
        and employees (after pre-qualifying the partner).
        h)  Program partners may be willing to serve as regional 
        training locations in order to reduce demands on NPS facilities 
        and staff preparation for training. NOVA would be willing to 
        serve as a training destination.
        i)  Training of partners may be a pre-requisite to partnership. 
        Much as a pre-bid conference, if a partner is not willing to 
        participate in regional training, then their request for 
        partnership may be denied.
        j)  Training of partners may help to streamline and the process 
        of the task agreement and help set mutual expectations.
        k)  Negotiated timelines would aid partners with regard to 
        resource allocation, support contracts, hiring of staff, 
        background checks and coordinating volunteers and sub-partners.
        l)  NPS, USFS, BLM to systematically approach neighboring 
        community colleges, colleges and universities for program 
        support with the agencies as service learning is on the rise as 
        an educational modality.
Conclusion
    The opportunity to partner with the National Park Service at 
Shenandoah National Park has been inspiring. It has been a pleasure 
sharing this information with the Subcommittee on National Parks, 
Forests and Public Lands. All partners look forward to a sustained 
relationship with the National Park Service.
    Thank you Mr. Chairman and members of the Subcommittee for this 
opportunity to address the these important issues. I would be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Mr. Greg Moore, Executive Director, Golden 
Gate National Park Conversancy, San Francisco. Good to see you 
again, and we thank you for the hospitality you extended to us 
when we visited that fine part of the world. Thank you.

STATEMENT OF GREG MOORE, EXECUTIVE DIRECTOR, GOLDEN GATE PARKS 
             CONSERVANCY, SAN FRANCISCO, CALIFORNIA

    Mr. Moore. It was our pleasure. Chairman Grijalva, Ranking 
Member Bishop and Members of the House Subcommittee on National 
Parks, Forests and Public Lands. Thank you for the opportunity 
to testify today.
    At the Golden Gate National Park Conservancy we enjoy a 
very productive and excellent partnership with the National 
Park Service. Since our inception about 30 years ago, we have 
provided almost $200 million of support to National Park 
Service projects and programs at the Golden Gate National 
Recreation Area.
    In partnership with the National Park Service, we have 
developed a volunteer program that recruits 20,000 volunteers a 
year, providing 400,000 hours of volunteer service, the largest 
national park volunteer program in the country.
    Working with the National Park Service is an important 
honor for us. Together we have achieved significant results for 
the American public. We do this by effectively blending 
National Park Service talents in Federal appropriations with 
philanthropic dollars in support. We always ensure that the 
Park Service plans and priorities guide our direction as we 
seek philanthropic support.
    As the Subcommittee considers the important role of 
partnerships for the National Park Service, I have a few 
perspectives to offer.
    First, partnerships with the National Park Service should 
be fueled by effective collaboration. Clearly the most 
successful partnerships result from true team work and 
cooperation. They thrive when by the Park Service and the 
partner embrace common goals, realize what each partner can 
bring to the table, and set a strategy for success. This 
propels the Park Service vision, a vision of the American 
public bringing their time, their resources, and their funds to 
support our national parks. Through a collaborative framework 
the National Park Service partner can be a valuable ally in 
achieving that goal.
    Second, it is clear that an appropriate framework of Park 
Service review and approval of partnerships is necessary, yet 
the current system still needs some fine tuning. All park 
partners need to understand the fundamental responsibility and 
authority of the National Park Service to approve and review 
partnership projects and programs, but effective collaboration 
can sometimes get lost in a challenging array of regulatory and 
procedural requirements.
    The Park Service partnership review process still needs 
finetuning since they currently place a huge burden of time and 
expense, both on the NPS and its partners. The partner is 
required to secure a wide array of approvals at the local, 
regional and Washington level with multiple written agreements 
and many layers of review. This places uncertainty and workload 
on park partnerships and inadvertently creates barriers to the 
ultimate goal, bringing Americans together in support of their 
national parks. I believe a better balance can be achieved, 
promoting collaboration and streamlining the time and effort 
required in review and approvals.
    Third, supportive partnership tools need to be developed 
and updated. Partnerships in the National Park Service have 
clearly blossomed over the past three decades, but the 
authorities, the policies, and legal interpretations, in 
essence, the toolbox for implementing partnerships, has not 
kept pace with its growth and partnerships and the Service. 
There are really few custom-made tools for partnerships boards.
    Today, I don't believe there is any comprehensive 
legislation indorsing the importance of partnerships to the 
national park mission. There is no specific legislation 
supporting the role of cooperating associations or friends 
groups. There are few specific instruments for implementing 
National Park Service partnerships other than cooperative 
agreement authority and memorandums of agreement, which 
sometimes are stretched in their utility.
    In general, effective partnerships are not something that 
are secured through Federal procurement processes, competitive 
bidding, and assignment of significant government requirements 
and procedures to a partner. That is uncommon in the nonprofit 
sector. As has been mentioned before, most productive 
partnerships are long-term arrangements. Many Park Service 
partners have been operating for decades, some as far back as 
the 1920s, and the longevity of these partnerships should be 
considered beneficial and supported.
    Finally, a one-size-fits-all model will struggle to respond 
to the diversity of partnerships in the National Park Service. 
There are park partners with long tenures with significant 
project and program accomplishments, and close alignment with 
the National Park Service. There are mason partners just 
getting their feet on the ground and developing a relationship 
with the Park Service. A Park Service support structure should 
recognize this distinction, offering more streamlined processes 
for well-established organizations with solid track records, 
and offering training, support, and dissemination of successful 
efforts for all partners. This would significantly improve the 
effectiveness of these relationships across the spectrum.
    Chairman Grijalva, and Members of the Subcommittee, thank 
you so much for seeking our perspectives on this important 
issue of National Park Service partnerships. It is my distinct 
honor to work with the National Park Service and Members of 
Congress in ensuring the best possible future for what has been 
called America's best idea, our national parks. Thank you.
    [The prepared statement of Mr. Moore follows:]

Statement of Greg Moore, Executive Director, Golden Gate National Parks 
                 Conservancy, San Francisco, California

    Chairman Grijalva, Ranking Member Bishop, members of the House 
Subcommittee on National Parks, Forests and Public Lands, thank you for 
the opportunity to testify today along with my distinguished colleagues 
on this panel. I'm honored to present perspectives at this Oversight 
Hearing on Partnerships and the National Park Service.
    I serve as Executive Director of the Golden Gate National Parks 
Conservancy, as the Vice President of the National Park Friends 
Alliance (the network of 52 philanthropic nonprofits that collectively 
provide in excess of $50 million per year to national parks across the 
nation), and as a Board member of both the Association of Partners for 
Public Lands and the Conservation Lands Foundation. These affiliations 
have given me a broad perspective on partnerships with the National 
Park Service and other federal and state public land agencies. My 
comments today represent our experiences at the Parks Conservancy and 
also reflect the ongoing discussions of the NPS and Friends Alliance 
organizations across the nation.
    At the Parks Conservancy, we have provided about $200 million of 
support to park projects and programs at the Golden Gate National 
Recreation Area since our inception more than 25 years ago. We have 
helped develop a volunteer corps of 22,000 annual volunteers providing 
400,000 hours of service each year - the largest national park 
volunteer program in the nation. We have also raised significant 
philanthropic support and generated broad grassroots support for the 
parks through campaigns to restore and improve our parklands.
    Working with the National Park Service has been an honor for us. We 
have enjoyed a long-term, well integrated, collaborative, and very 
productive relationship. We have worked strategically and seamlessly 
together to support and advance park priorities. We have built a broad 
and deeply committed community of park supporters as volunteers, 
grassroots donors, and major philanthropists. We receive gifts - small 
and large - for park projects and programs. Nearly a decade ago, during 
the campaign for Crissy Field, an elementary school class raised funds 
to plant native plants, and the lead donor of that project gave the 
largest cash gift ever given to a National Park Service project.
    Nearly 90 years before that project, in 1908, the genesis of the 
Golden Gate National Recreation Area was a philanthropic gift - when a 
private donor purchased Muir Woods to save it from logging and damming, 
and then donated the property to the federal government as a national 
monument. And all of us know the power of contributing to something we 
care about -America has a proud national tradition of service, 
volunteerism, and philanthropy. National parks share that heritage; in 
fact, the inceptions of many national parks tell a remarkable story of 
these national traits in action.
    We should not think of philanthropic support to our national parks 
as being contrary to or in conflict with federal support and 
appropriations to our national parks. Since their beginnings, and for 
generations, national parks have been founded and made great by the 
American public - as taxpayers and as philanthropists. Partnership is 
not new to the national park system. Indeed it has long been vital to 
its existence and its greatness.
    Yet as the subject of this hearing suggests, partnership work is 
not always easy - and everyone seems to acknowledge that there is room 
for improvement. Especially now, as Americans are being asked to be 
more generous than ever in their support of their national parks, all 
of us must work to refine and establish the benefits, policies, 
procedures, and legal authorities that support partnership work.
    In this context, I have a few perspectives and accompanying 
recommendations:

Partnerships function best within a structure of thoughtful 
        collaboration, versus rigid regulation.
    The most successful partnerships in the Park Service result from 
true teamwork and collaboration. They thrive when both the Park Service 
and the partner embrace a common goal, recognize their strengths, 
weaknesses, and complements, and share the game plan for success. This 
is a collaborative framework. The Park Service asks the American public 
to help and is working to facilitate the public's contributions of 
time, expertise, and funds. Through a collaborative framework, an NPS 
partner can provide vital support to realize that vision.
    For long-term success, though, there need to be rules of the road 
and clear partnership parameters. Too often the collaborative framework 
is superseded by a regulatory framework, which places a huge burden of 
time and expense on the NPS and partner. The result is a system 
intended to safeguard the government from philanthropy rather than 
invite and promote philanthropy. The partner is required to secure a 
wide array of approvals with multiple written agreements that can 
require inordinate time and resources; requiring review by solicitors 
and attorneys at the regional and national level whose opinions may 
differ; and requiring approvals from officials at the local, regional, 
national level in both the administration and Congress. This puts 
tremendous burdens on both the partner and the National Park Service 
and creates barriers to ultimate goal - the bonding of Americans to 
their national parks.
    I believe a better balance can be achieved - weighing collaboration 
at least as heavily as regulation. My recommendation is establishing a 
joint commitment by the National Park Service and park partners to 
capture, disseminate, and formalize best practices in partnership 
management and to devote time and resources to training. Together we 
can develop mutually acknowledged best practices as an effective 
alternative to more layers of complex partnership regulations.
Supportive partnership tools need to be developed and updated.
    Partnerships in the National Park Service have blossomed in the 
past three decades, and more are emerging. But the authorities, 
policies, and legal interpretations - in essence the toolbox for 
promoting and nurturing partnerships - have not kept pace and do not 
always facilitate partnerships. There are too few custom-made tools for 
NPS partnership work.
    To date, I don't believe there is legislation specifically 
endorsing the function and importance of partnerships to the National 
Park Service mission. There is no comprehensive legislation 
specifically supporting the valuable role of cooperating associations, 
friends groups or National Park Service partnerships, with the 
exception of the National Park Foundation. There are few specific 
instruments for NPS partnerships, other than cooperative agreement 
authority and memorandums of agreements, which are limited in their 
utility. As a result, NPS partners are sometimes seen as programs to 
procure through competition and federal processes, rather than durable, 
long-term partners of our national parks. Many Park Service partners 
have been operating for decades, some dating back to the 1920s.
    Legislation such as Challenge Cost Share Authority seems to give 
the Secretary of the Interior broad authority to work with partners and 
share federal resources for common goals, yet we have been told by 
department and agency officials that more general federal law preempts 
the full utilization of that authority. As a result, we are not working 
as effectively as we can to combine federal and philanthropic funds to 
achieve a common result, and we are leaving untapped significant public 
goodwill and philanthropic interest.
    As one solution, I recommend strengthening the purpose and intent 
of the Challenge Cost Share authority through legislative clarification 
that reconciles its specific intent with general federal law.

NPS partnership policies and processes can be cumbersome, overly 
        cautious and time consuming.
    National Park Service Director Jon Jarvis has said that, 
``Increasingly partnerships are essential and effective means for the 
National Park Service to fulfill parts of our mission and foster a 
shared sense of stewardship that is so crucial for our future.'' The 
Park Service has recognized partnerships as important to its mission 
and has instituted some sound partnership principles as means to 
augment the agency's resources. But the policies that guide 
partnerships - and the procedures required to advance them - create 
barriers, lengthy delays, and uncertainty in how park-benefiting 
projects and programs can be delivered.
    A current effort is underway to establish template agreements that 
meet mutual needs. I recommend that this effort continue with an 
explicit objective to prioritize, simplify, and streamline the 
agreements, policies, and procedures that underlie partnership 
development and management.

Philanthropy is a competitive environment.
    The competition for philanthropic resources and volunteer support 
is very challenging, especially in today's economic climate. 
Environmental causes compete with social causes, and donors at all 
levels are bringing an unprecedentedly high level of selectivity and 
scrutiny to their giving decisions. More than ever, as donors are drawn 
by a cause, they are also determining which organizations can best 
deliver effectively, efficiently, and with the greatest degree of 
certainty and transparency in their projects and programs.
    A clear commitment by the National Park Service and Congress to the 
work of park partners can give a significant boost to our case for 
philanthropic support. The National Park Foundation has the 
congressionally chartered role of sustaining the national legacy of 
private philanthropy for our national parks and has carried out that 
role admirably. I recommend that local organizations with proven track 
records, as well, be given the opportunity to earn appropriate 
recognition and authority for the critical roles they play in 
sustaining philanthropic interest and action on behalf of the national 
parks.

A one-size-fits-all partnership model cannot respond to the diversity 
        of partnerships in the National Park Service.
    Park partners can vary significantly in their scale of operations, 
the size and diversity of their constituencies, their expertise, 
tenure, and track record, and their relationship with Park Service 
leadership and staff at the park level. There are park partners with 
long tenures, significant project and program accomplishments, and 
close alignment with the National Park Service. There are also more 
nascent partner organizations that are newly establishing or growing 
their support programs and building collaborations with their partner 
parks. A Park Service support structure that recognizes this 
distinction and offers more streamlined processes for established 
partners, as well as training, support, and dissemination of successful 
efforts for all partners, would significantly improve the effectiveness 
of these relationships across the spectrum.
    Chairman Grijalva, you have suggested that a Center for Partnership 
could be created within the National Park system to serve this and 
other functions, and we would be honored to assist in the development 
of that vision.

Federal and philanthropic funds should work together.
    Philanthropic and public funding are often considered in isolation. 
But in many spheres, including our national parks, the commitment of 
public funds can leverage significant philanthropic investment to 
achieve common objectives and tangible public benefit. We see this at 
the Golden Gate National Recreation Area time and again, and past 
National Park Service programs intended to leverage matching private 
support have proven very successful.
    Yet this very effective leverage is compromised by a policy that 
forces the separation of these sources on park improvement projects. 
Under current policy, the NPS is constrained from providing federal 
funds to combine with philanthropic funds as partners complete 
important park improvement and construction projects. This problem 
stems partly from the lack of legislation and/or policy designed 
specifically for our partnerships.
    I recommend and request that the Department of the Interior, the 
National Park Service, and Congress work with park partners to resolve 
the policy barriers to joining federal and private resources to 
accomplish National Park goals.
    Chairman Grijalva and members of the Subcommittee, thank you for 
inviting our perspectives on National Park partnerships and for 
considering these recommendations. It is my distinct honor to work with 
the National Park Service and members of Congress in ensuring the best 
possible future for what has been called ``America's Best Idea'' - our 
national parks.
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Jim Prater, Former Executive 
Director, Richland County Legislative Delegation. Welcome, sir.

 STATEMENT OF JIM PRATER, FORMER EXECUTIVE DIRECTOR, RICHLAND 
    COUNTY LEGISLATIVE DELEGATION, COLUMBIA, SOUTH CAROLINA

    Mr. Prater. Thank you, sir. Mr. Chairman and Members of the 
Committee, it is an honor and a pleasure to be here to talk 
about one of the highlights of my life--being involved in the 
partnership that created, designed and built the road and 
visitor's center at what then was the Congaree Swamp National 
Monument.
    In order to understand the partnership--and I have to add 
that after a lot of the concerns that I have heard expressed 
here this morning, I guess we were fortunate. Ten years ago the 
National Park Service said to us, if you can do it, we will 
take it, and all we had to do was build it.
    In order to set the stage for understanding our project, I 
am one of the few individuals who had the good fortune to be a 
part of the Citizen Action organization in 1976 that was 
responsible for the U.S. Congress creating and preserving the 
Congaree Swamp, and creating the Congaree Swamp National 
Monument. That Citizen Action had a profound and powerful 
effect on my career and choices.
    It was with that background and the creation of the 
Congaree Swamp National Monument that the park began to develop 
the entrance to the park. It was on a privately owned dirt 
road, and the family that owned that dirt road was told when 
the park was created that soon the National Park Service would 
have their own entrance road. Twenty years later, that family 
was still waiting on the new road. It was with that context and 
as a part of a local community effort to look at the three 
rivers that flow through Columbia, South Carolina, that our 
task force began to look at the role of the Congaree Swamp 
National Monument in an economic eco-tourism effort related to 
the rivers.
    And we decided for that portion of the county that the only 
way the Congaree Swamp was ever going to be part, and a focal 
point, of any eco-tourism and economic development strategy was 
if we solved the problem of access and the facilities in the 
park headquarters building. The headquarters building was so 
small we didn't have restrooms to accommodate school groups. 
Further complicating our situation was that the bridge over the 
local secondary road that was the most direct access to the 
park had been judged as failing and not able to accommodate 
school buses.
    So, it was with those lemons that we set out to create 
lemonade, I need to mention here that our partnership was a 
fortunate formation because of the effort that the local Park 
Service staff supported, and they attended every meeting. 
Martha Vogel and Fran Rametta and many of her staff attended 
every one of those discussions, many of those things not having 
anything to do with theirs. And out of that we decided that we 
would ask the National Guard to build the road and the 
visitor's center, and set about creating a partnerships whereby 
the National Park Service and the National Guard Bureau allowed 
troops from the National Guard and 30-some states across this 
nation to come in, in two-week rotations, and build the road 
and then the visitor's center. That was accomplished from 1998 
until 2001. We dedicated the facility in 2001, and in 2003, 
Congaree Swamp National Monument became Congaree National Park, 
South Carolina's first national park.
    [The prepared statement of Mr. Prater follows:]

  Statement of Jim Prater, Citizen Advocate for Congaree National Park

    From Citizen Action to Citizen Soldier--The partnership between The 
National Park Service, the National Guard, The River Alliance, The 
Richland County Legislative Delegation and Richland County that 
designed and built the Harry R.E. Hampton Visitor Center and Entrance 
Road at the Congaree Swamp National Monument (now Congaree National 
Park) in Columbia, South Carolina. A gift to the People of the United 
States.
    From Citizen Action to Citizen Soldier was the motto used by the 
local leaders of the Partnership to convey what we were going to do in 
the design and construction of a new entrance road, parking lots, and a 
new visitor center in the Congaree Swamp National Monument. The new 
facilities were to be worthy of the citizen action efforts of Harry 
R.E. Hampton, a newspaperman who first raised in the late fifties the 
issue of preservation of the incredible venue known to locals as the 
Congaree Swamp, and the powerful grassroots citizens effort that led 
the United States Congress to create the Congaree Swamp National 
Monument in 1976.
    The new facilities were to be built by the citizen soldiers of the 
National Guard who would come from units from more than twenty states. 
Each unit would spend two weeks on the project, complete their portion 
of the mission and hand off the project to the next unit. The project 
began with road construction in the summer of 1998 and culminated with 
the dedication of the new Harry R.E. Hampton Visitor Center in early 
2001. The mission was accomplished with only two people from the South 
Carolina Air National Guard on site from the beginning of construction 
to the final inspections for occupancy!
    With what will soon be ten years of reflection on this project, my 
admiration for what the partnership accomplished grows by the day. The 
remarkable cooperation between all the partners, first to the vision 
and then to the mission, sets a standard for all agencies and 
organizations whether federal, state or local in joining together for 
the best interests of all concerned. As in all good partnerships, each 
party gave a little, compromised a little, contributed a little, and in 
this case, risked a lot.
    The partnership paid off as all well executed ones do, with a 
synergy that created much more than any partner ever imagined. To 
support the new facilities, the South Carolina Department of 
Transportation replaced the aging bridge on the secondary road leading 
to the site (enabling school and tour buses to use the most direct 
route to the site). The South Carolina Department of Parks, Recreation 
and Tourism and local governments increased the public promotion 
efforts, which prompted more local and national media coverage of the 
Congaree Swamp National Monument. The new facilities and the increased 
visibility of our priceless site allowed the National Park Service to 
pay full tribute to Harry Hampton's original vision by designation of 
the site as Congaree National Park, the first National Park in South 
Carolina. Subsequent land acquisitions have added both to the size of 
the Park and its potential missions. Visitation numbers now rank 
Congaree National Park as one of the top ten destination sites in the 
state. The new facilities and the renovated and remodeled former 
headquarters, now allow education efforts that serve K-12 populations, 
the general public and higher education, both undergraduate and 
graduate levels.
    Visitation, exploration and education have contributed greatly to 
the local economy and local interest and concern for the ecosystem and 
Congaree National Park is at an all time high.
    We told each person who came to the project, to work, to visit, to 
contribute to the thank you parties for the Guard units, or who in any 
way became connected with the effort, that they were participating in 
the creation of a gift to the people of the United States. I believe 
that more now than ever.
Background for the Project Partnership
    With the formation in 1995 of the River Alliance, a local non-
profit agency to promote the utilization of the three rivers that flow 
through Columbia, South Carolina, the Congaree Swamp National Monument 
became a key piece of the strategy to connect rural Richland County to 
downtown Columbia, South Carolina, by developing new historical and 
cultural destinations. The CSNM was seen by many as an underutilized 
and underdeveloped resource but nonetheless a potential lead element in 
the long term eco-tourism strategy.
    There were several major obstacles to the CSNM becoming a focal 
point for the river related economic and tourism strategy. The first 
and most serious was access to the CSNM. The only way into the CSNM was 
a privately owned dirt road. The family who owned the road had agreed 
to allow access upon the creation of the Monument because they were 
told that there would be a new entrance road ``soon''. Twenty years 
later they were still waiting for the road. Fortunately for them, the 
Congaree National Monument didn't generate much traffic because of 
limited facilities at the site. The visitor center was small and 
cramped and had no bathroom capability for group visits. The bridge on 
the small secondary road that served as the quickest access to the site 
was judged not capable of supporting loaded school buses. The 
conditions in 1996 were hardly conducive to Congaree National Monument 
becoming the centerpiece for any kind of economic, educational or 
recreational strategy related to the Rivers.
    Fortunately for all of us, the discussions and strategy sessions 
and afternoon and evening sessions over cocktail napkins led to the 
enlistment of the four most important people in the partnership that 
was later to be formalized. These four people not only were crucial in 
the formation of the initial steps of the plan, but were also to become 
the chief advocates within their respective organizations and were 
responsible for bringing their agencies and organizations into the 
fold.
    Mike Dawson has served as the Executive Director of the River 
Alliance since its inception in 1995. As a retired US Army officer, he 
was fully aware of the capabilities of the military and the National 
Guard in particular. He also was cognizant of the fact that the 
National Guard had authorization to work on federal properties and knew 
all about the mechanics of making that happen. Mike is an engineer with 
a wide range of projects to his military credit and his knowledge of 
the construction process proved valuable in his recruitment of the 
second member of the team, Mike Stroble, a retired South Carolina Air 
National Guardsman who had served for many years in the civil 
engineering squadron.
    Chief Stroble, one of those rare individuals who spent his entire 
career looking out for the organization he loved, the South Carolina 
Air National Guard, and the people in it, knew everything about not 
only the SC National Guard, but also the workings of the National Guard 
Bureau. That Chief could pick up the phone and talk to anyone up the 
chain of command and be known and respected was of immense help in 
gaining the commitment of the National Guard to the project. Mike 
Stroble believed in the National Guard system and especially in his own 
South Carolina Air National Guard. His faith in his fellow guardsmen 
and his belief that they could handle the construction project mission 
inspired all of us to continue to map out the project proposal for 
presentation and official endorsement by all of the Partners.
    When Dawson and Stroble had convinced each other that the project 
was a possibility, they began collaborations with the third key member 
of the team, Martha Bogle, the Superintendent at the Congaree Swamp 
National Monument. Martha, vetting the project so thoroughly and asking 
a thousand questions, saw the possibility. She was an advocate for the 
site, her people, and the National Park Service mission from the start. 
Fully aware of any career implications, she became a leader in the 
formation of the partnership and brought with her a staff ally with 
boundless energy and local standing that became important. Fran Rametta 
had served as a National Park Ranger at CSNM from the early years and 
had become a known and well liked and respected member of the 
community. His boundless and enthusiastic support of the project, both 
in concept and later after approval, could not be praised enough. Fran 
and Martha were glue that held the staff together during any bumps in 
the process and there were some for sure.
    The initial project concept was brilliant. Get the partners to 
agree that we can replace the current privately owned dirt road access 
with a road on the National Park Service property. The construction 
would be done by the National Guard. When the road project is 
successful, we propose the construction of the new Harry R.E. Hampton 
Visitor Center with the same process.
    The road project was such a success that the private dirt road was 
replaced with a paved road and three wonderfully scaled parking lots at 
a minimal cost to the National Park Service. That set the stage for the 
most important discussion of the construction project and the rest is 
history.
    While I was only involved in this project from a local perspective, 
I must say that our National Park Service is to be commended for being 
a valuable and vital partner in this story. While I do not know the 
names and titles of everyone in the NPS who was involved beyond Martha 
Bogle and the incredible staff assigned to Congaree, I do know that the 
project would not have happened without support all the way up the 
chain of command. I also know that there were plenty of junctures where 
support could have been withheld or delays created. There was never 
anything but support for the mission and the NPS staff displayed a 
wonderfully cooperative attitude all the way to project completion. As 
a nation, we are to be grateful to the National Park Service that they 
ventured down this unusual path to provide this gift to the American 
People.
    There are two more projects in Columbia, South Carolina that are 
near and dear to my heart, and the only way they will ever be completed 
is through some type of partnership similar to the one I have 
described. The National Park Service was the first phone call the River 
Alliance made.
    As an illustration of the National Park Service attitude that 
permeated the Congaree Swamp Partnership, I want to pass on one story 
that was very important to me.
    During the construction project, one of the original citizen action 
group members, the President of Congaree Action Now, Jim Elder, a 
science teacher in Virginia, visited the project, one of the few times 
he had returned to the Swamp since the citizen rallies in the 1970's. 
He was so proud that the Congaree Swamp was to get facilities that 
would now do it justice, he was in tears.
    I asked Jim what he would put in the exhibits that would convey to 
visitors, Congaree the place. Without hesitation, he said, ``I would 
put a big Cypress tree in there, big enough that people could walk into 
it. Then I would have the sounds of the forest inside so that little 
ones could hear and feel the forest. The tree trunk should go all the 
way to the ceiling (30 feet high) so that rangers could tell them that 
in the forest outside that tree would go another 100 feet or more 
high''. That's what people should take away from the building.
    Today, if you visit the Harry R.E. Hampton Visitor Center, Jim 
Elder's vision is the focal point of the main exhibit hall. Executed 
perfectly. You only have to watch the children to understand.
                                 ______
                                 
    Mr. Grijalva. Thank you.
    Mr. Prater. Thank you, sir.
    Mr. Grijalva. Mr. Prater, let me begin with you. From the 
testimony and from your comment, it sounds like the local 
partners were very much behind the project. Let me follow up by 
asking how has the community benefitted with the addition of 
that road and that visitor's center? And that eco-tourism, 
economic development concept, how has the community benefitted? 
Has it been a tangible effect on the economy of the area?
    Mr. Prater. Yes, sir. I had to smile when Mr. Bishop 
mentioned the declining attendance. Our attendance from the 
time of dedication, the increase in attendance to the Congaree 
Swamp or Congaree National Forest has now placed it in the top 
10 in destination sites in the State of South Carolina. I don't 
know what last year's number were but there were well over 
150,000 at last count, and from countries all over the globe.
    The benefit to the local communities is that the increased 
visitation has led to the formation of a lot of small 
businesses in the area, restaurants and shops owned by local 
families to take advantage of that increased visitation. So, in 
addition to that, we have gained the visibility and the 
publicity. If I may, I would like to relate a story.
    I was in Maine in August on vacation and wound up in a golf 
tournament with my partner from Augusta, Maine, who turned out 
to be a boy scout leader. As a result of the national publicity 
related to the Congaree Swamp, he brought his boy scout troop 
from Augusta, Maine, to the Congaree National Park so that his 
kids could see that priceless piece of property in the face of 
the earth.
    Mr. Grijalva. Thank you very much and congratulations. It 
is good testimony.
    Mr. Moore, could you elaborate on the difficulty of 
combining, because you have spoken about this, the private 
funds with government monies in building projects? What is the 
solution to that?
    Mr. Moore. Sure, Mr. Chairman, I will quickly explain the 
issue. For years, our Conservancy effectively combined 
philanthropic funds with Federal funds to complete park 
improvement projects. We believed it was good leveraging 
because we would bring more funds to the table. The donors saw 
the effectiveness of this in terms of a Federal commitment 
being part of the project, and it was cost effective for the 
Conservancy to implement projects in a timely way.
    But in the past year the Department of the Interior has a 
policy interpretation that has prohibited pooling Federal and 
philanthropic funds for partnership construction projects. So, 
as a result, when we work to create a park improvement, we have 
to run duplicate contracts--one a Federal contract to implement 
the Federal money, and one a Conservancy contract to implement 
the private money. In our recent project, this caused the 
project costs to go up 25 percent from a $3 million budget to a 
$4 million budget.
    So, we would like to review that policy determination and 
see if there is any way to return to what we believe was a very 
effective system of leveraging Federal dollars for park 
improvement projects.
    Mr. Grijalva. And because of the success of the Conservancy 
and Brian O'Neill's work at Golden Gate, they serve as models 
for parks and friends groups around the United States. How do 
we pass on those lessons that you have learned there to other 
park managers and friend groups around the country?
    Mr. Moore. There is a tremendous demand within the Park 
Service and among partner organizations to learn the 
fundamental principles of good partnership. At Golden Gate, we 
are constantly requested to provide training and support to 
people from around the country and even around the world. It 
has been alluded to before. A good training curriculum would be 
beneficial. Brian O'Neill used to offer a training course at 
Golden Gate with the regional office that was well received, 
and even some type of partnership center or curriculum, I 
think, would be beneficial here.
    Mr. Grijalva. To formalize that training experience?
    Mr. Moore. Yes, exactly.
    Mr. Grijalva. Thank you. Mr. Bishop.
    Mr. Bishop. I do not have any specific questions for this 
panel but I appreciate your traveling here. I appreciate the 
written testimony you have given us as well as the verbal 
testimony given here. I am grateful that your visitorship is 
up, and see what happens when you fix the bridge. Thank you 
very much. Yield back.
    Mr. Grijalva. Mr. Sarbanes, sir.
    Mr. Sarbanes. Thank you, Mr. Chairman. This is a great 
hearing. I appreciate your convening it. It is a very important 
topic, the idea of partnerships.
    Mr. Prater, you are great advertisement for this national 
park, and I am feeling myself anxious to get down there and see 
it. One of my best friends lives in South Carolina, so next 
time I am down there I have to make sure I do a detour.
    I wanted to talk a little bit about what Congressman Holt 
had raised at the outset--his concern about the proper balance 
between what the partnerships bring to the table and the 
government's responsibilities to the National Park Service to 
maintain those facilities, the infrastructure, and so forth.
    I wondered if any of you would speak to kind of where you 
think the line is, and do you worry that as we celebrate these 
partnerships we may be creating an unfair expectation that the 
partners can bring resources to the table beyond their 
capacity? And how do we sort of police that boundary in a way 
that makes it work? And I will throw it open to anybody who 
wants to answer.
    Mr. Moore. I am happy to jump in. The former Chair of the 
National Park Foundation used to talk about the margin of 
excellence that partners can bring to national parks, and I 
believe that is an important concept. There has to be sound 
public funding of our national parks for partners to be 
effective at all. We count on the ongoing talents and resources 
of the National Park Service and even in our best of days could 
never replace those assets.
    So, our work tends to go where we can bring a margin of 
excellence to the incredible work of the Park Service through 
education programs, through park projects that we can speed up 
and make higher quality, and I think that is where the boundary 
should lie conceptually.
    The additional benefit of philanthropy, however, is that it 
does create stakeholders in our national parks, whether it is a 
small school child that gives 50 cents to put a native plant in 
the ground, or a donor giving a multimillion dollar gift, it 
creates a bonding to our national parks that reenforces their 
value and their importance in the mind of the American public.
    Mr. Sarbanes. Thank you. And you gave a compelling example. 
Once we embrace the idea that there is a partnership and feel 
comfortable that what is being brought to the table by the 
different partners is appropriate, then I think we want to make 
sure that the procedures that are in place help facilitate 
that, and not get in its way.
    You gave an example of a project where the costs had 
increased by about 25 percent because of the new procedures. I 
wonder if you could maybe supply us, not now but after the 
hearing, with a couple of sort of the best examples of how it 
was done previously in terms of a partnership arrangement where 
you see the real benefits and efficiencies that could come at a 
more streamline approach just so we can kind of compare and 
contrast that because I think that is a valid point.
    I have in my district Fort McHenry. Of course, we are 
beside ourselves because we are coming up on the 200th 
anniversary of the War of 1812, so we are planning a lot of 
activity around that. There is a new visitor center going up at 
Fort McHenry. It is an amazing resource because it is right 
there in Baltimore City, a beautiful national park and natural 
resource, and also, obviously, a very historic site. And we are 
always looking for ways to maximize that. There are a lot of 
wonderful partnerships underway. There is a Youth Ranger 
Program that is bringing high school students there in the 
summertime to train as rangers with opportunities to come back 
later. There is what we call the Youth Defender Day. Every 
September 12th we celebrate the Battle of Baltimore, you know, 
resisting the British attack on September 12th of 1814, and we 
have gotten 1,500 young people involved in that celebration in 
recognition. Every year now the Living Classrooms Foundation, 
which is a nonprofit in Baltimore, doing tremendous work with 
job skills and other training for young people is working with 
Fort McHenry. There are so many examples right at our 
fingertips of where these partnerships make sense, and 
nonprofits are coming to the table and philanthropists, and it 
is really a wonderful thing.
    I would like you to comment if you could. I am the author 
of something called the No Child Left Inside Act, which is an 
effort to promote environmental education broadly across the 
country. I think at last count we had 1,900 organizations 
nationally, regionally and locally who were members of this 
coalition that supports the legislation and, frankly, is a 
grass roots movement beyond that. The whole premise is that if 
you get young people outdoors and if you integrate that kind of 
approach into the educational program across the country, there 
are huge benefits. There are public health benefits, there is 
raising awareness of the environment as a benefit and, most 
importantly, the research shows that student achievement 
increases dramatically when they get this exposure to the 
outdoors.
    Now that is a little bit different, there was a comment 
before about these sort of virtual field trips that people are 
taking. I think that is great, but we also want to be thinking 
about how we actually physically get students out into the 
environment, and the most obvious partner for that is our 
National Park System.
    So, I wondered if any of you would comment, I was hoping to 
ask the last panel about this as well, but just comment on the 
idea of the National Park System not really even as a partner 
with our education system but as an extension of our education 
system. Really viewing our national parks as the premier 
outdoor classroom for the next generation, and what the 
benefits can be of approaching it through that kind of a lens. 
So, I will ask any of you to comment if you would like and that 
will be my last question.
    Mr. Moore. I will jump in. At Golden Gate, maybe because of 
our urban situation, our relationship with schools are 
fundamental to our work. We support the park's classroom 
program at Golden Gate, which reaches about 25,000 to 30,000 
students a year, and of course the NatureBridge has a campus in 
the park as well.
    The Conservancy operates in the environmental education 
center with the National Park Service, specifically focused on 
bringing kids from preschool all the way through college 
internships into the national park experience, and the benefits 
to the young people in terms of their education, the benefits 
in terms of their health, the benefits in terms of their 
leadership skills, the benefits in terms of their bonding to 
the National Park System and its values are completely obvious 
to us. I am happy to provide you more detail about those 
programs if you would like to see it.
    Now, the Children in Nature Network is a great network. We 
are part of the network, and they are hosting a major event in 
the bay area I think this November.
    Mr. Sarbanes. Right. Thank you.
    Mr. Prater. If I might respond to your previous question 
about the partnerships, I think where we run into problems many 
times is the failure to define, going in, what we are going to 
accomplish and what specifically each side of the partnership 
is going to bring to the table. In our situation, it was pretty 
simple. We are going to build a road to the visitor's center. 
How we were going to get there was the complicated part, and I 
might add to everyone here who is concerned about the National 
Park Service bureaucracy, you haven't seen anything yet until 
you deal with the National Guard Bureau and the Department of 
Defense, and we had both.
    But it was, you know, that relatively simple idea, this is 
what we are going to do, and these are the problems that are 
going to be solved as a result of our doing this. But then the 
mechanics of the legal requirements and who is going to 
supervise what, and at what stages, all of those kinds of 
questions were the things that we had to solve before we ever 
got to the point of anyone entertaining our idea. I think, 
particularly from a citizen perspective, citizen groups tend to 
quickly assume that because they donate money, they volunteer 
their time, and they pay their taxes, that what their 
particular group wants to do with the park is what ought to be 
done in the park. I think that is where the training aspect 
comes in. I think we need that on both sides. The bureaucrats 
need to understand how the citizen approaches things, and the 
citizens need training and support, and need to understand the 
requirements of the institution. In our situation, we were 
extremely fortunate in that we had probably the most 
outstanding chief of the South Carolina International Guard who 
knew everybody everywhere in the National Guard Bureau and was 
liked and respected, and Mike Dawson, the chairman of our 
group, the Executive Director of the River Alliance, was a 
retired Army Colonel who had a great deal of facility 
experience. So we were fortunate in that the people who came 
together with the original idea knew how both systems worked.
    But in talking to other folks and working with other 
people, it seems to me that the failure is that each side needs 
to be cross-trained in the other's world, in the other's 
experience, because where they fall apart are too high 
expectations or unrealistic expectations sometimes on the 
citizens' side about what they are going to do, and the 
failure, I think, sometimes on the bureaucratic institutional 
side is to understand how that could be.
    Mr. Sarbanes. Thank you. I appreciate it.
    Ms. Chamberlain. Just one more comment?
    I think the training also gives folks an opportunity to 
focus on what the academic institutions do. Is it an 
educational outcome when we bring young people to the park? 
What do we want, what is an immediate learning curve, what is a 
long-term learning curve? Maybe we should ask partners to track 
longitudinally what the return rates are for these youth, and 
how programs can be expanded.
    I am obviously not focused on shovel ready, I am more 
focused on the coming and doing it program. But, 
longitudinally, my life spans an entire existence with the 
national park. I even got married on the park birthday of the 
national park. So for me it is----
    Mr. Sarbanes. That is commitment.
    Ms. Chamberlain. Yes, it is commitment.
    [Laughter.]
    Ms. Chamberlain. But that could be tracked with our youth 
today. I think we need to focus some more energy on our 
training, asking what those educational outcomes are, measuring 
the educational outcomes for young people. I think that way the 
legislation, No Child Left Inside, can be better supported in 
the long run, and I would certainly like to see that happen. We 
also need to include college students. They tend to get left 
out in the K-12 conversation about bringing youth into the 
park. They really, truly are our next workforce, and this is a 
workforce development issue for me as well.
    Mr. Sarbanes. Thank you.
    Mr. Grijalva. Thank you, sir. Any other questions?
    Let me thank all the panelists, and for all the panelists, 
the previous panel as well, I thought Mr. Sarbanes' one 
question was a very important question. Information dealing 
with best practices and comparisons as to the situation now 
than the situation then would be very useful information for 
the Committee. I would urge all the panelists to provide those 
kinds of examples to us.
    With that, let me thank you all and adjourn the meeting.
    [Whereupon, at 11:59 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Delegate Donna Christensen 
follows:]

Statement of The Honorable Donna M. Christensen, a Delegate in Congress 
                        from the Virgin Islands

    Thank you Chairman Grijalva for this hearing, because I do think 
that partnerships with a mission to benefit the Park AND the community 
are the answer to issues in my district that you have heard first hand.
    Right now I am looking at a Fish Habitat Partnership to bridge the 
rifts between stakeholders for our fisheries and to comprehensively 
address the challenges our fisheries face.
    But the National Parks have already benefited from partnerships 
like our sister parks across the country.
    Long time relationships with the Trust for Public Lands, the Nature 
and Ocean Conservancies have expanded the National Parks and continue 
to help us protect some of our most precious resources.
    But our local government has been a great partner, for example at 
Salt River and possibly at Castle Nugent in the future; the local St. 
Croix and St. Thomas-St. John Environmental associations also. The 
Friends of the Park in St. John has been the best supporter the VI 
National Park could ask for, the St Thomas Historical Trust has begun 
to preserve and awaken the rich history of Hassel Island and there are 
more.
    But if there is one area where partnership could be strengthened in 
my district where many of our fellow Americans have made their home it 
is with the native community. The Park tries and has made good 
progress, but still needs to see itself more as part of the community 
and not just in the community.
    I hope this hearing will help us, through our witnesses, to find 
ways we can improve on the partnerships in my district and other parts 
of our country where National Parks are present.
                                 ______
                                 
    [A statement submitted for the record by Grace Lee, 
Executive Director, National Park Trust, follows:]

    Statement of Grace Lee, Executive Director, National Park Trust

Re: Where's Buddy Bison Been? A Partnership between National Park Trust 
                       and National Park Service

Background:
    As the Washington Post recently reported, large numbers of park 
rangers are due to retire in the coming years and the National Park 
Service is looking to recruit diverse young people to fill the ranks. 
In addition, the demographics of visitors at our nation's parks do not 
reflect the demographics of our country, and the rapidly growing number 
of inner city youth do not have the means or interest in connecting 
with our public lands.
    To reverse that trend National Park Trust, a 501(c)3 non profit 
land conservancy that works to protect critical park lands across the 
country has developed an innovative youth education program to connect 
kids of all ages and demographics to our parks and public lands. The 
goal of the program is to cultivate the next generation of 
conservationists.
Where's Buddy Bison Been?
    In just one year, Where's Buddy Bison Been? featuring our pint-
sized wooly mascot, Buddy Bison has engaged more than 2000 students in 
20 plus schools across the country. Buddy Bison is the ``voice'' that 
tells children ``explore outdoors, the parks are yours!''
    Along with his toolkit (filled with lessons plans, books, mini-
documentaries, games, and fun facts) Buddy Bison has been used by 
teachers of grades pre-K through 8th grade to transform our parks into 
outdoor hands-on classrooms. By sparking children's interests in the 
environment at a young age we are planting the seed for the next 
generation of park enthusiasts. Children enjoy taking Buddy Bison to 
different parks and sharing with us their photos and adventures which 
are included on his map at BuddyBison.org
    Currently, Buddy Bison schools are located in DC, Colorado, 
Maryland, Minnesota, Utah, New York, North Carolina, Texas, and 
California. In the coming months we will be adding schools in Nevada 
and Wyoming. Most of our schools are in underserved communities. 
However, because it is important to connect kids from all socioeconomic 
levels to our parks, we have four schools that are not in underserved 
communities.
Partnership with NPS
    A key component of the program is our partnership with the National 
Park Service. Working with park officials and educators, NPT has 
facilitated numerous trips to local parks for hundreds of inner city 
children who ordinarily would not have the opportunity to play 
outdoors. Our program would not be successful without their support and 
expertise.
    NPT does not receive any funding from NPS. In fact we have provided 
in-kind gifts of Buddy Bisons and T-shirts to hundreds of DOI and NPS 
staff members and officials. Since April 2010, in partnership with 
Eastern National, thousands of our Buddy Bisons have been sold in 60 
park stores in 20 states; the proceeds benefit our Youth to Parks 
National Scholarship Fund for at-risk students. We have been asked on 
numerous occasions to provide our life size Buddy Bison mascot at DOI, 
NPS, and Let's Move events. We receive our funding from major donors, 
corporations and foundations. We hope that the sales of our Buddy 
Bisons and other educational products will provide an additional steady 
source of revenue.
    Because of our unique relationship with schools, we have the 
ability to ``mobilize'' and engage thousands of students. The highlight 
last year of the inaugural year of our program was our Buddy Bison 
Earth Day celebration that coincided with the 40th anniversary of Earth 
Day. Working with NPS and DOI, we hosted more than 650 students on the 
National Mall with Secretary Ken Salazar, NPS Director Jon Jarvis, 
teachers, parents, and DOI employees. Most of the funding for the event 
was provided by NPT's donors and other environmental partners.
    More recently, we were contacted by NPS to bring our Buddy Bison 
students to the first national Fossil Day Celebration at the National 
Mall and Smithsonian on October 13, 2010.
Challenges of Connecting Kids to our Parks:
    Funding new funding resources: We have more schools that would like 
to be part of our Buddy Bison program and our current schools have 
asked us to help facilitate more park experiences. However the rate-
limiting factor to grow our scalable program is funding for staffing, 
resources and transportation. One of our most frequent requests is for 
funding for school buses.
    Scheduling and planning: In underserved schools, teachers do not 
have the resources and time to create a park experience for their 
students. We address this need with our program.
    Staffing at Parks: Some parks do not have staffing to work with 
schools. More staffing/volunteers are needed to work with schools that 
would like to visit the parks.
Partnership Challenges:
    Often we are unaware and do not understand the relationships 
between parks and their friends group and who best to contact if we 
want to plan an education program at a park. (We do not seem to have 
this problem when we are working on a land conservation program.) The 
NPS system is complicated and often challenging for us to comprehend 
and navigate.
    It would be very helpful if the Washington DC office of NPS had a 
partnership team that could be the first point of contact for non-
profits and friends groups to answer questions and direct us to the 
proper park employees and other potential non-profit partners.
    We would urge regional directors and the Washington partnership 
office to keep the cooperative agreement process streamlined so that 
they do not take long periods of time placing a financial burden on a 
non-profit. Also the policies and laws related to partnerships need to 
be communicated in a concise, comprehensive format to all involved.
    As the philanthropic of NPS, would NPF consider hosting a 
partnership summit where:
        <bullet>  NPF could learn about the work of other non-profits 
        and potential partners
        <bullet>  Non-profits groups can network
        <bullet>  Policies and laws of partnerships be presented; learn 
        do's and don'ts
        <bullet>  Build on their initiative to teach small friends 
        groups about fundraising by providing workshops

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
